<html>
<title> - [H.A.S.C. No. 112-86]THE FUTURE OF THE MILITARY SERVICES AND CONSEQUENCES OF DEFENSE SEQUESTRATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-86]

                       THE FUTURE OF THE MILITARY

                      SERVICES AND CONSEQUENCES OF

                         DEFENSE SEQUESTRATION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 2, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                      U.S. GOVERNMENT PRINTING OFFICE

  71-525 PDF               WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cfd8c7e8cbdddbdcc0cdc4d886cbc7c586">[email&#160;protected]</a>  




                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     BETTY SUTTON, Ohio
BOBBY SCHILLING, Illinois            COLLEEN HANABUSA, Hawaii
JON RUNYAN, New Jersey               KATHLEEN C. HOCHUL, New York
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jenness Simler, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, November 2, 2011, The Future of the Military Services 
  and Consequences of Defense Sequestration......................     1

Appendix:

Wednesday, November 2, 2011......................................    47
                              ----------                              

                      WEDNESDAY, NOVEMBER 2, 2011
    THE FUTURE OF THE MILITARY SERVICES AND CONSEQUENCES OF DEFENSE 
                             SEQUESTRATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Amos, Gen James F., USMC, Commandant of the Marine Corps.........     9
Greenert, ADM Jonathan W., USN, Chief of Naval Operations........     5
Odierno, GEN Raymond T., USA, Chief of Staff of the Army.........     3
Schwartz, Gen Norton A., USAF, Chief of Staff of the Air Force...     7

                                APPENDIX

Prepared Statements:

    Amos, Gen James F............................................    75
    Greenert, ADM Jonathan W.....................................    60
    McKeon, Hon. Howard P. ``Buck''..............................    51
    Odierno, GEN Raymond T.......................................    55
    Schwartz, Gen Norton A.......................................    67
    Smith, Hon. Adam.............................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................    89
    Mr. Garamendi................................................    93
    Mr. Hunter...................................................    91
    Mr. Johnson..................................................    92
    Ms. Sanchez..................................................    90

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    97
    Mr. Franks...................................................    97
    Mr. Griffin..................................................   111
    Ms. Hanabusa.................................................   109
    Mr. Loebsack.................................................   107
    Mr. Palazzo..................................................   112
    Mrs. Roby....................................................   113
    Mr. Schilling................................................   104
    Mr. Scott....................................................   107
 
    THE FUTURE OF THE MILITARY SERVICES AND CONSEQUENCES OF DEFENSE 
                             SEQUESTRATION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, November 2, 2011.
    The committee met, pursuant to call, at 10:08 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning. The House Armed Services Committee meets to 
receive testimony on ``The Future of the Military Services and 
the Consequences of Defense Sequestration.'' To assist us with 
our examination of the impacts of further defense cuts to each 
of the military services, we are joined by all four service 
chiefs. Gentlemen, thank you for your service. Thank you for 
being here. I really appreciate your willingness to be here 
before the committee today. I can't recall the last time that 
we had all four service chiefs on the same panel. This is a 
unique opportunity for our Members and greatly assists us with 
our oversight responsibilities.
    The committee has held a series of hearings to evaluate 
lessons learned since 9/11 and to apply those lessons to 
decisions we will soon be making about the future of our force. 
We have received perspectives from former chairmen of the Joint 
Chiefs of Staff, former service chiefs and commanders of the 
National Guard Bureau; former chairmen of the Armed Services 
Committees; outside experts; Secretary Panetta; and Chairman of 
the Joint Chiefs of Staff General Dempsey. Today, we have the 
opportunity to follow up on the testimony of the Secretary of 
Defense and Chairman of the Joint Chiefs of Staff to determine 
more closely the challenges faced by each of the Services.
    As I continue to emphasize, our successes in the global war 
on terror and in Iraq and Afghanistan appear to be lulling our 
Nation into a false sense of confidence such as a September 
10th mindset. Too many appear to believe that we can maintain a 
solid defense that is driven by budget choices, not strategic 
ones. But as we heard from witnesses again last week, defense 
spending did not cause the current fiscal crisis. Nevertheless, 
defense can and will be a part of the solution.
    The problem is that to date, defense has contributed more 
than half of the deficit reduction measures we have taken, and 
there are some who want to use the military to pay for the rest 
to protect the sacred cow that is entitlement spending. Not 
only should that be a nonstarter from a national security and 
an economic perspective, but it should also be a nonstarter 
from a moral perspective. Consider that word ``entitlements.'' 
Entitlements imply that you are entitled to a certain benefit, 
and I can't think of anyone who has earned the right ahead of 
our troops. By volunteering to put their lives on the line for 
this country, they are entitled to the best training, the best 
equipment, the best leadership that our Nation can provide.
    I hope our witnesses today can help us understand the 
ramifications of these possible cuts in relation to our force 
structure as well as our ability to meet the future needs of 
our national defense. How can we make sure the military is a 
good steward of the taxpayer's dollar without increasing the 
risk to our Armed Forces? Where can we take risk? But what 
changes would go too far?
    With that in mind, I look forward to hearing from our 
witnesses today. With that, I yield to Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 51.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and thank you for 
holding this hearing. It is an honor to be here with all four 
of our service chiefs. I appreciate your leadership for our 
military, and I also appreciate the series of hearings that 
this committee has had to examine the impacts of budget cuts 
and our deficit on the defense budget. I think it is critically 
important that we make smart choices in this difficult budget 
environment.
    There is no question that our debt and deficit have placed 
enormous pressure on our country, but also most specifically on 
the Department of Defense and our ability to adequately provide 
for the national security. Defense is 20 percent of the budget. 
It is going to be part of the solution. But as the chairman 
points out, it already has been. As part of the debt ceiling 
agreement in August, the defense budget has agreed to somewhere 
between $450 billion and $500 billion in cuts over the course 
of the next 10 years. Getting to those cuts will be a great 
challenge. But it is wrong to think the defense budget has 
somehow been held apart from our debt and deficit problems. It 
is quite the opposite. It has been front and center.
    So what we really need to hear from our witnesses today is, 
first of all, how they are going to handle those initial cuts 
over the course of the next 10 years; how they are going to do 
that in a way that continues to protect our national security. 
Because keep in mind, even though we do have debt and deficit 
problems, we also have growing national security threats. 
Certainly the threat from Al Qaeda and their affiliates 
remains. We have Iran and North Korea, who are both growing in 
capability and belligerence. And we also have the rise of 
China, both economically and militarily, just to name a few.
    So our threats haven't gone away even though the money is 
going to become harder to come by. So how we are going to 
manage that is critically important. Also, as the chairman 
said, to sort of point out the limitations on how far we can 
cut the defense budget beyond what we have already done, the 
true impact of sequestration, and how it would damage our 
ability to provide adequately for our national security.
    I would ask the witnesses in that testimony to get specific 
about it. We have heard a great deal that if you cut below this 
level, well, it is a question of raising the risk level. What 
does that mean? I think our country needs to hear specifically 
if you cut this much, here is what we won't be able to do and 
here is how it can potentially threaten our national security.
    So I applaud the witnesses, applaud the Department of 
Defense for going through the process of restructuring our 
defense budget, looking at a strategic review of where we are 
spending our money. That process is ongoing. I think it is 
critically important. And we look forward to hearing more about 
what choices you face and what we need to do to make sure that 
we adequately provide for our national security.
    With that, I yield back.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 53.]
    The Chairman. Thank you.
    Now, let me please welcome our witnesses this morning. We 
have General Raymond T. Odierno, Chief of Staff of the U.S. 
Army; Admiral Jonathan W. Greenert, Chief of Naval Operations; 
General Norton A. Schwartz, Chief of Staff of the Air Force; 
and General James F. Amos, Commandant of the Marine Corps.
    Gentlemen, thank you again for being here. I appreciate 
that, and we look forward to a candid dialogue this morning.
    General Odierno.

STATEMENT OF GEN RAYMOND T. ODIERNO, USA, CHIEF OF STAFF OF THE 
                              ARMY

    General Odierno. Thank you, Chairman McKeon, Congressman 
Smith, and other members of the committee. Since this is my 
first time to appear before you as the Chief of Staff of the 
Army, I want to start by telling you how much I appreciate your 
unwavering commitment to the Army and the Joint Force. I look 
forward to discussing the future of the Army and the potential 
impact of budget cuts on future capabilities, readiness, and 
depth.
    Because of the sustained support of Congress and this 
committee, we are the best-trained, best-equipped, and best-led 
force in the world today. But as we face an uncertain security 
environment and fiscal challenges, we know we will probably 
have to get smaller, but we must maintain our capabilities to 
be a decisive force, a force trusted by the American people to 
meet our security needs.
    Over the past 10 years, our Army--Active, Guard, and 
Reserve--has deployed over 1.1 million soldiers to combat. Over 
4,500 soldiers have made the ultimate sacrifice. Over 32,000 
soldiers have been wounded, 9,000 of those requiring long-term 
care. In that time, our soldiers have earned over 14,000 awards 
for valor, to include 6 Medals of Honor and 22 Distinguished 
Service Crosses. Throughout it all, our soldiers and leaders 
have displayed unparalleled ingenuity, mental and physical 
toughness, and courage under fire. I am proud to be part of 
this Army, to lead our Nation's most precious treasure, our 
magnificent men and women. We must always remember that our 
Army is today and will always be about our soldiers and their 
families.
    Today, we face an estimated $450 billion-plus in DOD 
[Department of Defense] budget cuts. These will be difficult 
cuts that will affect force structure, our modernization 
programs, and our overall capacity. And it will incur increased 
risks. We cannot afford to repeat the mistakes of previous 
reductions. I respectfully suggest we make these decisions 
strategically, keeping in mind the realities of the risk they 
pose, and that we make these decisions together, unified, to 
ensure that when the plan is finally decided upon, all effort 
has been made to provide the Nation the best level of security 
and safety.
    Our Army must remain a key enabler in the Joint Force 
across a broad range of missions, responsive to the combatant 
commanders, and maintain trust with the American people. It is 
my challenge to balance the fundamental tension between 
maintaining security in an increasingly complicated and 
unpredictable world and the requirements of a fiscally austere 
environment. The U.S. Army is committed to being a part of the 
solution in this very important effort. Accordingly, we must 
balance our force structure with appropriate modernization and 
sufficient readiness to sustain a smaller but ready force.
    We will apply the lessons of 10 years of war to ensure we 
have the right mix of forces--the right mix of heavy, medium, 
light, and airborne forces, the right mix between the Active 
and Reserve components, the right mix of combat, combat 
support, and combat service support forces, the right mix of 
operating and generating forces, and the right mix of soldiers, 
civilians, and contractors. We must ensure that the forces we 
employ to meet our operational commitments are maintained, 
trained, and equipped to the highest level of readiness.
    As the Army gets smaller, it is how we reduce that will be 
critical. While we downsize, we must do it at a pace that 
allows us to retain a high quality, All-Volunteer Force that 
remains lethal, agile, adaptable, versatile, and ready to 
deploy, with the ability to expand if required.
    I am committed to this, as I am also committed to fostering 
continued commitment to the Army profession and the development 
of our future leaders.
    Although overseas contingency operation funding will be 
reduced over the next several years, I cannot overstate how 
critical it is in ensuring our soldiers have what they need 
while serving in harm's way, as well as the vital role OCO 
[Overseas Contingency Operations] funding plays in resetting 
our formations and equipment, a key aspect of our current and 
future readiness. Failing to sufficiently reset now would 
certainly incur higher future costs, potentially in the lives 
of our young men and women fighting for our country.
    Along with the Secretary of Defense and the Secretary of 
the Army, I share concern about the potential of sequestration, 
which would bring a total reduction of over a trillion dollars 
for the Department of Defense. Cuts of this magnitude would be 
catastrophic to the military, and in the case of the Army, 
would significantly reduce our capability and capacity to 
assure our partners abroad respond to crisis and deter our 
potential adversaries, while threatening the readiness and 
potentially the All-Volunteer Force.
    Sequestration would cause significant reductions in both 
Active and Reserve component end strengths, impact our 
industrial base, and almost eliminate our modernization 
programs, denying the military superiority our Nation requires 
in today's and tomorrow's uncertain and challenging security 
environment. We would have to consider additional 
infrastructure efficiencies, including consolidations and 
closures commensurate with force structure reductions to 
maintain the Army's critical capacity to train soldiers and 
units, maintain equipment, and prepare the force to meet 
combatant commanders' requirements now and into the future. It 
would require us to completely revamp our national security 
strategy and reassess our ability to shape the global 
environment in order to protect the United States.
    With sequestration, my assessment is that the Nation would 
incur an unacceptable level of strategic and operational risk.
    Mr. Chairman and members of the committee, I thank you 
again for allowing me the opportunity to appear before you. I 
also thank you for the support you provide each and every day 
to our outstanding men and women of the United States Army, our 
Army civilians, and their families. Thank you very much.
    [The prepared statement of General Odierno can be found in 
the Appendix on page 55.]
    The Chairman. Thank you.
    Admiral Greenert.

  STATEMENT OF ADM JONATHAN W. GREENERT, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Greenert. Thank you, Mr. Chairman.
    Chairman McKeon, Ranking Member Smith, Members of the 
committee, it is my honor and I am, frankly, quite excited to 
appear before you today for the first time as the Chief of 
Naval Operations. I very much thank you, Mr. Chairman, and 
Members of the committee, for all you have done for our sailors 
and their families throughout the years.
    In the interest of trying the characteristic of a picture 
painting a thousand words, I have provided a little chart of 
where we are today, where your Navy is. We do our best 
operating forward at what I call the strategic maritime 
crossroads. We deploy from the ports in the United States--they 
are shown here as little dots--and in Hawaii. We have about 45 
ships underway on the East Coast and West Coast collectively, 
which are preparing to deploy; 145 ships underway today, total. 
So that is about 100 ships deployed. About 35 to 40 percent of 
our Navy--your Navy--is deployed today. It has been that way 
for about 3 years. For a perspective, in 2001, we had about 29 
percent of your Navy deployed.
    We operate out and about around what I call the maritime 
crossroads, where commerce is, where the sea lines of 
communication are, because it is about ensuring economic 
prosperity around the world and influencing in all the 
theatres. Those areas, those crossroads, they look like little 
bow ties perhaps or little bows, depending on your background.
    We operate from what I call cooperative security locations. 
Those are shown as little squares, from Guantanamo Bay in the 
Caribbean to Diego Garcia in the Indian Ocean to Singapore 
through Guam through Djibouti, Bahrain, and of course in the 
Mediterranean and in Rota. So we are clearly globally deployed.
    We are required to be forward, flexible, and lethal, as we 
demonstrated in Libya, Somalia, off the coast of Yemen, and of 
course today in Afghanistan, where we provide about one-third 
of the close air support for our brothers and sisters on the 
ground. No permission is needed for our operations, and we are 
all United States
sovereignty.
    As I said, it is about freedom of the seas for economic 
prosperity. And as we change operations in the Mideast from 
perhaps a ground focus, your Navy and Marine Corps will retain 
the watch forward. We will deter, we will dissuade, and we will 
assure. We will be postured to fight as needed. We are your 
offshore option. We won't be intrusive. We are stabilizing, and 
we continue to build partnership capacity with allies and with 
our friends.
    I just add as a clip, today there is a Chinese ship, a 
hospital ship, conducting operations in the Caribbean Sea, and 
has been on an around-the-world tour recently, doing their 
part, I guess, in the world.
    Our focus in the future will be the Pacific and the Arabian 
Gulf, but we won't be able to ignore the other regions. Where 
and when trouble emerges next is really unknown. And as has 
been stated in this room many times, the future is 
unpredictable, as we know. We have to be prepared. We have to 
respond when tasked. And our challenge is to posture for that 
possibility.
    But in the end, all that being said, we can never be 
hollow. We have to be manned, trained, equipped with a 
motivated force. We have to build the Navy of tomorrow--the 
ships, the aircraft, the unmanned systems, the weapons, and the 
sensors--and underpinning it all are our sailors and their 
families. We have to take care of the sailors, the civilians, 
and the families, and build, as I said, in the future the 
motivated, relevant, and diverse force of the
future.
    As John Paul Jones said years ago, and it still applies, 
``Men mean more than guns in the rating of a ship.'' But above 
all, we have to be judicious with the resources that the 
Congress provides.
    As we look ahead to this current budget plan that we are 
working on, about a half of trillion dollars over 10 years, it 
is a huge challenge. There are risks. It is manageable with a 
strategic approach and with appropriate guidance given. On the 
other hand, in my view, sequestration will cause irreversible 
damage. It will hollow the military and we will be out of 
balance in manpower, both military and civilian, procurement 
and modernization. We are a capital-intensive force. Going in 
and summarily reducing procurement accounts here and there will 
upset quite a bit of our industrial base, which in my view, if 
we get into sequestration, might be irrecoverable.
    In 1998, we had six shipbuilder companies. Today, we have 
two. We have six shipyards, going to five in 2013.
    The impact of the Continuing Resolution if we go beyond 
November 19th, I just mention two areas of concern in the near 
term. In manpower, we are fine through November 18th. But we 
would need additional funds through Continuing Resolution 
language, if need be, because our manpower starts ramping up at 
that point. So we would need assistance in that regard in 
manpower in the continuing resolution.
    Operations and management accounts are manageable through 
late in the first quarter. As we start the second quarter, Mr. 
Chairman, we would really be compelled to do what we have done 
in the past--defer maintenance, defer modernization of our 
shore sites, freeze travel, and maybe freeze civilian hiring, 
in that case, to get through. It depends on the date. But we 
have been engaged with your staffs. We appreciate their support 
and the support of this committee.
    I thank you for the opportunity to testify, and I look 
forward to your questions. Thank you, sir.
    [The prepared statement of Admiral Greenert can be found in 
the Appendix on page 60.]
    The Chairman. Thank you.
    General Schwartz.

 STATEMENT OF GEN NORTON A. SCHWARTZ, USAF, CHIEF OF STAFF OF 
                         THE AIR FORCE

    General Schwartz. Mr. Chairman, Ranking Member Smith, and 
Members of the committee, thank you for the opportunity to 
appear before you today. I am privileged to be a part of this 
panel of service chiefs to share the obligation of service 
leadership with them and to represent the Nation's airmen.
    I think that we all can agree that our men and women in 
uniform deserve all the support and resources that we can 
provide them and their vital mission in protecting the Nation, 
and on their behalf I thank you for your ongoing efforts to 
ensure that we care for our service members and their families.
    In this time of sustained fiscal pressures, the Air Force 
joins its Joint and OSD [Office of the Secretary of Defense] 
teammates in helping to solve the Nation's debt crisis. Last 
year, the Air Force identified $33 billion in efficiencies as 
part of the broader Department of Defense effort to reallocate 
$100 billion from overhead to operational and modernization 
requirements. The Air Force subsequently found an additional 
$10 billion in the course of completing the 2012 budget.
    We will continue to make extremely difficult decisions to 
prioritize limited resources and prepare for a wide range of 
security threats that the Nation will potentially face. But 
these difficult choices to assure effectiveness in a very 
dynamic strategic and fiscal environment must be based on 
strategic considerations, not compelled solely by budget 
targets. We must prudently evaluate the future security 
environment, deliberately accept risks, and devise strategies 
that mitigate those risks in order to maintain a capable and 
effective, if smaller, military force. Otherwise, a non-
strategy-based approach that proposes cuts without correlation 
to national security priorities and core defense capabilities 
will lead to a hollowed out force similar to those that 
followed to a greater or lesser degree every major conflict 
since World War I. If we fail to avoid the ill-conceived, 
across-the-board cuts, we again will be left with a military 
with aging equipment, extremely stressed human resources with 
less than adequate training, and ultimately declining readiness 
and effectiveness.
    Those of us at the table remember when we faced similar 
difficult situations in the years after Vietnam and the Cold 
War. We therefore join Secretary Panetta and Chairman Dempsey 
in advising against across-the-board cuts, particularly the 
sweeping cuts pursuant to the Budget Control Act sequester 
provision. At a minimum, they would slash all of our investment 
accounts, including our top priority modernization programs 
such as the KC-46, the tanker; the F-35 Joint Strike Fighter; 
the MQ-9 Remotely Piloted Aircraft, and the Future Long-Range 
Strike Bomber. They would raid our operations and maintenance 
accounts, forcing the curtailment of important daily operations 
and sustainment efforts, and they would inflict other second 
and third order effects, some of them currently unforeseen, 
that will surely diminish the effectiveness and the well-being 
of our airmen and their families.
    Ultimately, such a scenario gravely undermines our ability 
to protect the Nation. But beyond the manner in which the 
potential budget cuts are executed, even the most thoroughly 
deliberated strategy will not be able to overcome the dire 
consequences if cuts go far beyond the $450 billion-plus in 
anticipated national security budget reductions over the next 
10 years. This is true whether cuts are directed by 
sequestration or by Joint Select Committee proposal or whether 
they are deliberately targeted or across-the-board.
    From the ongoing DOD budget review, we are confident that 
further spending reduction beyond the Budget Control Act's 
first round of cuts cannot be done without substantially 
altering our core military capabilities and therefore our 
national security. From the perspective of the Air Force, 
further cuts will amount to further reductions in our end 
strength, continue aging and reductions in the Air Force's 
fleet of fighters, strategic bombers, airlifters, and tankers; 
as well as to associated bases and infrastructure, and adverse 
effects on training and readiness, which has been in decline 
since 2003.
    Most noticeably, deeper cuts will amount to diminished 
capacity to execute concurrent missions across the spectrum of 
operations and over the vast distances of the globe. So while 
the Nation has become accustomed to and perhaps has come to 
rely on effective execution of wide-ranging operations in rapid 
succession or even simultaneously, we will have to accept 
reduced coverage in future similar concurrent scenarios if 
further cuts to the national security budget are allowed to 
take effect.
    For example, the Air Force's simultaneous response to 
crisis situations in Japan and Libya, all the while sustaining 
our efforts in Afghanistan and Iraq, will be substantially less 
likely to happen in the future, as would effective response to 
other scenarios like Operations Tomodachi and Unified 
Protector, requiring concurrent action spanning across the 
globe in the operational spectrum; in this case, from 
humanitarian relief in East Asia, to combat and related support 
in North Africa.
    In short, Mr. Chairman, your Air Force will be superbly 
capable and unrivaled, bar none, in its ability to provide 
wide-ranging game-changing air power for the Nation, but as a 
matter of simple physical limitations it will be able to 
accomplish fewer tasks in fewer places in any given period of 
time.
    While we are committed to doing our part to bring the 
Nation back to a more robust economy, we are also convinced 
that we need not forsake national security to achieve fiscal 
stability. We believe that a strategy-based approach to the 
necessary budget cuts and keeping those cuts at a reasonable 
level will put us on an acceptable path.
    Mr. Chairman, Congressman Smith, and Members of the 
committee, on behalf of the men and women of the United States 
Air Force, I thank you for your support of our airmen, 
certainly their joint teammates, and their families. I look 
forward to your questions, sir.
    Thank you.
    [The prepared statement of General Schwartz can be found in 
the Appendix on page 67.]
    The Chairman. Thank you very much.
    General Amos.

STATEMENT OF GEN JAMES F. AMOS, USMC, COMMANDANT OF THE MARINE 
                             CORPS

    General Amos. Chairman McKeon, Ranking Member Smith, fellow 
Members of the committee, thank you for the opportunity to 
testify about your United States Marine Corps. As we face the 
challenging times ahead, the Marine Corps reaffirms its 
commitment through its traditional culture of frugality. You 
have my word that the Marine Corps will only ask for what it 
needs, not for what it might want.
    But before I begin, I cannot pass up the opportunity to 
briefly comment on your marines in Afghanistan. We continue to 
provide the best-trained and equipped Marine units to the 
fight. This will not change. Your marines continue to apply 
relentless pressure on the enemy and are setting conditions for 
success in the Helmand Province today. They have made great 
progress.
    Our forward deployed marines continue to have all they need 
with regards to equipment, training, and leadership to 
accomplish the mission. Thank you for your continued support.
    While our Nation moves to reset its military in a post-Iraq 
and Afghanistan world, it does so in increasingly complex 
times. As we explore ways across the Department to adjust to a 
new period of fiscal austerity, there emerges a clear 
imperative that our Nation retains a credible means of 
mitigating risk while we draw down the capacity and the 
capabilities of our Nation.
    Like an affordable insurance policy at less than 7.8 
percent of the total DOD budget, the Marine Corps and its Navy 
counterpart, Amphibious Forces, represent a very efficient and 
effective hedge against the Nation's most likely risk.
    We are a maritime Nation. Like so much of the world, we 
rely on the maritime commons for the exchange of commerce and 
ideas. Ninety-five percent of the world's commerce travels by 
sea. Forty-nine percent of the world's oil travels through 
seven maritime chokepoints. Many depend on us to maintain 
freedom of movement on those commons. We continue to take that 
responsibility
seriously.
    From the sea, we engage with and support our partners and 
our allies. We respond to crisis where we have no access rights 
or permissive facilities, and we represent our national 
interests around the world. When the Nation pays the sticker 
price for its marines embarked aboard amphibious ships, it buys 
the ability to remain forward deployed and forward engaged to 
assure our partners, confirm our alliances, deter our enemies, 
and represent our national interests. With that same force, our 
Nation gains the ability to globally respond to unexpected 
crises, from humanitarian assistance to disaster relief 
operations to noncombatant evacuation operations to counter-
piracy operations. That same force can quickly be reinforced to 
assure access in the event of a major contingency. It can be 
dialed up or dialed down like a rheostat to be relevant across 
a broad spectrum of operations.
    As America's principal crisis response force, we stand 
ready to respond to today's crisis, with today's force, today.
    Finally, the American people believe that when a crisis 
emerges, marines will be present and will invariably turn in a 
performance that is dramatically and decisively successful--not 
most of the time, but always. They possess a heartfelt belief 
that the Marine Corps is good for the young men and women of 
our country. In their view, the Marines are extraordinarily 
adept at converting unoriented youths into proud, self-reliant, 
stable citizens--citizens into whose hands the Nation's affairs 
may be entrusted. An investment in the Marine Corps continues 
to be an investment in the character of the young people of our 
Nation.
    Thank you for the opportunity to offer this statement. I 
look forward to your questions.
    [The prepared statement of General Amos can be found in the 
Appendix on page 75.]
    The Chairman. Thank you very much.
    For the last few decades we have been spending money that 
we didn't have, and I would say probably all across the 
Government we have probably had some spending that included 
some waste. And that probably is true in the Defense 
Department, as in all other departments of Government.
    I think Secretary Gates, looking ahead, seeing we were 
going to have some cuts a little over a year ago, asked you to 
find $100 billion in savings. He said that you would be able to 
keep that for things that you needed more, just balancing, 
finding efficiencies, finding ways to save money that had been 
spent for things that we didn't need as much as other things. 
You did that. And then he said you were only going to get to 
keep $74 billion of it; $26 billion I think was the number that 
had to be used for must-pay items.
    In the course of that, he said we found another $78 billion 
that we would be able to cut out of future defense costs. 
Before that, he had been giving speeches saying we needed to 
have a 1-percent increase over and above inflation just to keep 
where we are in the future years. That $78 billion wiped that 
out and it also caused a reduction in end strength in the Army 
and the Marines of 47,000 by the year 2015.
    And then the President gave a speech and said we had to cut 
another $400 billion out of defense. All of this has happened 
in the last year. And then we had the Deficit Reduction Act. 
And that had a number in it. We keep seeing that--$350 billion. 
But I met with Admiral Mullen not too long before his 
retirement and he said he had given you the number $465 billion 
that you had to come up with in savings over the next 10 years. 
That is already done.
    So when we all came back to start this new Congress and we 
talked about the budget and everything had to be cut and 
everything had to be on the table, people need to understand 
that out of the first tranche of cuts that we made, it was 
almost a trillion dollars, and defense was half of the table. 
And you had already done it. Those cuts that we are talking 
about are going to kick in in next year's budget, but you have 
already made the steps of already making those cuts, and I am 
not sure that that is happening across the rest of Government 
and I know it is not happening in the area of entitlements, 
which we are looking to the special committee to come up with.
    I think it is important that everybody understands that 
when we start seeing these cuts, they are going to find out 
that they are real. And as most of you have said, many of it is 
irreversible.
    When I met over the weekend with Admiral Greenert, we were 
down in Norfolk and I got to meet with the crew of the Cole. 
One of them asked me, he said, I have been in the Navy now 12 
years and they won't let me reenlist. I think that is just 
starting. And then another sailor asked me: What is going to 
happen to our retirement? What is going to happen to our 
future?
    All of those things are going to start coming. We have had 
now five hearings, as I mentioned earlier, and then one that 
talked about the impact on the Services. This will be the 
sixth. And then we had one last week with three economists 
talking about what will be the economic impact. And we don't 
have the total number of jobs that will be lost out of 
uniformed personnel, out of civilians working in defense, and 
out of the contractors that make the things that our 
warfighters use to protect our Nation. We do know that if the 
sequestration hits, it will be about 1\1/2\ million jobs.
    So we are talking about deep cuts in defense that will 
affect our readiness--it has to; that will affect, when it gets 
down to the bottom line, we are probably going to be talking 
about training. We are going to be talking about all of the 
things that we are trying to say are so important to have this 
top military, the best that we have ever seen in the history of 
this Nation, and all without a talk about threat or about 
strategy. It just comes from budget driven.
    Now I know if we had a clean sheet of paper, the first 
thing we would probably do is say look at the risks that this 
country faces, that the world faces, that we are the ones that 
stand between the risk and the rest of the world. I just want 
to make sure that when these cuts all start happening, when all 
of our people in our districts and all of the people we 
represent start calling us and saying, as they have been 
telling me when I go home and talk to them: That isn't what we 
meant; we just wanted to cut the waste. We didn't want to cut 
the ability to defend ourselves.
    I have seen this happen. We have played this movie before 
after World War I, after World War II, after Korea, after 
Vietnam. We draw down so that we won't be prepared for the next 
one. That seems to be our DNA. I think we need to stop and take 
a breath and relook at this because some of these cuts that are 
coming down right now we are not going to be able to reverse 
next year or 2 years from now. This sailor that is leaving that 
has 12 years in the Navy, it is going to take 12 years to 
replace him.
    General Schwartz, in your testimony you stated that the 
Department is confident that further spending reductions beyond 
more than $450 billion--I have heard numbers up to $489 billion 
that are needed to comply with the Budget Control Act's first 
round of cuts--cannot be done without damaging our core 
military capabilities and therefore our national security. This 
is very serious stuff that we are talking about.
    Further, General Dempsey told us that certain cuts would be 
irrevocable. Nevertheless, the notion persists that the 
Department can weather further cuts for a couple of years, so 
long as we increase funding later.
    That carrier that I saw those 20,000 people working on, if 
we just said, let's just put that on hold, you 20,000 people 
just take a little furlough, I have found though that many of 
them are addicted to eating and providing for their families. 
And we just ask them to take a little furlough and maybe next 
year we will come and pick up where we left off. You know, that 
is just not reality.
    Can each of you tell us whether you agree with General 
Schwartz's assessment and provide us with examples of cuts that 
would have lasting impacts even if appropriations were 
increased in a year or two?
    General.
    General Odierno. Chairman, thank you. First off, I would 
remind everyone that as we look at cuts in the next 2 years or 
so upfront, that today the Army still has over 100,000 soldiers 
deployed forward in Iraq, Afghanistan, and other places. And 
yes, we are coming out of Iraq at the end of the year, but 
there is still a significant amount of burden that the Army 
will face, at least through 2014, and it is important to 
remember that as we look at 2013 and 2014 and the impact that 
that would have on our ability to train and ensure that they 
are ready and equipped and have the processes in place.
    So some of the things, as you mentioned, we already are 
going to reduce our force structure to 520,000. And that is 
before we receive these additional cuts. And that will impact 
the OPTEMPO [Operational Tempo] of our soldiers. It will 
continue to impact the stress that is on the Army, its 
soldiers, its families. And as important--or not as important, 
but second in line, is equipment. And then ultimately this 
could--if we try to fund our soldiers and equipment, which are 
essential, it would then ultimately affect our training and our 
readiness as we look to deter in other areas as our enemies and 
adversaries watch us as we reduce our capabilities within our 
Army.
    It would also require--we have already had to consolidate 
depots. We have had to consolidate other areas of 
manufacturing. That is allowing us to save, gain efficiencies. 
And additional cuts would cause us to look at that even further 
and challenge our ability in our own industrial base to provide 
for our soldiers and equipment that we will need and readiness 
that we will continue to need. So it is across-the-board that 
we would be affected as we move forward.
    General Amos. Mr. Chairman, from our perspective, we share 
the same anxieties that my fellow service chiefs have over 
greater than a $450 billion addition to the bill. But what it 
will do for our Nation, there is no question it will reduce our 
forward presence.
    Admiral Greenert talked today about the Chinese hospital 
ship that is down in our hemisphere. Our lack of forward 
presence as a result of drawing back because we can't afford 
the operations and maintenance funds to deploy forward, we 
can't afford the ships, we can't afford the personnel to be 
able to do that, will be filled by somebody. That void will be 
filled by another nation. And the net result, we don't know 
what that might be. But down the road it could mean a lack of 
access, a lack of ability to engage and shape a nation around 
the world that our country believes it is important to be 
involved in. So, forward presence.
    There is no question that it will decrease our dwell time. 
As we shrink our force to pay the bill, we only have three ways 
that we can pay bills. One is in procurement, one is in 
personnel, and the other one is operations and maintenance. So 
you can dial those three dials in any combination, but there 
are three dials that we have.
    So as you increase the level of burden of the debt on the 
military, you are going to reduce the force presence; in other 
words, our force structure. That is going to decrease dwell 
time between units. It is going to decrease the quality of life 
of our service members.
    Finally, it will stagnate the reset. There is no doubt in 
my mind that we are going to struggle trying to reset the 
Marine Corps coming out of Afghanistan. For all our time in 
Iraq and Afghanistan, we purposely didn't rotate equipment in 
and out of there. We maintained it in theatre. We did 
maintenance in theatre and selectively rotated principal end 
items back. We don't have the depth on the bench to afford not 
to able to reset that equipment.
    As it relates to irreversible damage, the kind that we 
cannot regain again, I will offer a couple of thoughts. One 
would be the industrial base for naval shipping. Admiral 
Greenert talked a little bit about that, and I am sure he will 
talk some more. That could be terminal. But selfishly, as I 
look parochially at the Marine Corps, the two capabilities that 
are being solely built throughout the world--the only place it 
is being built is the United States of America--and that is 
tilt rotor technology and that is the short takeoff and 
vertical landing of the F-35B. There is not another nation in 
the world. So if those lines were closed, that becomes 
terminal. That will become irreversible. You will not be able 
to gain that back.
    The final and probably the most important point, because we 
are a manpower-intensive organization, is we will lose that 
leadership of those NCOs [noncommissioned officers] and those 
staff noncommissioned officers at the 5-, 6-, 7-year mark that 
have shouldered the burden of the last 10 years of our 
conflicts. We will lose that. They will leave. And it will take 
us another 6 to 10 years, as you said, to grow that sailor down 
in Norfolk or that staff NCO or NCO within the Marine Corps.
    Admiral Greenert. Thank you, Mr. Chairman. I think General 
Odierno and General Amos laid out the choices pretty well. Our 
choices are similar. But I go to, as General Amos said, the 
industrial base. Mr. Chairman, you were there. I was there.
    So we brought a submarine in on budget--actually, under 
budget, and early. And that is because they are in that mix. 
They have got the welders there. They have got the people 
there. They are rolling. If we interrupt that, clearly we will 
pay a premium when we attempt to reconstitute because we won't 
have that efficient process going in place.
    Right now, looking just at nuclear ships--and that is where 
you and I were, sir--we have 90 percent of the sub vendors--
these are the people that make reactors components, they make 
turbines and these sorts of things for the nuclear-powered 
ships--are single source. These folks, that is their 
livelihood, is this naval nuclear technology. So if we 
interrupt that, I don't know how many of these we lose or how 
we reconstitute it. Just don't know. As you said before, folks 
have to eat. So where will the welders go? Well, they will go 
somewhere else to work.
    We have design engineers--pretty unique skill--to build 
nuclear carriers and build submarines. We are in the early 
stages, as you know, of designing our next SSBN [Ballistic 
Missile Submarine]. We need those folks. So giving them a 
holiday is probably not going to work. When the British navy 
did something similar, they were compelled to do it, it took 
them 10 years to get to build the next submarine, and that is 
really not very efficient, as we know. There will be layoffs, 
as we mentioned before.
    To preclude that, we would have to go to force structure. 
So my pictorial here, you look around the world, so reduce 
force structure, where do you reduce the ships that are 
deployed? If you can't do that, then you will have to deploy 
them in a shorter cycle. We call that go into our surge.
    When you were down in Norfolk you heard the sailor say, we 
are kind of tired, because we are on a pretty rapid pace and 
turnaround now. So this would go on the backs of sailors. And 
those ships, which we need more time to train and to maintain 
the ships so that when we do deploy them they are fully ready, 
as General Amos said, to do the job of the Nation. So we would 
be compelled to go there to reduce force structure.
    So it is not a very good set of choices. But that is what 
we have to contend with. We have to do our best job realizing 
and figuring out in that regard.
    Thank you, sir.
    General Schwartz. Sir, I can't amplify what my colleagues 
have said, except to emphasize that your soldiers, sailors, 
airmen, and marines are not going to go on break. I think that 
is wishful
thinking.
    General Odierno. Mr. Chairman, if I could follow up on 
that. We talked at a low level of specific points but I think 
it is also important to think about it in a more strategic 
sense in the impact. From an Army perspective, I think about 
our ability to prevent, our ability to win, and our ability to 
build. I would just like to talk about this for a minute.
    Our ability to prevent is based on our credibility. And 
credibility is based on our capacity, our readiness, and our 
modernization. Our ability to win is based on us being decisive 
and dominant. If we are not decisive and dominant, we can still 
win, but we win at the cost of the lives of our men and women 
because of the time and capabilities that we have would not be 
equal to what we believe would allow us to win decisively. And 
third, as was discussed here with forward presence and other 
things, we have to be able to build. We have to build through 
engagement, through forward presence, through our ability to 
build partner capacity, our ally capacity, so we can go hand-
in-hand in protecting not only the United States but our 
allies. And ultimately, that is what this is about. And all 
these things we just talked about affect that. I think that is 
my biggest concern as we move forward.
    And we will have those who attempt to exploit our 
vulnerabilities if we are required to cut too much. They will 
watch very carefully at what we will do and they will challenge 
our credibility. They could miscalculate, which could cause 
some significant issues down the road for our own security.
    Thank you.
    The Chairman. Thank you. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I agree very strongly 
with the industrial base argument that you just made. It is a 
matter of losing core capabilities that are critical to our 
national security. And having U.S. companies that are capable 
of those core capabilities is also critical. It is not that 
well understood. But our U.S. companies are great partners in 
our national security in many, many ways. And we have seen over 
the course of the last 10 to 15 years a reduction in that and 
an increase in our reliance on international companies to 
provide some core capabilities. We don't want to see that slip 
and we don't want to lose the skill sets of our workers that 
are necessary to that.
    I also would like to add to that that it has an impact on 
the nondefense portion of our economy as well. The 
manufacturing skills, for instance, that are developed as we 
are trying to make some of our weapons systems have direct 
applications on the commercial side that lead to businesses, 
that lead to economic growth for us. So to hit that would be a 
very, very devastating impact on our economy.
    I do also feel the same arguments, however, apply to 
infrastructure, apply to transportation and energy, and a lot 
of the systems that that portion of our Federal budget funds. 
And also to education. I was speaking with someone from 
somewhere in Virginia, saying they are talking about maybe 
going to a 3-day school week to try to accommodate some of the 
local budget cuts that are being hit. That impacts our national 
security and our defense as well.
    And while I certainly agree with the chairman that 
mandatory programs, which are 55 percent of our budget, you 
can't deal with a 35- to 40-percent deficit and take 55 percent 
of the budget off the table, they, too, are important. 
Medicare, Social Security, Medicaid have a huge impacts on the 
quality of life for our citizens, which is why I have argued 
that revenue needs to be part of the equation, part of what we 
discuss. If we have these crushing needs across many different 
areas, part of it is making sure we have the money to pay for 
them. And while certainly our spending has gone up 
significantly in the last decade, our revenue has gone down 
significantly in our last decade as a percentage of GDP [Gross 
Domestic Product]. So I think we need to put everything on the 
table and be responsible about it.
    Those who may have watched the ``super committee'' [Joint 
Select Committee on Deficit Reduction] hearing yesterday, if 
the super committee's succeeding is that all stands between us 
and sequestration, then we have cause for concern. And we have 
an investment in trying to figure out a way to help the super 
committee succeed. And it is not rocket science. Put everything 
on the table, including revenue and mandatory programs. As long 
as those two things are off the table, all that is left is the 
discretionary budget.
    I care about the portions of the discretionary budget that 
aren't just defense. But if you just care about defense, that 
is more than half of the discretionary budget. It puts us in a 
very, very untenable position.
    The one question I have is you gentlemen have talked a 
great deal about our ability to project power and have a 
foreign presence. And I agree that that is incredibly important 
in maintaining our interests. One of the things that we 
frequently hear from folks who are looking for ways to save 
money in defense is overseas basing. Why do we have the troops 
we have in Asia, in Europe. I think you have done a pretty good 
job of explaining some of that. Talk a little bit more about 
how that foreign presence and the presence of those bases helps 
us and then also make clear the money. Because I think a lot of 
people don't understand that a lot of foreign partners pay the 
substantial amount of the costs of that forward presence. And 
if we were the to get rid of those foreign bases and simply 
bring those troops home, it would actually cost us more money, 
in addition to costing us some of the partnerships we have with 
countries like Korea and Japan. Could you lend a little bit of 
your expertise to explaining that?
    General Schwartz. Congressman Smith, if we want to be a 
global power, we have got to be out and about. And that implies 
having--and if we want to contribute to regional stability, 
that includes being forward. And that is, different aspects of 
the joint team can accomplish those tasks. But to be sure, if 
the Western Pacific, for example, is rising in strategic 
importance to the country, what we don't want to do--and you 
have heard the Secretary of Defense say this--is to arbitrarily 
reduce our presence there or reduce the capabilities, the 
breadth of capabilities that the team provides there. And this 
is true in other areas of the world.
    Clearly, in some areas in the Western Pacific the allies do 
assist us and provide us resources for basing and facilities, 
and so on and so forth. This is true both in Korea and Japan. 
And it happens elsewhere.
    Mr. Smith. And if I may, General, when you say rising in 
importance, I think it is important to point out why. It is 
economics, primarily. Access to overseas markets is critical to 
our economic growth. Certainly, access to energy. We all focus 
on oil, natural gas, and all that. But also access to critical 
minerals that are necessary for our economy. And if we don't 
have that presence and China does, they are in a better 
position to cut off critical economic needs for the health of 
our Nation. So that is the link that I think people need to 
understand.
    I am sorry, go ahead.
    General Schwartz. I will just conclude by saying that a 
byproduct of that presence is access. If you want to have a 
power projection military, it requires some measure of access. 
Some require less than others, I acknowledge, but the bottom 
line is having relationships with others and having access to 
locations where one--``lily pads,'' if you will, from which you 
can project power is vitally important to our Nation.
    Mr. Smith. Thank you.
    Admiral Greenert. Thank you for the question, Mr. Smith. 
Again, my chart, the little squares where you see a foreign 
nation, that is what I call a place, because it is not really a 
base because that is their sovereign territory.
    But we get on the order of--and it varies with the end 
rate; so that given--somewhere around $4 billion of host nation 
support from Japan. We have been partnered with them for over 
60 years. They share information with us. They are an amazing 
forward-leaning, high-end ally. It is more than information 
sharing and it is more than host nation support, where they 
take care of our families. We wouldn't be able to do Operation 
Tomodachi if we weren't forward and right around there. We 
wouldn't have been able to do the operation in Libya if we 
weren't forward and somewhere around there. The Pakistan 
earthquake. The Pakistan floods.
    If you go to Singapore, they have built a pier facility 
called Changi Pier, and they have provided that opportunity to 
us. That is host nation money. There is a command and control 
center there for humanitarian assistance, disaster relief, and 
they have offered us to use their piers for our deployments, to 
repair our ships, et cetera.
    Same story in Bahrain. We have had decades of interaction 
of building a relationship there. And they, too, offer us to 
berth our ships, repair our ships. Of course, as you know, our 
headquarters are there for Navy Central Command.
    So there is a host out there. You can see the advantage. 
And if we are not there, it is hard to influence. You can't 
surge trust and confidence. You have to build it.
    Thank you.
    Mr. Smith. Thank you.
    General Odierno. If I could just piggyback on the comments. 
Clearly, we are going to have to prioritize, though. There is 
going to have to be a prioritization that has to occur. As we 
develop a strategy, it will have to be based on that strategy 
where our forward presence is.
    And as was stated, Korea, Japan, the Army has relationships 
where we have shared costs and enabled us to be forward 
deployed in Pacific Kuwait for a very long time. It has helped 
us in funding many of the forces and capabilities that we have 
in the Middle East. So these will continue. In fact, some 
places, based on our strategy, we might want to expand those 
relationships and in others we will have to look at: Is it 
still viable and do we reduce? But we would have to come up 
with new ways to engage and new ways to work with them.
    As we look to Europe, one of the successes we have had is 
based on the relationships we have had and the forward presence 
we have had there, we have been able to develop our NATO [North 
Atlantic Treaty Organization] partners to work with us now in 
Afghanistan and as they did in Iraq and as they did in Libya. 
And that is because of the forward presence and continued work 
that we have done together for so many years.
    So that is very critical. We might have to come up with 
some unique ways to do those in the future in some areas. But 
there are other areas where we just simply will not be able to 
do that and will even consider increasing presence in some 
areas. That is going to be based on where we believe our 
interests are. I think those are the discussions that we have 
to have as we move forward.
    General Amos. Congressman Smith, one last thought about 
this. From a purely altruistic perspective, there is an awful 
lot of economics with regards to foreign presence. When you 
take a look in the--especially in the Pacific area, the 
Southwest Pacific area, if you take a look at the chokepoints 
that are there and the maritime commerce is--as I said in my 
opening statement, 95 percent of the world's commerce travels 
by seas and oceans, and they travel through those seven 
chokepoints. If you just take a look at the Gulf of Aden, take 
a look at the eastern side off the coast of Africa, all the way 
out in clearly blue water, with the piracy, imagine that 
happening to a large degree down in the Southwest Pacific and 
start thinking about oil and commerce.
    So, very selfishly, the commerce and the economics would 
want us--would seem to compel us to want to have forward 
presence.
    A year ago, I am reminded, just--it was in November, when 
things began to get pretty exciting in Korea. As I look back on 
that now, personally, I wasn't sure how that was going to turn 
out. I wasn't sure that things were not going to escalate to a 
point we might find ourselves back in Korea at a significant 
footprint.
    Our ability to have forward presence there in Korea, in 
Japan, to assure our allies, assure Japan that we have had an 
alliance for 70 years, is pretty significant. They do pay, to 
your point--our allies over there pay a pretty hefty price of 
their own moneys to forward-base and stage our U.S. forces 
there. So it is not completely without cost on them.
    So I think economics and forward presence are important, 
sir.
    Mr. Smith. Okay. Well, one thing is absolutely clear. We 
are not going to have more economic opportunity in this country 
if we have less influence in the world. It doesn't work that 
way.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    My first question will be for the record because there will 
not be time for an adequate response here.
    Many of us remember how, in 1950, a 540-man battalion-size 
task force of the 24th Infantry Division, under Lieutenant 
Colonel Charles Smith, was rushed to Korea on transport planes 
and moved north to block the enemy advance. Early in the 
morning of July 5, 1950, Task Force Smith took up positions a 
mile long just north of Osan. The North Koreans' advance was 
equipped with
T-34 tanks. Fire from two American 75-millimeter recoilless 
rifles did not damage the advancing T-34s. No anti-tank mines 
had been brought along, and anti-ship guns, a vital part of 
World War II armies, were no longer used.
    As the enemy tanks continued, the Americans opened up with 
2.36-inch bazookas. Second Lieutenant Ollie Connor fired 22 
2.36-inch bazooka rounds at the North Korean T-34 tanks, all 
from close range, with little or no apparent damage. Although 
the task force had inflicted 127 casualties, they suffered 181 
casualties and were so scattered it would thereafter be largely 
ineffective.
    The Battle of Osan is a low point in American history. It 
symbolizes the price in blood our troops pay for ill-
preparedness and inadequate equipment.
    Another part of this story is that, at the end of World War 
II, a 3.5-inch bazooka had been developed, but the program was 
terminated as part of the defense reductions following World 
War II.
    It is clear that if we continue to fight these 
discretionary wars at a time and place chosen, provoked by an 
enemy with weapons of his choosing, that any cuts in our 
military are going to put us in a position that we are going to 
be repeating the Army's experience at Osan or the Marines' 
experience at Chosin Reservoir.
    But the reality is that we borrow 42 cents of every dollar 
we spend. If we spent nothing on our discretionary programs, if 
we had no government at all, we would still have a several-
hundred-billion-dollar deficit. The reality also is that if 
further cuts in defense are not on the table and you do not 
have cuts in mandatory spending, you have to cut all of the 
other discretionary programs 50 percent to balance the budget. 
And balance we must, or we face bankruptcy as a country.
    Assume that the super committee is going to default and the 
sequestration is going to be triggered. What can you do with 
the military that remains in your service? What kind of 
missions can you perform?
    This will be enormously important in informing a study, a 
national strategy study, that we must conduct to determine how 
we are going to use our military in the future. If you would 
please include that for the record, because we do not have time 
here.
    [The information referred to can be found in the Appendix 
on pages 89 and 90.]
    Mr. Bartlett. General Schwartz, on October 12, 2010, you 
were quoted on the F-35 competitive engine issue as saying, 
``If Rolls and GE [General Electric] are so confident that 
their product will succeed and bring value to the taxpayer, it 
would be nice if they put a little more against the $1.9 
billion bill they would like the taxpayers to undertake.''
    This is exactly what the competitive engine contractors 
proposed to do, but instead of taking advantage of this 
opportunity, as evidenced by the original DOD F-35 acquisition 
strategy that supported competitive engine development--by the 
way, there never was a competition and the other engine won; 
that just didn't happen. Instead, the Pentagon supports a sole-
source--what is, in effect, a $110 billion earmark, because 
there is no competition, for the next 40 years for the single-
engine F-35 aircraft that is currently projected to comprise 
over 90 percent of the fighter planes in all of our Services 
and a major part of the fighter planes for all of our allies.
    The original development for the primary engine was to have 
been completed in fiscal year 2010, last year. It now is 
projected for completion in fiscal year 2015. The F-35 primary 
engine has been in development for 10 years, with another 4 
years to go.
    The Government Accountability Office in its F-35 engine 
study indicated there is an opportunity for significant savings 
to the F-35 engine program through competition and nonfinancial 
benefits, including contractor technical innovation and 
responsiveness. Further, former Secretary of Defense Bill Perry 
said in his acquisition study that competition through dual-
source procurement competition is, and I quote, ``the only way 
to control program costs.''
    Were you quoted accurately regarding contractor funding? If 
so, why do you now believe contractor self-funding for the 
competitive engine, particularly in this budget environment, 
isn't such a good idea?
    And you ought to give most of this for the record because, 
I am sorry, our time has run out. Will you please tell us for 
the record why this is not a good idea now?
    [The information referred to can be found in the Appendix 
on page 89.]
    General Schwartz. I would be happy to. But, briefly, sir, 
is, my comments were made prior to $400-plus billion. There 
simply is no money for competition at this point in time.
    Mr. Bartlett. But, sir, GAO says that it would decrease the 
funding needed, the competition would reduce the costs. They 
continue to contend that, sir.
    General Schwartz. Based on the information I have seen, 
sir, it would require development of two engines. With the test 
programs and all that is associated with that, there simply is 
no free money available to pursue a second development program.
    Mr. Bartlett. But, again, I say, sir, that the GAO says 
that it will save money, it will not cost money.
    Thank you. I yield back.
    General Schwartz. Ultimately, it might.
    The Chairman. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I would like to begin by thanking you gentlemen for being 
before us again today and for trying to take a stab at letting 
us know what the world would look like from a military 
perspective if we went into sequestration.
    I think the $465 billion--and I have said this before, and 
I will say it again, Mr. Chairman--is a lot to put on the 
table. So I know we are trying to work through that, you are 
trying to work through that, and figure out how we do that. So 
I am not really excited about the super committee touching too 
much more in defense, and I am not really excited about them 
not getting their job done and going into a default position, 
if you will.
    And I think there is a lot of things not many of you--
although I know that it crosses across for all of you--cited 
some of the issues that are really looming in front of us, for 
example, cybersecurity, where we are truly--we are really 
somewhat in the dark right now in trying to figure out just how 
we are going to attack that problem. I think that is going to 
take a lot more money than we think.
    I am also looking at fact that when we talk about defense 
cuts in this process, we are not just talking about the 
Department of Defense, but we are talking about intelligence, 
we are talking about homeland security, we are talking about 
veterans. And when I look at the fact that we really, in a lot 
of ways, haven't addressed our returning soldiers and airmen, 
seamen, et cetera, marines who have been out there, and many of 
them who are going to need additional help, especially after 
all of those deployments and the types of hits that our people 
have taken physically out in Iraq and Afghanistan, there is a 
big underfunded issue in veterans and health care for those 
returning people.
    So I am really concerned--you know, I work with Mr. Turner 
on missile defense and our nuclear arsenal, and there are a lot 
of issues there. We are going to have to plus-up in the next 
few years in order to get--especially if our testing goes 
well--to get back on track with missile defense, for example.
    So I see there are a lot of places that need money in the 
future, and so I am not really thrilled about going into more 
cuts than the $465 billion.
    But there is a majority, at least in the House, who do not 
want to put revenues, new revenues, on the table to pay for 
this. And if that is the case, I have a feeling that, if this 
super committee comes up with some solution they are going to 
present to the rest of us, we are going to see cuts in defense.
    So my question to you is, where would you cut? I am not 
talking about another trillion dollars of cuts or another--but 
where would you cut? I mean, where--after the $465 [billion] 
that you are looking after, in each of your areas where would 
you suggest we point to? If there is some money that has to be 
put on the table to the super committee, where would you cut?
    General Schwartz. Ma'am, for us, the prime imperative is, 
whatever size we end up, we want to be a superb Air Force. So 
that means readiness needs to be protected. And, given that, 
the only two other areas where you can make reductions are in 
force structure--the size, the number of squadrons, the number 
of assets--and in modernization, that on which our future 
depends.
    Ms. Sanchez. On force structures, I recall you have 
actually been decreasing----
    General Schwartz. We have.
    Ms. Sanchez [continuing]. In the Air Force.
    General Schwartz. We have and we will to make the $450 
[billion]-plus target. But the reality is that further 
reductions will drive us to yet lower levels of force structure 
and modernization.
    Ms. Sanchez. Commandant?
    General Amos. Congresswoman----
    Ms. Sanchez. Now, you got plussed up 20,000 or was it 
40,000 marines in these two wars?
    General Amos. In 2006, we went up from 176,000 to 202,000. 
And we are planning on drawing down right now. We did a force 
structure review, I believe you are aware----
    Ms. Sanchez. So when you draw down, are those troops, by 
definition, going to actually--the force structure is actually 
going to shrink?
    General Amos. Yes, ma'am, it certainly is. And the plan was 
to shrink to about 15,000 below that level, down to 186,000.
    Ms. Sanchez. And that is under the $465 billion we are
looking----
    General Amos. No, that actually was below that. With the 
added cost now, there is a very good chance we will end up 
below 186,000. And if we end up with more in the form of a 
sequestration or the super committee adds more bills to the 
Department of Defense, we are going to continue to go down.
    So I would echo what General Schwartz says. You know, I 
think, collectively, we have all agreed that whatever force we 
end up with has to be the most capable and combat-ready force 
for our Nation. It will be a smaller force. The ramifications 
of that are some of what we have talked about: Less engagement, 
less presence, the quicker turnaround time in forts. You will 
reach a point where capabilities--you have capacity of the 
Force, which is numbers of units, squadron ships, they will 
come down. But eventually we will start seeing capabilities 
leave the military. So, I mean, that is some of the danger.
    But, for us, it will be dial the Force down and then reduce 
the modernization and the procurement accordingly. But, at the 
end of the day, we have to end up with a Marine Corps that you 
can call upon and be confident that it will be able to 
accomplish its mission.
    The Chairman. Thank you.
    Mr. Thornberry.
    Ms. Sanchez. And, Mr. Chairman, if I could just have for 
the record General Odierno's and the Admiral's comments on 
that, I would appreciate it. Thank you.
    [The information referred to can be found in the Appendix 
on page 90.]
    Mr. Thornberry. Thank you all for being here.
    The chairman outlined what has already been reduced from 
the defense budget this year. Most Members of Congress, most 
Americans don't realize that. But you all have said that you 
can handle that much, that it is okay.
    Most of us, I think, agree that another $600 billion in 
sequestration is not okay; that is unacceptable. But I think 
the greater danger is that some of our colleagues will say, 
``Well, if $465 [billion] is okay, why not $466 [billion] or 
another $50 billion or another $100 billion out of defense? 
And, after all, it is not the $600 billion, but it is just a 
little bit more. And if $465 [billion] is okay, why isn't that 
okay?''
    And I would appreciate you all's answer to that argument, 
because I think that is the greater likelihood of what we face.
    General Odierno. First, Congressman, I would say $465 
[billion] is not ``okay,'' it is something that we can manage. 
But it comes at risk. It does not come without risk.
    In the Army's case, we have been asked to reduce to $520 
[billion], but that is even before the $465 billion cut. And so 
we are going to have to significantly reduce the Army smaller 
to meet the $465 billion cut.
    If it goes further, we will have to decrease the size of 
the Army even more, and we will now have to start significantly 
decreasing the National Guard and the Reserve Component along 
with it. So it will have dynamic and dramatic impacts on our 
ability to respond, whether it be not only abroad but in 
support of civil authorities, in support of national disasters, 
and other things.
    So, once you get beyond $465 billion, we have taken all of 
the efficiencies we can take. We have taken out structure. We 
have reduced modernization, in my mind, in some cases lower 
than we really needed to reduce modernization, already. If we 
go beyond that, we now--it becomes critical, and it becomes a 
fact that we will no longer modernize. We will no longer be 
able to respond to a variety of threats. We will have to get to 
a size that is small enough where I believe, as I said earlier, 
we might lose our credibility in terms of our ability to deter. 
And that is the difference.
    So it is not ``okay'' at $465 billion. It is something we 
have been able to work ourselves through, with risk. But 
anything beyond that becomes even higher risk.
    Thank you, sir.
    Admiral Greenert. Sir, that little chart that I gave you, 
if you look at the number shifts, that is today. So we go to 
the, as we have kind of said, ``okay''--and I agree with 
General Odierno, it is not necessarily okay. With a new 
strategic approach that says, this is what I want your Navy to 
do, my Navy to do in the future, then perhaps it is manageable. 
But that is less ships than you see on this little chart.
    You go beyond that, we are probably talking about reducing 
force structure, for the reasons my colleagues described. We 
have to be a whole force, able to meet what you ask us to do 
today. We have to have our sailors organized, trained, and 
equipped to do that job, and motivated. The industrial base is 
fragile, as we have described before.
    So what area of the world do we not want to be in, and 
where must we be? And then we have described Asia-Pacific, and 
the Arabian Gulf is there. And the risk to not be in those 
other areas--or if there, very episodically--is the risk we 
have to understand, in my view, to go forward.
    Thank you.
    General Schwartz. Sir, I would give you one example. 
Weapons systems support is vitally important to maintaining the 
readiness of our platforms. It is spares, it is depot 
maintenance, it is flight-line activity. And we are below 80 
percent on the required funding for weapons systems support. 
That is an example of the risk we are taking. Incremental cuts 
that you talked about above that level will come out of 
accounts like weapons systems support.
    We have got to have an Air Force and Armed Forces that our 
youngsters, who are the most battle-hardened ever, are proud to 
be a part of. And being good is a vital part of that. I see 
further incremental cuts, just marginal, as you suggested, as 
affecting those accounts that are not major programs but, 
rather, would reduce our readiness and therefore would be 
unacceptable.
    General Amos. Congressman, another example might be 
helpful. When we designed--as a result of Secretary Gates' 
direction last fall, when we designed the Marine Corps to come 
down from 202,000 down to some number, he told the Marine 
Corps, ``I want you to take risk in the high-end missions.'' 
That means major contingency operations, major combat. And so 
we did. We built a Marine Corps using the lessons of 10 years 
of war, incorporated that in there, and came up with a Marine 
Corps of 24 infantry battalions and 186,800 marines.
    That was a one-major-contingency-operation force. And what 
that means is that, without naming an operational plan, if we 
go to war, the Marines are going to go and they are going to 
come home when it is over. There will be no rotation of forces; 
there will be no dwell. There will be no such thing as dwell. 
It will just go on and come home when it is over.
    So when we went to $465 [billion] and dropped another 5,000 
marines, effectively--we are still in the process of working 
through that right now--we dropped the numbers of battalions 
below that. So we are at risk right now for being able to take 
your Marine Corps and deploy to a major contingency operation 
and do what our Nation expects us to do. So if you go beyond 
that, $1 billion, $2 billion, $5 billion, it is going to come 
down in force structure, and it will be capabilities and the 
ability to respond.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses, who, again, are re-
enforcing the message we heard from Secretary Panetta a few 
weeks ago.
    And one thing that we are hearing, sort of, in a lot of 
discussion and reports back, where we actually haven't really 
seen it, is that there is a strategic review that is sort of 
concurrent with trying to absorb this $465 billion reduction. 
And I just wondered, first of all, if somebody could sort of 
share with us where you think that strategic review is. Are we 
going to see that publicly at some point?
    And why don't I just leave it at that and see if anyone can
comment.
    General Schwartz. It is being vetted throughout the 
Department and the Executive Branch, and I think that it is 
likely that we will have that product available by the end of 
the year.
    Mr. Courtney. And in terms of just, you know, programs that 
you are already, sort of, grappling with right now--and, 
General Schwartz, you know, one of them is the C-27, which I 
asked General Breedlove about last week at a Readiness 
Committee hearing that Mr. Forbes held. I mean, there has been 
a delay in terms of an August, sort of, milestone that was 
supposed to go forward.
    And I guess what I think a lot of people are trying to 
understand is, is that decision tied to this strategic review-
slash-$465 billion, again, reduction that you all are trying to 
figure out?
    General Schwartz. That decision is not final. But if it 
turned out that way, it certainly would be tied to the resource 
prioritization that is occurring and trying to tie that to the 
strategy.
    Let me just say at the outset, sir, that this--if that 
occurs, it will be extremely painful for me personally. I made 
a commitment to George Casey that I would not--I would not 
make--I would not do this deal with him and then back out. That 
was 2 years ago.
    Mr. Courtney. Right.
    General Schwartz. And so I have personal skin in this game. 
And if it turns out that way, it will be very painful.
    But the logic on this is simply, the reductions that we are 
looking at require us to take out fleets of assets, not a few 
here and a few there, but to bring out all of the 
infrastructure and the logistics and all that that is related 
to fleets of aircraft. That is the only way for us to do what 
we have to do.
    Mr. Courtney. Right.
    General Schwartz. But I--we have purchased 21 C-27s. There 
are 17 more to go. What the Department will do will be clear 
here in a couple of months, ultimately. But I want to assure 
you, and I have assured Ray Odierno, that the United States Air 
Force will support our Army or die trying.
    Mr. Courtney. Right. And I totally believe every word you 
are saying. I guess what I am still trying to understand is, is 
this stress that you are living with right now, I mean, is that 
being driven by the $465 billion reduction or is it just sort 
of the uncertainty about what is going to happen next?
    General Schwartz. It is the former more than the latter.
    Mr. Courtney. All right. Thank you. And that is helpful, 
just to sort of get that clear.
    Admiral, welcome to the committee. And I just wanted to ask 
you, in terms of that strategic review that is ongoing right 
now, there are some press reports that Asia and the Pacific is 
really kind of where the whole, sort of, you know, organization 
is going to be sort of shifting its focus to. And I was just 
wondering if you had any comment in terms of whether or not 
that is what you see the Navy's, sort of, priority or just 
focus, you know, looking out at the strategic change or review 
that is going on right now.
    Admiral Greenert. Yes, Mr. Courtney, you have it right. 
That is the--the focus is Asia-Pacific, one; Arabian gulf, two. 
I think the Secretary testified to that recently.
    If you look at the little chart I gave you, you can see 
that that is where we are at today. Four of the six defense 
treaties that our country is signed up to are in there. That is 
the emerging economic countries and the economy--that is where 
the, you know, sea lines of communication are at their highest. 
And there is an emerging China and other issues out there, as 
well, from counterterrorism to, obviously, North Korea.
    So, yes, sir, I think you have it right.
    Mr. Courtney. Great. Thank you.
    And, lastly, you referred to the Libyan operations in your 
testimony. I just would want to, sort of, finish the thought 
there, that those three submarines are all going to be offline 
in about 10 years. And that is why we have to keep this build 
rate that, again, we have worked so hard to achieve this year.
    Admiral Greenert. Yes, sir. Good point.
    Mr. Courtney. I would yield back.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    General Schwartz just commented that he would make a 
commitment that the Air Force would be there to support the 
Army or die trying. And I know the patriotism of all four of 
you gentlemen and the men and women who serve under you. And it 
is a fact that if the President asked any of you to perform a 
mission, you would either perform that mission or you would die 
trying. And that has been your history.
    And we hear a lot of different opinions about the impact of 
these cuts, whether it is $465 billion, $500 billion, whatever 
there is, or $600 billion more. Do you gentlemen have any 
historical background that you can offer this committee of 
where we have made similar types of cuts and the impact it has 
had to the lives of the men and women who serve in the Services 
that you represent? And do you know of any time when we have 
tried to make those kinds of cuts when the security situation 
in the world was as unsettled as it is today?
    And any of you who would like to take a stab at that, I 
would just love to hear your thoughts.
    Admiral Greenert. Mr. Forbes, I will take a stab, if you 
don't mind.
    Mr. Forbes. Please, Admiral.
    Admiral Greenert. I remember a little anecdote. I went to 
my first submarine; I am a lieutenant junior grade, an 02. I go 
aboard the submarine. We are about to get under way for a 
Western Pacific deployment. It is in the--it is 1979. We get on 
board and look at the ball caps, and there are people from 
several ships in the squadron--submarines in the squadron. We 
couldn't man up. We had, at the sonar display there, mess cooks 
who were being told, just when you see this, let me know. We 
had, as you looked at the parts around the ship, valves of 
different colors because they came from a different ship 
because we were cannibalizing them. And we got under way 2 days 
late, which was not necessarily unusual in that regard. And 
this is for a major deployment.
    My point, sir, is, it is the people. We did not get that 
right--oh, by the way, there was this thing called ``drug 
exempt'' we used to have, where we had a drug problem and a 
serious drug problem, and it was okay if you came forward and 
said, ``I used drugs,'' and therefore we said, ``Okay, you are 
exempt'' and they left. You could get out of, in this case, the 
submarine force.
    So we can't go back there, sir. And that is a focus of the 
people. They make all the difference. We must build, in my 
view, around that as we take this on.
    Thank you.
    Mr. Forbes. Thank you.
    General Odierno. Congressman, if I could--I would just echo 
those comments. In the '70s, post-Vietnam, and the issues we 
had with discipline standards and lack of direction for the 
Army, lack of modernization, a lack of standards. But I would 
also point out, in the '90s, following the fall of the Berlin 
Wall, where we believed that we would not have any significant 
amount of operations following that, and we cut the Army by a 
significant amount of individuals at that time, reduced our 
modernization program significantly, and we found ourselves 
actually engaged in more amount of operations during the '90s 
than any other time.
    And I think that brings us to what Secretary Panetta has 
talked about, and Secretary Gates as well, is our inability to 
predict the future. And so it is about us being able to develop 
a strategy, focus on Asia-Pacific, also then in the Middle East 
as a second part, but also our ability to respond to unforeseen 
contingencies.
    And that gets specifically to readiness. And the mistake we 
have made in the past is that we have allowed our readiness to 
slip and then reduce our ability to forward deploy, reduce the 
ability of our soldiers, which always costs lives in the end 
when we do this. It also--the way we ramped down our Army in 
the '90s left huge holes in our leadership, both at the 
noncommissioned officer and officer levels, because of the way 
we went about reducing our forces.
    So it is critical that, as we go through this, we be 
allowed to do this right. And that means it has to be constant 
over time, with a consistent ramp that allows us to maintain 
the capabilities of our leaders, both in our noncommissioned 
officers and our officers, as we go through this process. 
Because that ultimately will allow to us sustain our readiness 
and also allow us to expand, if we have to, more quickly, which 
might be required if we have an unforeseen contingency, sir.
    General Schwartz. Sir, I would only ask you to recall the 
American hostage rescue attempt in Iran. That is the classic 
example of what can happen, both the tragedy and the 
embarrassment of that event, if we don't do this right.
    General Amos. Congressman, we have talked post-Vietnam and 
the '70s. That was a different international landscape than we 
have today. We all shared the same--interesting, in those days, 
we didn't classify because we were lieutenants. We didn't 
understand what a hollow force was, when we were taking out our 
wing panels off an F-4 and putting them on our other airplane 
so we could fly it. I mean, the significance of that hollow 
force, as I look back on it now, was--when I look back on it, 
it is embarrassing.
    But the international landscape in the '70s and early '80s 
is different than it is now. This is a very dangerous next two 
decades we are in. I think that is the significant difference.
    Mr. Forbes. And, gentlemen, none of us would pretend to 
have your heroism, but let me assure you of one thing. We won't 
go quietly in the night in trying to preserve and make sure 
that you are never going there again. Some of us have fought 
this $465 billion. We may have lost that battle; we don't 
intend to lose this second one. So thank you for being here and 
your testimony.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your service and for 
your thoughtful attempt to answer our questions.
    As I have been listening to this, I am hearing all the 
reasons, in general, why we cannot do any cuts or limited cuts, 
but I have not heard specifics. Surely, in each of your 
organizations, you are doing some very serious planning about 
what cuts really mean. And it seems to be critically important 
for this committee and certainly for me as an individual to 
note precisely what you are planning at various levels of cuts. 
We know we have $450 billion. It may go to over $1 trillion. 
What exactly does that mean? Not in general about hollowing 
out, which may mean something but does nothing to inform me as 
to what a precise cut is.
    Now, to try to understand what cuts might mean, I have 
asked my staff to go out and find out what others are saying. 
And we have gone to the far-right think tanks and the far-left 
think tanks and put together a matrix about cuts that they 
think are possible, ranging up to a trillion and slightly over 
a trillion dollars, including a certain Senator who thinks you 
can cut a trillion dollars. It is interesting, the way they 
match up.
    And I would--I will share with you gentlemen that matrix, 
and I would appreciate a specific response from you. Is it 
possible? And, if so, what does it mean? That gives me some 
information.
    I appreciate the general tone of this hearing. I understand 
that we need to do a lot of things. And one of the things that 
apparently is going to be done is some very serious cuts. What 
exactly can be cut? For example, do we need 5,300 nuclear 
weapons? Do we need a triad? Does the Marine Corps really need 
a new expeditionary vehicle? Or can we get by without a Marine 
Corps vertical-takeoff F-35 version?
    Those are serious. But those are the real things. The 
generalities, yes, that is nice to hear, but we are getting 
very close to some specifics. What exactly is going to happen? 
This committee needs to know, and I certainly need to know.
    I will share the matrix with you. If any of you would like 
to respond with some specificity, I would be very interested in 
hearing it.
    General Schwartz. Sir, well, I am sure all of us will be 
happy to respond to that.
    [The information referred to can be found in the Appendix 
on page 93.]
    General Schwartz. The reality is that we all operate under 
certain limitations in the Executive Branch and that you can be 
frustrated, sir, but this is the way it is. It is not real 
until it is the President's budget.
    Nonetheless, we certainly will do our best to respond. I 
can tell you that, in my case, we are talking about hundreds of 
aircraft, we are talking about thousands of people.
    Mr. Garamendi. I understand the generalities. Which 
aircraft? What people? What bases? What does that mean?
    And I understand that you have to wait. But as near as I 
can tell, this committee is looking at less than a month and a 
half where some decisions are going to be made by the United 
States Congress. And, frankly, at this point, we don't have 
much information other than bad things will happen. Well, yes. 
It is time for some specifics. What exactly is going to be on 
the table here?
    General Schwartz. We will certainly share, sir, your----
    Mr. Garamendi. I know. I told the Secretary the same thing.
    General Schwartz [continuing]. Requirement with our 
leadership.
    Mr. Garamendi. I yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to thank each of you for being here today. I 
particularly appreciate your service, your leadership. We have 
the best military in the world. I know firsthand. I have three 
sons currently serving in the Army, in the National Guard. I am 
grateful I have a son who is in the Navy. I have a nephew in 
the Air Force. And, General Amos, my late father-in-law and 
late brother-in-law were very proud marines. So I cover--we are 
a joint-service family. And I want to thank you for what you do 
in bringing to the attention of the American people the danger 
of the level of these cuts to the security of our country.
    Last week, I had the privilege of being with General 
Odierno at the Italian American Foundation dinner to honor 
military families. And, General, I want to thank you for your 
family's service--extraordinary service. You truly exemplify 
what is best about our country, and I appreciate everything 
that you have done and, particularly, the briefings that I had 
when I visited with you in Baghdad. They were right on point.
    Additionally, I want to point out that, in today's Roll 
Call, we have Secretary John McHugh, the Secretary of the Army, 
who is a former Member of this committee, he has written a very 
thoughtful op-ed. It really backs up what Secretary Panetta has 
said of the need for a strong national defense.
    Now, he concludes--and, General, if you could comment on 
this--``Just as we did not predict Pearl Harbor and 9/11, we 
cannot predict the future with any certainty. We can, however, 
remember the lessons of history. No major conflict has ever 
been won without boots on the ground.''
    And you being a military historian yourself, would you 
please comment on this?
    General Odierno. Well, I think, of course, we think that, 
no matter what strategy we portray, we must have the ability to 
project power on the land. It is critical to whatever we do. 
And as we talk about the global commons, we talk about how we 
have access and being able to use the global commons, but, 
ultimately, the global commons is used by others to influence 
populations either to improve their ways or dominate a 
population. And, ultimately, what we need to do when that 
happens is we might be asked to solve that problem on land. And 
we have proven that over time and time and time again. So we 
must be prepared to do that, even though we only want to do 
that as a last resort. That is never something that we want to 
do; it is something we must do as a last resort.
    So it is important that we have the capacity and the 
capability and credibility to be able to do that. Hopefully, we 
have enough where it will deter people from causing us to go 
and conduct significant land operations. But we must have the 
capacity and capability to deter. And that should always be a 
significant part of any strategy that we have, sir.
    Mr. Wilson. And I appreciate you raising that point. Peace 
through strength, that is how we can avoid and reduce the 
potential of conflict.
    And, General Amos, you hit on a series of specifics. And, 
to me, very important is that people need to understand, the 
American people, that the addition of military forces or a 
reduction of military forces, it has an extraordinarily 
negative impact. It just can't be done overnight, with 
experienced military forces, senior NCOs, junior officers.
    You have expressed it, and I would like to hear from your 
colleagues how, when we talk about this, this is really real 
world threatening our ability to respond. Beginning with 
General Odierno.
    General Odierno. Sir, as I said previously, as you know, we 
have a hardened, battle-tested force, one that has known 10 
years of combat, one where we have leaders that have grown up 
with nothing but combat capability and experience. And for to 
us move forward as an Army and as a joint force, we must be 
able to sustain these individuals who are capable and 
understand warfare, who understand the future, who can think 
through what we might face in the future, what are the 
capabilities and capacities we need.
    We must remember that we have asked a lot of these 
individuals. Many of them have been deployed three, four, five 
times. And they believe that what we have done is important, 
and they believe we must sustain this capability over time. My 
concern is, if we start continuing to whittle away at our 
capacity and capability to such an extent, they could get 
frustrated. And if they get frustrated, they might decide to 
leave the Force. And it would then cause us to have a 
significant hole in the center of our Force, which is our 
leadership. And I am a strong believer that leadership can 
solve almost any problem if it is the right type of leadership.
    Mr. Wilson. And not to cut off anybody else, but this has 
direct effect on military families. And we want the military 
families to be supportive of their loved ones who are serving.
    Thank you.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you.
    Thank you very much, Generals and Admiral, for being here. 
Thank you for your leadership, particularly.
    I am going to follow up just on a personnel question or 
two, probably no surprise to you. I am wondering if, given the 
really serious situation that we are looking at, we are 
obviously focusing more on, kind of, a short-term sequestration 
and some of those issues. But in the long term, could you help 
me out with a discussion of what kind of reforms in the 
personnel system we should be looking at today? I mean, is this 
the time to address the military retirement issues? We know 
that the Defense Business Board has done that.
    The other issue that I think is an important one is 
jointness in terms of health care. We know that, certainly, 
Walter Reed, Bethesda, while there are growing pains in that 
realignment, I think that, you know, we will be seeing how well 
that works. We know also San Antonio, Brooke Army Center has 
done that. Where are we on that issue?
    And could we be thinking seriously about those reforms? 
Perhaps there are others that you would like to suggest, so 
that part of the question that the super committee is looking 
at is not just tomorrow and next year, it is 10 years out. 
Where are we on those reforms? How seriously are you looking at 
those?
    General Schwartz. Ma'am, I would just say at the outset 
that we can't look at one piece of the overall compensation 
package. It includes pay and benefits and so on, it includes 
medical care, and it includes retirement. And a concern that I 
think we all share, certainly that I have, is that we look at 
this piecemeal and we make choices on this or that without 
connecting the dots, and that if we proceed with reform or 
change--and, certainly, we need to address this, to certainly 
have an intelligent discussion about it--we should not do this 
drip by drip. In other words, if we are going to do an 
adjustment, we should do it all in a comprehensive, one-time 
fashion so our internal audience can take this on and adjust 
and move on. What we don't need is, sort of, incremental change 
in this respect.
    Briefly, with regard to DBB [Defense Business Board], there 
were some aspects of what the Business Board suggested that are 
interesting. But one thing they did not do--and I know you 
believe this--is there is nothing in that report about 
recruiting and retention. And what this whole package is about 
is recruiting and retention. And to make suggestions and then 
just blow off recruiting and retention just, you know, was not 
a solid approach.
    General Odierno. If I could just add on the reforms, I echo 
General Schwartz's comments. I would just add to that that this 
is not something that we can rush into. It has to be something 
that is studied because of the second- and third-order effects 
it can have on our ability to sustain an All-Volunteer Force.
    The impacts--people sometimes tend to overlook and believe, 
you know--overlook the sacrifices that are made, not only by 
the soldiers, but the families themselves and what they have 
given up so their soldiers and their marines and sailors and 
airmen can perform their duties. And all of this plays a role 
as we look at benefits and pay and retirement.
    And I think we are taking a very quick, thin look at it 
right now, and it has to be something that is much deeper, does 
a study and understands the overall impacts it would have on 
the individuals and their families and the future of our All-
Volunteer Force across all the Services.
    Admiral Greenert. If I may, ma'am, there is a piece--I 
completely agree with what General Schwartz and General Odierno 
said. There is another piece. At the conclusion of this, there 
will be a reaction by the Force. We will need to shape it. We 
will need to recruit, as General Schwartz said. And where we 
could use help is the authorities to do the right thing.
    In my view, diversity is a big deal for the future. The 
skills that are out there to make our force motivated and 
relevant are such that we need to open our aperture in 
diversity. And that and the ability to shape the Force 
correctly, to be able to have a discussion with our people as 
to why we may need to shape it--maybe ask more in, maybe lay 
people off frankly, depending on how things go--that we can do 
it properly and dignified.
    Mrs. Davis. General Amos?
    Is there time?
    Nope. Sorry. All right.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and your service.
    The two roles on display here today, those are policymakers 
and implementers. Obviously, we have a real chasm between them, 
in a sense, of some of this stuff. Each one of you used the 
word ``strategic'' in trying to figure out how we go about 
squeezing the needs of the Nation into a smaller pie, so to 
speak.
    As a policymaker, we would love to be able to have clearer 
information that says, all right, the Nation has these risks, 
and if you don't want to protect the Nation against this risk, 
then we can save money here and there.
    There is a force-planning construct that you all operate 
under that has a variety of things that the Nation says it 
ought to be able to do at any one particular point in time. 
Should all of this encompass a review or a redo of that force-
planning construct that says, ``We are only going to do X, and 
all these other things that we might think are going to be 
necessary that are out there, we are just simply not going to 
do those,'' and help policymakers understand that there are 
risks to doing some of the things that even now have been 
agreed upon that you are trying to implement through your team?
    So can you give us some comments about just, you know, what 
the overall backdrop of what you are trying to plan to do, 
should we change that first before we squeeze you guys through 
these square pegs that we are putting you through?
    General Odierno. Congressman, I think, first off, it is 
about determining where our priorities are and what our 
strategies are. And I think we are talking about that now.
    But, ultimately, it comes down to what--ultimately, what is 
the capacity and what we are able to do. And the force-planning 
construct will have to be looked at and will have to be 
changed. Because with the force reductions that we are looking 
at--the Air Force and Navy have taken some already; the Army is 
going to take a significant amount of force reduction--we are 
going to have to look at the planning constructs that we have. 
And we are going to have to be forthright and honest about what 
we can do and what we can't do, because there are going to be 
some things we no longer can do.
    And I think we have learned some things over the last 10 
years on what we thought we could do, and maybe we couldn't do 
them as it was now. And as we get into these deeper cuts, we 
are going to have to define and explain through our force-
structure planning factors of what we are able to do and what 
we are not. And I think it absolutely has to be a part of what 
we are doing.
    Admiral Greenert. For me, Congressman, and for the Navy, 
where do you not think we need to be? And the little chart, 
that is where we are today; it will be less. And how much more, 
where, what geographic combatant commander we have to have a 
conversation with, and get a lot more innovative to conduct 
this influence or decide where the force structure can deploy 
to. Because we can't deploy quicker, if you will, just turn 
around quicker. We are at limit right now.
    General Amos. Congressman, there is an effort, as you are 
well aware of, right now that is going on within the Department 
of Defense and will eventually, as General Schwartz said, I 
think, find its way here, too, to Congress. That effort is 
informed by the future security environment. In other words, 
what do the next two decades portray? What does it tell us that 
the threats are that are out there? We have talked a little bit 
about that this morning in our testimony. And then based on 
that, then what do we need to do to mitigate that threat, those 
risks? Then how much can we afford? Now it becomes informed by 
the budget. It gets informed by the fiscal realities.
    And so we are in that process right now. The national 
strategy is being worked. It is a process that we are all a 
part of. And I just wanted to give you the confidence that this 
is being done the right way as we approach this. So we are just 
not ready yet to be able to say, then, precisely what is it you 
are not going to be able to do, but clearly there will be some 
things that we will not be able to do. And that will have 
resource implications, on force structure, procurement, and 
operations and maintenance.
    Mr. Conaway. Thank you.
    I was out at the National Ground Intelligence Center 
yesterday afternoon, or yesterday. And some of the things that 
they are considering as a part of this, the OCO funding going 
away and some of the other things, is they were able to say, 
here is the capacity and here is what it does, here is why it 
is important, and it will go away. Very clear. As a 
policymaker, you say, well, that is a capacity that we really 
need, that was important.
    So, obviously, it is easy to do that on a small scale like 
there versus across the entire, you know, Department of 
Defense. But I do think our Nation needs to understand that 
with these cuts, even the $465 [billion], there are risks we 
will face that hindsight and Monday-morning quarterbackers, at 
some point in time, will say, ``Shame on you for having done 
that.''
    Thank you, gentlemen.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Generals, Admiral, thank you very much for being here 
today, for your testimony, your incredible service to our 
Nation. We are all deeply in your debt.
    Obviously, diplomacy, information, our military power, our 
economic power, these are all vitally important to our national 
security. All four pillars are important, not just one. And 
that, obviously, makes the fiscal solvency of our Nation a 
national security issue.
    So, to ensure that we are never sacrificing our strategic 
needs just to pay the bills, obviously we have to make smarter 
decisions about where and how we spend our money and how we 
address current and future threats. And two areas that I have 
continuously focused on of the strategic defense of our Nation 
are the nuclear arena as well as in the area of cybersecurity, 
taking on the cyber front. We face particular challenges there, 
and we haven't quite gotten our arms around what those 
challenges are and how do we best guard against that threat.
    But, in these areas, we face threats, obviously, from both 
peer competitors and asymmetric actors, which make them 
politically volatile and dangerous, and our investments in each 
of these areas are critically important. Yet both are 
threatened by the current budget situation.
    So let me ask it this way. Our nuclear deterrent, 
obviously, must remain credible while we are simultaneously 
looking to components of our arsenal where we can save revenue, 
such as tactical nuclear arms, and continue smarter 
investments, such as the replacement for the Ohio-class 
submarine.
    So, in cyberspace, the Department has made upgrades, 
upgrades to both our defensive systems and our strategic 
thinking, but we still have a long way to go to keep pace with 
the challenges and engagements our warfighters face every day 
in the digital realm.
    So, on both these points, where can we be making more 
efficient investments in nuclear and cyber in order to soften 
any larger program impacts from constraining budgetary 
requirements?
    General Schwartz. Sir, I would say that cyber may be the 
only--or is the only one, two, or three areas in the entire 
Department portfolio that may grow, by necessity, just as you 
outlined, which means it will come from other places in the 
broader portfolio. We have Cyber Command. Each of us have 
component commands and expertise that both defends our nets and 
operates potentially in a more offensive manner. That is 
maturing, and it certainly needs your continued support.
    With respect to the nuclear area, sir, I would make a 
personal appeal, and that is that this committee needs to 
influence the thinking of another jurisdiction, in Energy and 
Water, with respect to, in particular, the renovation of the 
B61 weapon. The reality is that that weapon is the item that is 
paired with our bombers, and it needs to be updated, the 
lifecycle improvement effort. And that needs committee support 
and, likewise, from Energy and Water since it is NNSA [National 
Nuclear Security Administration] that will perform that 
function.
    Admiral Greenert. I think General Schwartz had it right on 
cyber. I think we could look at the organizational construct 
that we are putting together; there may be efficiencies in that 
regard. But with regard to the criticality of the capability, 
there is no question. And it will probably grow.
    With regard to strategic nuclear, how many Ohio-class 
replacements, submarines we need can be studied. What is the 
right number of force structure you need to deliver the effects 
that you need for the requirements, that is under deliberation 
as we speak. But the need to have credible, as you said, 
credible and reliable and one that actually provides 
deterrence, assured deterrence, is unmistakable. And that line 
has to be held.
    Mr. Langevin. Thank you.
    With that, I want to thank you all for your testimony, and 
I may have some questions for the record.
    General Schwartz, if I could just mention, a couple months 
back I had the opportunity to travel out to Creech. You and I 
discussed that. And I was grateful for the incredible work that 
is being done out there. And maybe we can talk in a closed 
setting at some point about some of my thoughts about that. But 
a great experience when I am out to visit our airmen out there, 
and I am grateful for their service. And next week I am 
traveling to Texas to visit the 24th Air Force. So I hope to 
get an up-close look at what is happening out there.
    But thank you all.
    General Schwartz. Yes, sir. I look forward to it, sir.
    Mr. Langevin. I yield back, Mr. Chairman.
    The Chairman. Thank you.
    The panel needs to leave at 12:30. I am counting the number 
of Members we have left. It should work out just about right.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for your service to our 
Nation.
    And I want to begin by noting that everybody that serves in 
our Armed Forces is special. They are special because they 
volunteer, they put their lives on the line to defend this 
Nation. But we also have a very elite force of airmen, marines, 
soldiers, and sailors that serve this country every day in some 
very, very challenging roles as we place them around the world 
in what we know continues to ever expand in their mission. I 
look at how we challenge them, and you look at what is 
happening in Afghanistan. And we have used them in more and 
more roles there, and, obviously, they are going to be there 
past 2014. We see a mission now in Central Africa.
    As we watch and we see the history of what has happened 
there, we see some trends that I think ought to concern us. 
Just last month, a 29-year-old sergeant first class in the 75th 
Ranger Regiment was killed on his 14th deployment in the last 9 
years. Fourteen times he boarded a plane knowing that he was 
going downrange in harm's way.
    In a situation where dwell times were short, time back home 
was short, and they continue to be placed in some of the most 
challenging conditions anywhere on the face of the Earth--and, 
to their benefit, they serve this Nation, or, to our benefit, 
they serve this Nation. And they continue to make sure that 
they perform in a very admirable way under some very trying 
conditions.
    My concern is this. With looming budget cuts and looking at 
the challenge we have going forward with resources, how are we 
going to continue to attract the quality men and women that we 
need across the Armed Forces in an All-Volunteer Force? 
Secondly, as we look to not only recruit the best but to retain 
the best, how are we going to make sure that the mission 
capability stays where it needs to be for this Nation to meet 
those challenges, especially when there are questions about 
each of the service branches' budgets, what may be cut, 
downsizing, the future pay of our men and women in uniform, 
their future benefits, and also their families' welfare? I 
think all those things are very, very concerning for me. And I 
wanted to get your perspective on how do we meet those 
challenges.
    And I can tell you I am sure you all get the same questions 
that I get. I get questions on a daily basis from men and women 
that serve this Nation that are concerned about that. In fact, 
we track the communications that come into our office. At the 
top of the list for the past month have been service members 
and their families' questions about what is going to happen 
with my pay and my benefits, and what are you going to do to 
support military families.
    So, gentlemen, I will turn it over to you and get you to 
give us your perspective on these things.
    General Odierno. Congressman, first and foremost, as we go 
through this process of budget reductions, the first thing we 
think about are our soldiers and their families and the impacts 
it will have on them. And whatever programs that we develop 
into the future will ensure that we maintain programs that are 
good enough and, frankly, allow them to want to continue to 
serve. And we are focused on this. We are absolutely focused on 
this.
    I think what we have to do as we look at this is it is 
about the profession of arms, it is about leader development, 
it is about people understanding the importance of what we do, 
why we do it, and it is about fair and balanced benefits and 
pay, retirement, medical care, that they can be assured that 
they will be taken care of and their families will be taken 
care of based on what we ask them to do.
    I know I am being somewhat general here, but I want to tell 
you that we are absolutely focused like a laser on this in the 
leadership because it is so important to our men and women, and 
it is fundamental to the All-Volunteer Army and the All-
Volunteer Force. If we miss this, it will do irrevocable damage 
to our capabilities.
    And so I probably didn't answer you specifically, but I am 
telling you we look at this very carefully every day, sir.
    Admiral Greenert. We have a term in the Navy on budgeting 
called ``fencing.'' Fence the programs. We are effectively 
fencing family readiness programs because whatever mission may 
be reduced, capacity is reduced, the problem is not reduced. As 
you mentioned before, the kids are tired and they come home and 
their families are tired, too, because that is who support 
them. So that has to be done right up front.
    I think we need to hold a covenant. General Odierno kind 
of--I call it retain the covenant we have for them. They joined 
for a reason. There was, again, a contract that we had, and we 
need to own up to that contract to those that join.
    Thank you.
    General Schwartz. Sir, I would just say that, as an 
example, like the Navy, we have said we are not going to cut 
school liaisons, we are not going to cut exceptional family 
member programs or child care. We will go other places because 
we understand that more than ever, that service in any of the 
Armed Services is a team sport.
    General Amos. Congressman, we coined the term ``breaking 
faith''--or ``keeping faith,'' which is the opposite of 
``breaking faith.'' We talked of pay compensation here this 
morning and we didn't really get to at what point is there a 
``knee'' in the curve, where pay compensations begin to have an 
effect on the All-Volunteer Force. You go back to what 
Secretary Panetta began his tenure with. And he has got several 
principles. One of the key ones he always goes back to and 
every time he talks publicly is keeping faith. Now that can 
mean a lot of different things to folks. But for us in the 
Marine Corps, it means the institution, the people, the 
marines, the families that are out there in Twenty-Nine Palms, 
Pendleton, Camp Lejeune, Beaufort, look at us as an 
institution, a leadership, those that wear this uniform, and 
then those who are across the Potomac here in Congress, that we 
have their best interest at heart, that even though they 
understand there will probably be some adjustments in pay and 
allowances and that type of thing, but we have their best 
interests and we are not breaking faith with them.
    That is pretty nebulous, but that is a sense. And the 
minute we lose that, then we will have a difficult time 
retaining them. We will have a difficult time bringing the 
people back in the first place. So that is the first point. It 
is the sense of faithfulness.
    There is another side of this, which is interesting, which 
concerns me. There is also a sense of fulfillment in the young 
man or woman that joins the Marine Corps today. And you are 
aware of that. They are actually getting to do precisely what 
we advertise when we recruit them. There is a fulfillment. They 
may be on their fourth or fifth deployment. And I absolutely am 
not saying that that is easy or we should just continue to do 
this for the sake of recruitment. But there is a sense of 
feeling good about what they are doing for our Nation.
    So as I look at drawdown, I look at coming out of 
Afghanistan, within this institution one of the things we are 
going to have to look at is; how do we address that need of 
sense of fulfillment of doing something that is important for 
our Nation?
    I remember the inter-war years--the '70s, the '80s, the 
'80s to '90s, one that was pretty bleak. We were trying to seek 
missions. So that is going to have an effect on the retention. 
That is one of the challenges we are going to have to look at. 
But I think the programs, all the things we have talked about 
here, there is a sense that we will need that. It is not that 
we are buying people off. That is not it. But we are going to 
satisfy their needs and keep our arms around them and they are 
going to know that we are keeping faith with them.
    Mr. Wilson. [Presiding.] Thank you, Mr. Wittman. We will 
proceed to Mr. Andrews of New Jersey.
    Mr. Andrews. Thank you, Mr. Chairman. I would like to thank 
each of you gentlemen for what you have done for our country. 
We appreciate it very, very much.
    I am hearing two points of consensus in the hearing today, 
and I think that we could rather easily achieve a third one and 
avoid the sequestration. The first point of consensus is that a 
great country can't live on borrowed money forever. You can't 
have a strong and growing economy by having a huge deficit and 
debt. The second point of consensus is that the sequestration--
and I agree with this--is ill thought out, maybe not so much 
because of the number--we can argue about numbers--but because 
it is backwards. You shouldn't make decisions about defending 
your country by saying, Here's the number we are going to hit, 
now let's figure out what to do. You ought to make the 
decisions by saying what do we need to do for our country and 
then what number do we have to come up with to make that 
happen.
    This is not meant for the panel, but meant for my 
colleagues. I think we could have a third point of consensus 
pretty quickly here, that we could have a $4 trillion deficit 
reduction plan that is three-quarters spending cuts. Probably 
the military spending cuts would not go beyond what is already 
in the August 1st law. If we had about a trillion dollars in 
revenue from the top 5 percent of people in the country--that 
is not for these gentlemen to debate, but it is for us to 
debate--we could have a deal. We ought to get one.
    Now on to the issue of what the sequestration would mean 
and my point about let's not back into a decision on this. I 
think I heard several of you say that there is a strategic 
review, force review underway, and that would be shared with 
the committee when it is completed. Did I hear that correctly? 
Great. And do we have some sense of when that would be 
available for us to look at?
    General Schwartz. As I suggested earlier, I think at the 
end of the year. Toward the end of the year.
    Mr. Andrews. The end of the calendar year?
    General Schwartz. Yes, sir.
    Mr. Andrews. Thank you. Now, let me ask another question 
that is not rhetorical. Honestly, it is sincere. If you exclude 
the Overseas Contingency Operations and look only at the 
remaining core defense budget and you compare what we are 
spending in 2011 versus what we spent in 2001, in real dollars, 
in inflation-adjusted dollars, the core defense budget is 40 
percent higher than it was in 2001. Our end strength is 
essentially the same. The number of ships and planes we have is 
essentially the same. About a quarter of that increase has been 
absorbed by greater compensation for our men and women in 
uniform. I am for that. Absolutely, I am for that.
    Where did the other 75 percent of that go? In other words, 
we have increased the core defense budget by about 30 percent 
over what it was in 2001 in real dollars, excluding the Iraq 
and Afghanistan and excluding personnel increases and housing 
increases, education increases. Where is that 30 percent? Where 
is the money?
    General Schwartz. Well, one place where the money is, we 
had $35 a barrel oil in 2001, and it is now $135 a barrel.
    Mr. Andrews. Yes, that is absolutely right. I know our fuel 
costs are high. And they would be a lot lower if we had 
independent energy sources. I agree with you.
    Yes.
    Admiral Greenert. For us, shipbuilding and ship repair in 
some cases, the labor costs exceed the costs that we use for 
indices for inflation. Materials have also exceeded those 
indices that we use for when we procure.
    Mr. Andrews. Do you know the order of magnitude of that 
excess?
    Admiral Greenert. I will follow up on that. It actually 
marks what some note as a difference--a noted difference in our 
costs for future shipbuilding, where we underestimate because 
we use indices----
    Mr. Andrews. One issue that concerns me of a similar mind 
is if you look at our RDT&E [Research, Development, Technology 
and Evaluation], we had explosions in RDT&E accounts before we 
ever get to a fieldable weapon. I will just pick on one as an 
example of SBIRS [Space-Based Infrared System]. SBIRS, when it 
was originally looked at, was going to be $1 billion a copy. It 
is now going to be $4 billion or so a copy. It has all been in 
the RDT&E. Do you have any suggestions how we might get a 
better grip on the RDT&E phase?
    General Odierno. If I could, a couple of things that we 
need to do. I think as we go through the process of 
procurement, we have to look at competition and how we increase 
competition, increase contractors' and private industry's use 
of their R&D to help us solve our problems. I think we are 
starting to figure that out. And I am pleased in some of the 
areas where we are able to do that.
    The other thing is I think it might be a time to look at 
is, are we doing redundant and overlapping testing? Do we need 
to take a review of our testing requirements? And in fact 
sometimes we have tests that are done by the private industry 
and yet we redo the tests because we have to meet certain 
regulations and requirements. I think those are areas that we 
could look at that could reduce those costs significantly.
    Mr. Andrews. Thank you. I see my time has expired. Thank 
you, again, gentlemen, for your exemplary service.
    Mr. Wilson. Than you, Mr. Andrews. We proceed to Mr. Duncan 
of California.
    Mr. Hunter. Thank you, Mr. Chairman. Gentlemen, thank you 
all for your service and all the time you have spent and your 
families have spent. General Amos, I was just over at the 
Marine Corps Birthday in the Library of Congress. And General 
Dunford did a great job filling in for you and he gave a great 
speech over there.
    We like to talk about the families. I think my family, when 
I was in Fallujah, was at the Delmar Beach at Camp Pendleton. I 
don't think it was too tough for them. But that is the upside 
to being a marine and being able to be stationed on the West 
Coast.
    Playing into Mr. Andrews' question, I would like to mention 
a couple of things. Where is the money? There are a lot of 
examples. He listed one. One is DCGS, Distributed Common Ground 
System. The Marine Corps is using Palantir right now, JIEDDO 
[Joint Improvised Explosive Device Defeat Organization] is 
using Palantir right now. The CIA [Central Intelligence 
Agency], the FBI [Federal Bureau of Investigations], the DOJ 
[Department of Justice], a lot of other organizations are using 
an intel software tool called Palantir because it is cheap. It 
comes out of a private company called PayPal. A lot of us in 
this room have used PayPal. But the Army insists going forward 
spending billions of dollars on DCGS's alpha, saying the big 
cloud is going to work at some point. It will be just like 
everybody else at some point in time. DCGS's alpha came into my 
office--the Army did--last week--or 2 weeks ago, and said, 
Here's what we got; we are going to have it soon. The problem 
is that they never really get there. And when you come with an 
off-the-shelf product that at the most to field it for the 
entire Army would be about $25 million, DCGS's alpha is still 
going to be about $2 billion or $3 billion out and does not 
have the capability as Palantir.
    You have examples like that that I think any of us could 
find. The LCS [Littoral Combat Ship]. The Navy owns a ship 
right now in San Diego called the Stiletto. It is a carbon 
fiber-hulled ship that uses air entrapment technology. It is 
able to go 60 knots. It is totally stealthed out. The LCS is 
not stealthed out. The LCS is not an LCS. The LCS is a fast 
frigate. That is all it is. You can't operate next to China. 
They would shoot it out of the water in a heartbeat. It is not 
a real LCS. It is a fast frigate. So the Navy still doesn't 
have an LCS, but they have two different models of a fast 
frigate that are going to be used for different purposes based 
on what type of modular technology you place on it. It is still 
not stealthy. It is not as fast as the Stiletto, which the Navy 
owns, in San Diego.
    So my point is, it is time to prioritize. I think one of 
the reasons we are here is because your predecessors, they 
didn't mislead us, but they said, hey, we are okay. We can do 
more with less. We will be fine. We can get the job done, 
Congress. We can do what we need to do with what you have given 
us.
    The reality is that one of the reasons we are at this point 
is because we are not going to able to do the job--you are not 
going to be able to do the job that you are asked to do any 
more with what you are given any more, period. I mean, we 
probably need to double or triple the number of MEUs [Marine 
Expeditionary Units] in the United States Marine Corps because 
of everything that is going on.
    So we are going to need to be more expeditionary, not less, 
but we still seem bogged down in the old ways of doing things 
to where if it is not being made by Northrop Grumman, Lockheed 
Martin, Boeing, or one of the Big Five, then we are not going 
to do it, we are not going to look at it because it is not 
being done by one of those guys who has a lobbyist who was a 
former general who was a friend of somebody in DOD. That is how 
it works. That is the revolving door.
    So my question I guess to everybody is how do we move 
forward and prioritize and get out of the same old ways of 
things that aren't the tried and true, they are the tried and 
failed, which has kind of gotten us to where we are. We keep 
spending money. And like Mr. Andrews said, we aren't getting 
the bang for the buck anymore. The money is going somewhere and 
it is not going into furthering current technology or 
discovering better technology. How are we going to avoid that? 
Because we are going to be doing more with less now. It is 
going to take some outside-of-the-box thinking to do it.
    General Odierno. Let me give you one example. Right now--
and you are probably familiar with it--we now started this 
week--and it is our second one, we will have a third one--is 
our network experiment that is going on down at Fort Bliss, 
Texas. We have a unit out there where contractors, anybody, any 
size contractor can come in, provide a product that they think 
will meet the requirements for our network of the future. They 
can test it, they can try it out. It will be evaluated. 
Soldiers are actually using it. They will then provide them 
feedback. It is on their own dollar to bring that in there.
    After we do this, we will choose the best of breed across a 
variety of small and large contractors on what might be the 
best system for us to use. And as fast as our networks change 
now and the technology continues to move, it will allow us to 
continue to upgrade every few years.
    I think these are the kind of things we have to do where we 
see more competitiveness, which drives better products, which 
drives cheaper products for us in the end state. I would invite 
you to come out and take a look at that if you have not 
already. I am very encouraged by what is going on out there. It 
is those type of things that I think we have to do.
    As we look at the JLTV [Joint Light Tactical Vehicle] that 
we are developing along with the Marine Corps, we have 
competitors coming in who are developing their own products, 
four or five different competitors, not necessarily one of the 
large defense contractors, who are coming up with systems and 
ways for us to look at and provide us options that I think will 
be much more fundamental and much more resource-friendly to us 
as we move forward.
    So those are the kind of things we are looking at now and 
as we revamp and review how we want to do acquisition within 
the Army.
    General Amos. Congressman, there is actually a little bit 
of goodness that happens when you get pressurized fiscally. One 
of the things--and I know you are aware of this--we have 
roughly 40,000 vehicles in the Marine Corps. That is tanks, 7-
tons, LVSs [Logistics Vehicle Systems], our AAVs [Amphibious 
Assault Vehicles], our MRAPs [Mine Resistant Ambush Protected], 
Humvees [High Mobility Multipurpose Wheeled Vehicles]. As we 
built that Marine Corps to come down to 186,000, we aggregately 
took the total vehicles in the Marine Corps down to about 
30,000. Now of that, 23,000 or so are Humvees. As we look at 
JLTV with the Army, as we look at replacing the ground tactical 
vehicle strategy, we have had to go back and say, Okay, what is 
good enough? What is it that over the next 10 years will be 
good enough? And then how much modernization do you need?
    There is a piece and a slice that need to replace utility 
vehicles with JLTVs. But do we need to replace all 20,000? The 
answer is no. Do we need 20,000 in the first place, utility 
vehicles? The answer is no. So we are doing that internally 
right now. We actually have the numbers. And we have built an 
affordable plan on ground tactical vehicles that is built on 
what is in fact good enough.
    Now, we tried to do the same thing--in fact, we have done 
the same thing as we looked at aviation, which is a high-dollar 
cost item. You start taking a look at F/A-18s [Hornet multirole 
fighter jets], Harriers [AV-8B vertical/short takeoff and 
landing (V/STOL) ground-attack aircraft], recapitalization of 
the H-46s [Sea Knight cargo helicopters] with the V-22s [Osprey 
V/STOL transport tiltrotor aircraft], what is good enough, and 
then how long will this last. So I mean that is the goodness 
that is coming out of this stuff, and there is an awful lot of 
that going on.
    The final point I would say is that especially down in your 
district you have seen the benefits of the energy efforts that 
the Marine Corps is doing at MCRD [Marine Corps Recruit Depot], 
at Miramar, with the methane plant; go to Twenty-Nine Palms, go 
to Barstow. We are beginning to save or significantly save a 
lot of money on energy. We are going to do the same thing in 
the expeditionary field. We have got marines--as you know, the 
Third Battalion Fifth Marines came back and they were our 
guinea pigs. They were the first prototype to carry this 
expeditionary renewable energy stuff into theater. We are on 
that big time.
    So that is another way we can save. So that is some of the 
goodness that comes out of pressurizing our budget.
    Mr. Wilson. Thank you, Mr. Duncan. A very important 
question.
    Mr. Hunter. Thank you, gentlemen. Thank you, Mr. Chairman.
    Mr. Wilson. Our remaining witnesses can respond for the 
record because this is such an important issue that Mr. Duncan 
has raised.
    [The information referred to can be found in the Appendix 
on page 91.]
    Mr. Wilson. We now proceed to Mr. Johnson of Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    General Odierno, following up on Mr. Hunter's question, the 
Army's DCGS-A intelligence program is years behind schedule and 
less effective than private sector alternatives used by other 
Services such as the Marine Corps. The Army is slated to spend 
billions in coming years trying to field this program, despite 
its consistent shortcoming. Will you pledge to take a hard look 
at this program as a possible source of savings?
    General Odierno. Congressman, first, I am looking at every 
one of our modernization programs and procurement programs to 
see where we can get savings. I will certainly take an 
extremely hard look at this and I will actually provide you 
feedback to that look, both you and Mr. Hunter, as we go do 
this.
    [The information referred to can be found in the Appendix 
on page 92.]
    Mr. Johnson. Thank you, General. Also, General, do you 
foresee that the Army could potentially find savings by 
reducing the footprint of our ground forces on the European 
continent where our allies are or should be capable of 
defending their own territory?
    General Odierno. Congressman, this will be part of the 
strategy review we do as we prioritize where we decide to put 
forces. And based on that strategy, if it is determined that we 
can reduce our commitment to Europe, we will work very 
carefully with our allies to take a look at that, sir.
    Mr. Johnson. Thank you.
    Admiral Greenert, how can the Navy develop better 
partnerships with the Chinese navy to establish a collaborative 
rather than adversarial relationship in maintaining 
international security? And is that a naive question or is it--
I guess I should ask that first.
    Admiral Greenert. It is not naive at all, Congressman. We 
need to find those areas of security that we have common 
ground. And we are working on that. Counter-piracy today; the 
Chinese contribute to the counter-piracy effort in the Gulf of 
Aden. They are not a part of the coalition, but they are--you 
know, the defined coalition. But there are many nations that 
are not part of the defined coalition. They come in. They check 
in. We have liaison officers that swap. They are a relevant and 
tangible part of that. So there is that. There is counter 
smuggling, counter weapons of mass destruction on the seas, 
search and rescue.
    So we need to look for those areas which are of common 
interest, develop those. That will get us to mil-to-mil 
relations. These things have a fits and starts part because we 
are part of the results of the political aspects of the 
relationship of our nations and the diplomatic part of it. But 
there are opportunities and we must continue to develop them to 
eliminate miscalculation. That is probably the main concern we 
would have. So we have a relationship.
    Mr. Johnson. Thank you. General Amos, what would the Marine 
Corps F-35B fleet contribute in a major conflict that one of 
our carrier strike groups could not? Is the F-35B program an 
essential program to our national security? Is it on pace?
    General Amos. Congressman, I will start from the back and 
progress to your first question. It is on pace. In fact, it is 
ahead of schedule will right now. It is ahead of performance on 
tests--test plans, test flights, test points. The five 
engineering issues that they had a year ago at this time have 
been resolved through engineering redesigns. In some cases, 
they are already installed on the airplanes. In some cases, the 
change has been approved and it will be fitted on the airplane 
in the early part of next year. So the engineering pieces have 
been fixed.
    The airplane just came back from a very successful at-sea 
period for about 2 weeks. Two F-35Bs on the USS Wasp off the 
coast of Virginia, flying all their short takeoff and vertical 
landings. And the early reports on that--and I went out to see 
it with the Secretary of the Navy--the airplane performed 
fabulously.
    Now what you get out of that airplane for our Nation is the 
capability to have, instead of just 11 carriers out and about 
doing our Nation's bidding with fifth-generation airplanes on 
it, you will have 22. Because the F-35B will be flying off the 
smaller carrier variant or what we call the large deck 
amphibious ship. So much like what is being operated off the 
coast of Yemen and the Gulf of Aden right now with the Harriers 
and off the coast of Libya in the early days of that operation. 
Those were short takeoff and vertical landing airplanes. 
Without that, our Nation reduces this capability to interact 
around the world by 50 percent.
    Mr. Johnson. Let me ask you this last question about those 
trials on the USS Wasp. What was the effect of the F-35B's jet 
blast on the ship's surface?
    I apologize for interrupting you, but my time is running 
out. I wanted to get an answer to that question.
    General Amos. It was negligible. The expectations were that 
it would be significant. It was shockingly negligible, to the 
point where reports--and I was onboard the ship--reports back 
from the ship's crew and the NAVSEA [Naval Sea Systems Command] 
folks were that it was insignificant.
    Mr. Johnson. Very good. Thank you.
    Mr. Wilson. Thank you. We proceed to Dr. Fleming of 
Louisiana.
    Dr. Fleming. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here today. Our panel, patriotic and 
distinguished careers, and we all appreciate the great work you 
are doing.
    Let me say, first of all, that I get what you are saying--
$465 billion in cuts that you are barely able to swallow and 
now we are talking about plussing that up to maybe a full 
trillion dollars over 10 years. And that takes us from a high 
risk level to a very dangerous level. And certainly I get that. 
That is precisely why I voted against the Budget Control Act, 
because I knew we would be here today talking about these 
problems.
    My first question is for you, General Schwartz. We have 
talked a number of times in hearings and offline. I understand 
that there is a decision that has been made not to initially 
certify the new long-range strike bomber for nuclear operations 
and that Air Combat Command, not Global Strike Command, which 
was newly stood up I think only a couple of years ago, will be 
the lead major command on the program.
    Can you please explain in detail the rationale behind these 
two decisions? Obviously, I am concerned about a de-emphasis on 
the nuclear rule. Again, let me kind of add in that with all 
these risks involved, that obviously makes this world a more 
dangerous place. But the one area where there is no tolerance 
for risk is in the area of nuclear weapons. So explain that and 
give us an idea about that rationale, sir.
    General Schwartz. We certainly agree that there is no 
tolerance for error in that business. There are two aspects to 
this, Congressman. One is that the airplane will be dual 
capable. It will be both nuclear capable and it will be a 
conventional long-range strike platform as well. The logic is 
to design and to build the airplane to perform the nuclear 
mission. This will not be backed in later. This will be done in 
the design and build process. But not to certify immediately. 
And the reason is that we are trying to control costs. Part of 
that is controlling how elaborate your test process is. And we 
are going to phase this in a way that will initially introduce 
conventional capability, which is easier to test, less costly 
to test. And then, as we get closer to the time when the B-52 
[Stratofortress strategic bomber] and the B-2 [Spirit stealth 
bomber] begin to age out, we will well in advance of that 
certify the airplane for nuclear operations.
    Again, it will have the internals and all that is required. 
We simply won't do the test and certification, which is quite 
elaborate and includes electromagnetic pulse and so on, until a 
little bit later in the sequence. We think that is the 
prudential thing to do to bring this on cost and on time.
    With respect to who is in charge, I am in charge. The 
Secretary of the Air Force is in charge. The fact is their 
Combatant Command is the lead command because they have the 
acquisition and requirements capacity in their headquarters. As 
you know, Global Strike is still somewhat new and will acquire 
that capability over time. But the idea was to give this to the 
command that had the capacity right now and we will certainly 
think about when the time comes who is the daddy rabbit for the 
platform.
    Dr. Fleming. Thank you, General. I might come back to you.
    General Odierno, I have a question for you, sir. Is it true 
that certain requirements like the Army's longstanding need for 
additional land to support full spectrum training operations 
will require further resources in this constrained budget 
environment? For example, do you believe that the ongoing range 
expansion at the JRTC [Joint Readiness Training Center] at Fort 
Polk is a mission critical initiative even as the Army draws 
down its forces and alters its mix of units?
    General Odierno. Congressman, as we draw down and as we 
come out of Afghanistan and other places, it is imperative that 
we continue to improve our jewels of our training programs, 
which is the National Training Center, the Joint Readiness 
Training Center, and CMTC [Combat Maneuver Training Center] in 
Europe, and make them the most capable and qualified so we are 
able to prepare ourselves for the upcoming threats, what they 
might be, and so we can properly train our soldiers. And so it 
is a very important part of our program. It will be reviewed 
like we review everybody else as you look at these budget cuts, 
but it is something we set a high priority on.
    Dr. Fleming. As you know, Fort Polk already has money set 
aside for land acquisition. That seems to be moving forward, 
although it has been slower than expected. So you feel that 
still is going to be a very important part of the future.
    General Odierno. I believe that our training complexes, 
especially JRTC, are very important, and they will have a high 
priority as we do our review of our budget.
    Dr. Fleming. Thank you, gentlemen. My time is up, and I 
yield back.
    The Chairman. Thank you, Doctor. We have one more, if we 
could extend.
    Congressman Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, I appreciate you staying past and taking the 
questions.
    As you know, General Schwartz, I represent Robins Air Force 
Base. The Depot Caucus met with Secretary Donley yesterday. 
There were four members of the United States Senate and four 
Members of Congress there, including myself. Obviously, some of 
the information that was given to us we did not agree with and 
felt like there should have been a business case analysis prior 
to the decisions being made. And certainly I am personally 
disappointed that my Generals that I try to work with to 
represent our bases were asked to sign confidentiality 
agreements and that there could not even be dialogue between 
the command structure and a Member of Congress, who serves on 
this committee, who is doing what--I did not vote for 
sequestration; I am doing what I can to help you--prior to 
hearing from Secretary Donley. But one of the things Secretary 
Donley did do in that meeting--and he did it on three separate 
occasions--is commit that there would be no change to who the 
program managers reported to. And the program managers could 
continue to report to sustainment. He said that that would 
happen for at least the next 24 months and that there would be 
no changes to that unless there was a business case analysis 
presented to the Senate and Congress.
    I appreciate his commitment on that, and I want to ask you 
for your support, that the program managers will continue to 
operate the way they currently do.
    General Schwartz. That is the Air Force position, sir, and 
I certainly support that. But I hope you will accept just 
gentle pushback here. It is interesting--and, by the way, the 
fact that there was interaction at the staff level----
    Mr. Scott. Yes, sir, there was.
    General Schwartz. As you are aware. I agree there was not 
interaction at the principal level. I take note of that, sir. 
Reporting lines of authority--the question is: Where is the 
seam in this business between sustainment and acquisition? Our 
judgment was that we would have at each of the depots an 
acquisition element that would be aligned with the broader 
acquisition team but would represent their interests at the 
sustainment location and depot. That, to me, seemed to be 
logical. In other words, they would be a geographically 
separated unit.
    I understand that any change is concerning about what it 
might portend, ultimately. And we didn't convince you or the 
other members of the caucus on this issue and so the Secretary 
made a commitment. And we certainly would stand by the 
Secretary's commitment. But all I would say is please allow us, 
again, to come back to you, as he also said he would do, to 
make the case as articulate as we can about why we think we 
should organize this way.
    Mr. Scott. And we would ask that a business case scenario 
be presented and that there be dialogue between the Members of 
Congress and the Generals that are operating the base. I don't 
think anybody on this committee or any of you are naive enough 
to think we can go through the type of budget reductions we are 
without some changes. I am certainly not. But that was a very 
serious concern to us. He did make that commitment yesterday. I 
am glad to know that you are onboard with that because there 
was some concern with the press release that maybe there had 
been some misunderstanding, if you will, in the room. Thank you 
for that.
    Gentlemen, all of you play an important role in Georgia, 
whether it is the Marine Corps Logistics Base in Albany or 
Kings Bay or Benning. If I can ever be of assistance to you, 
please let me know.
    Thank you. And thank you for your commitment, General 
Schwartz.
    Mr. Wilson. Thank you, Congressman Scott. And thank each of 
you for your dedication for service members, military families, 
and veterans.
    We are adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                            November 2, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 2, 2011

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

                The Future of the Military Services and

                 Consequences of Defense Sequestration

                            November 2, 2011

    The House Armed Services Committee meets to receive 
testimony on ``The Future of the Military Services and 
Consequences of Defense Sequestration.'' To assist us with our 
examination of the impacts of further defense cuts to each of 
the military services, we are joined by the four service 
chiefs. Gentlemen, thank you for your service and I truly 
appreciate your willingness to appear before the Committee 
today. I cannot recall the last time we had all four service 
chiefs in the same panel. This is a unique opportunity for our 
members and greatly assists us with our oversight 
responsibilities.
    The Committee has held a series of hearings to evaluate 
lessons learned since 9/11 and to apply those lessons to 
decisions we will soon be making about the future of our force. 
We have received perspectives of former chairmen of the joint 
chiefs of staff, former service chiefs and commanders of the 
National Guard Bureau, former chairmen of the Armed Services 
Committees, outside experts, Secretary Panetta, and Chairman of 
the Joint Chiefs of Staff General Dempsey. Today we have the 
opportunity to follow up on the testimony of the Secretary of 
Defense and Chairman of the Joint Chiefs of Staff to examine 
more closely the challenges faced by each of the Services.
    As I continue to emphasize, our successes in the global war 
on terror, and in Iraq and Afghanistan, appear to be lulling 
our Nation into the false confidence of a September 10th 
mindset. Too many appear to believe that we can maintain a 
solid defense that is driven by budget choices, not strategic 
ones. But as we heard from witnesses again last week, defense 
spending did not cause the current fiscal crisis. Nevertheless, 
defense can and will be a part of the solution. The problem is 
that to date, defense has contributed more than half of the 
deficit reduction measures we've taken and there are some who 
want to use the military to pay for the rest, to protect the 
sacred cow that is entitlement spending.
    Not only should that be a nonstarter from a national 
security and economic perspective, but it should also be a 
nonstarter from a moral perspective. Consider that word, 
entitlements. Well entitlements imply that you are entitled to 
a certain benefit, and I can't think of anyone who has earned 
that right ahead of our troops. By volunteering to put their 
lives on the line for this country, they are entitled to the 
best training, equipment, and leadership our Nation can 
provide.
    I hope our witnesses today can help us understand the 
ramifications of these possible cuts in relation to our force 
structure, as well as our ability to meet future needs of our 
national defense. How can we make sure the military is a good 
steward of the taxpayers' dollar, without increasing the risk 
to our Armed Forces? Where can we take risk, but what changes 
would go too far?

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

                The Future of the Military Services and

                 Consequences of Defense Sequestration

                            November 2, 2011

    I would like to join the Chairman in welcoming General 
Odierno, Admiral Greenert, General Schwartz, and General Amos. 
In these times of budgetary uncertainty, your testimony is 
particularly important.
    Our country faces a budget dilemma--we don't collect enough 
revenue to cover our expenditures. According to the House 
Budget Committee, we currently must borrow about 40 cents for 
every dollar the Federal Government spends. This problem must 
be addressed in two ways: Spending will have to come down, and 
we're going to have to generate new revenues.
    Like many, if not most, of our members here, I share the 
view that large, immediate cuts to the defense budget would 
have substantially negative impacts on the ability of the U.S. 
military to carry out its missions. I am sure that both our 
witnesses share this view, and I hope the panel here today can 
help us understand the impacts of additional potential cuts. I 
am also deeply concerned about cuts to all non-entitlement 
spending, which bore the brunt of the recent deficit deal. If 
the ``super committee'' fails to reach a deal, then cuts 
through sequestration will only impose deeper and more 
dangerous cuts to our military and non-entitlement spending 
such as infrastructure, education and homeland security.
    I believe that we can rationally evaluate our national 
security strategy, our defense expenditures, and the current 
mission sets we ask the military to undertake and come up with 
a strategy that requires less funding. We on this committee 
like to say that strategy should not be driven by arbitrary 
budget numbers, but by the same token not considering the level 
of available resources when developing a strategy is 
irresponsible. To that end, I congratulate the Administration 
for undertaking a comprehensive review of our current strategy. 
I know we all are looking forward to the results of that 
ongoing review. I for one believe that we can and must spend 
smarter and not just more.
    It is also important that we address the revenue side of 
our budget problem. We must consider raising additional 
revenue. In order to avoid drastic cuts to our military and 
other important programs, revenue streams must be enhanced.
    It is my hope that this hearing will help remind everyone 
here that we have to make some serious choices. Our budget must 
be looked at in a comprehensive manner. If we are serious about 
not cutting large amounts of funding from the defense budget, 
something else has to give. Large, immediate, across-the-board 
cuts to the defense budget, which would occur under 
sequestration, would do serious damage to our national 
security. In order to avoid large cuts to the defense budget, 
we're going to have to stop repeating ideological talking 
points and address our budget problems comprehensively, through 
smarter spending and increased revenue.
    Thank you again, Mr. Chairman, for holding this hearing. 
And thank you to our witnesses for appearing here today.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            November 2, 2011

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. BARTLETT

    General Odierno. With the Army that remains in service, there will 
be significant challenges and risk of a ``hollow force.'' While 
analysis is on-going, the Army anticipates being able to support the 
most important parts of U.S. Strategy.
    Sequestration will apply additional pressure on the balance of the 
Force specifically as it affects people and structures; equipment and 
modernization; readiness and training. Additionally, as a result of 
sequestration, the Army expects an impact on its forward engagement 
presence, and any long duration stability and support operations. [See 
page 19.]

    Admiral Greenert. After sequestration, our Navy will be capable of 
some of the same missions the fleet conducts today. Over the past year, 
Navy aircraft carriers and their aircraft supported troops on the 
ground in Iraq and Afghanistan with electronic warfare, surveillance, 
close air support and strikes. Navy surface combatants, submarines and 
aircraft delivered strikes as part of Operation ODYSSEY DAWN in Libya. 
Several ships aided our close ally, Japan, after a Tsunami devastated 
Honshu Island. And Navy SEALs led a joint force to capture Osama Bin 
Laden and also rescued the M/V ALABAMA's crew. After sequestration, our 
Navy will continue to be able to perform these missions but will be 
smaller--and less globally available--than the Navy today. With less 
ships, response times to crises will be longer, non-deployed forces 
will be less ready and naval presence will disappear from some regions. 
The development of new capabilities will be slowed and the fleet may be 
unable to overcome improvements by our potential adversaries in their 
efforts to deny Joint operational access.
    The budget reductions we are currently addressing as part of the 
2011 Budget Control Act introduce additional risk in our ability to 
meet the future needs of combatant commanders, but we believe this risk 
is manageable if we introduce and comply with a revised strategy for 
global force distribution. If sequestration occurs, however, the 
Department of Defense and the Navy will have to rethink some 
fundamental aspects of what our military should do. We would have to 
develop a new national security strategy that accepts significant risk 
in our ability to meet our defense needs. It would have to take into 
account reductions or terminations in major weapons programs, 
potentially including the Joint Strike Fighter, next generation 
ballistic missile submarine, and the littoral combat ship. And the 
strategy would have to address reductions in our maintenance and 
training accounts that will severely limit the ability of our remaining 
forces to meet combatant commander operational plans and engage with 
key allies and partners around the world. [See page 19.]

    General Schwartz. Further reductions driven by the Budget Control 
Act would require an enterprise-wide review of all Air Force resources 
and guidance from national and defense leadership on where to accept 
strategic and operational risk. The estimated reductions that would 
result from the sequestration provision would potentially drive 
elimination of lower priority missions and capabilities--capabilities 
that we would no longer offer the Joint team.
    Sequestration would not produce an immediate across the board 
reduction in readiness, but mid- to long-term effects would translate 
into higher operations tempo with a smaller and and decidedly less 
capable force. The Air Force will continue to assess the risks and 
balance available funds among our force structure, readiness, and 
modernization accounts to deliver trained, ready, and capable Airmen 
and airpower for the highest priority mission areas. [See page 19.]
    General Schwartz. The General Electric/Rolls Royce Fighter Engine 
Team has offered to self-fund F136 development in FY12 with $100 
million of their own funds. The Department estimates that $480 million 
is required in FY12 and a total of $2.9 billion to complete the 
development of the F136 engine. Therefore, $100 million is inadequate 
to carry out a meaningful development effort in FY12. In addition, the 
Government would likely incur additional cost if it has to provide F136 
Government-owned property to support the self-funded effort. Given the 
current budget environment and pressure to reduce future defense 
spending, the Department supports the continued development of a single 
engine provider for the F-35.
    Note: Since the time of the hearing, the contractor has stated that 
they will no longer pursue a self-funding plan. [See page 20.]

    General Amos. The Marine Corps does not know the precise impact 
sequestration would have on its readiness and capability; however, if 
the Supercommittee defaults, the large triggered defense cut will have 
serious repercussions. Uniform cuts of this magnitude could result in 
significant cuts to manpower, equipment, modernization programs, and 
training across the Service, leading to what is known as a ``hollow 
force'', one whose unit structure is preserved but is under-resourced 
to the extent of jeopardizing mission accomplishment. Sequestration 
also may lead to reductions in end strength that constrain the Marine 
Corps' ability to execute a major contingency with rotational forces 
over a prolonged period. It also would break faith with the ``All 
Volunteer'' force and their families who have sacrificed so much over 
the past ten years of constant combat operations. With sequestration, 
significant numbers of Marines responding to a major contingency, as in 
Iraq or Afghanistan, would likely remain deployed for longer periods 
with minimal time between deployments to rest, refit, and retrain. In 
turn, this scenario would result in unfavorable dwell time ratios, 
leading to increased levels of stress on Marines and their families. 
Also, if committed to a major contingency, the Marine Corps risks being 
severely limited in its ability to meet emerging requirements elsewhere 
in the world.
    Cuts to ground and aviation modernization programs already 
jeopardize future readiness. Today the Marine Corps is challenged to 
replace aging platforms that have reached the end of their service 
lives or which have suffered accelerated wear reducing service life, 
which will result in the loss of critical warfighting capabilities. All 
this puts the Nation at risk of creating a force unable to keep pace 
with adversaries. To avoid ``hollowness'', the Marine Corps must 
achieve institutional readiness, which is a balance of:

        <bullet>  Recruiting/retaining high quality people, including 
        appropriate compensation to recruit/retain a high quality 
        force;
        <bullet>  Current readiness of the operating forces, including 
        appropriate operations and maintenance funding to train to core 
        missions and maintain equipment;
        <bullet>  Force sizing to meet combatant commander requirements 
        with the right mix of capacity and capability; sufficient 
        structure and personnel/manning levels to achieve required 
        capacity;
        <bullet>  Real property and maintenance/infrastructure 
        investment; and
        <bullet>  Equipment modernization, both ground and aviation.

    After ten years of constant combat operations, the Marine Corps is 
not at an optimum level of balance today and must reset the force 
coming out of Afghanistan. We must also address modernization 
requirements to achieve balanced institutional readiness. [See page 
19.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. SANCHEZ
    General Odierno. To meet the Army's share of the $450B plus 
Department of Defense cut target, we will make significant, but 
manageable, reductions. Specifically, this will require reductions in 
the AC and RC end strength, directly reducing the number of Brigade 
Combat Teams (BCTs), as well as requiring further reductions in the 
Civilian workforce. Necessary cuts to Research, Development and 
Acquisition funding, Military Construction, and Operations and 
Maintenance will result in greater risk to training and readiness and 
our ability to RESET the Force after ten plus years of operations in 
Iraq and Afghanistan.
    It is imperative that as we implement these adjustments, our Army's 
readiness and our commitment to the Force remain steadfast. Cuts must 
be carefully and deliberately determined as they relate to manpower, 
modernization, training, maintenance, infrastructure and Soldier and 
Family support.
    More than anything, we must ensure that once these cuts are fully 
implemented, we can still provide a Force capable of meeting the 
current National Military Strategy with enough flexibility to provide 
the National Command Authority the greatest possible number of options 
for an uncertain future. [See page 22.]

    Admiral Greenert. The Department of Defense has planned for budget 
reductions of over $450 billion over the next ten years. These cuts are 
already difficult and require the Department of Defense to assume some 
risk in our national military strategy, but we believe those risks to 
be manageable. Further reductions are not advisable and will require us 
to accept more risk in the protection of our nation's security.
    Due to the potential impact of the choices made to meet the current 
reductions, Navy cannot independently tell you what it would cut next. 
There are no obvious programs or activities the Navy can offer to meet 
further cuts. Going forward, we will have to make reductions based on 
an evaluation of the level of budget cuts and the strategic priorities 
DOD establishes to defend the nation. These decisions would be 
adjudicated with the other Joint Chiefs and the Secretary of Defense to 
ensure the new combined military force meets our national security 
requirements with manageable risk. However, my priorities remain the 
same for the Navy and my intention would be to:

        <bullet>  Prioritize readiness to ensure the force we have is 
        fully mission capable
        <bullet>  Ensure our Sailors, civilians and their families are 
        properly supported
        <bullet>  Sustain relevant Navy-unique capabilities that 
        support the Joint Mission
        <bullet>  Ensure a coherent balance of capability and capacity 
        of the force, and consider the stability of the industrial base
     [See page 22.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. HUNTER
    Admiral Greenert. Constrained budgets and advancing threats will 
challenge to our ability to build the future force. We will need to get 
the most capability and capacity for our money. To maximize our 
capacity, we will prioritize procurement of ships and aircraft on 
proven designs that employ mature, dependable technologies. Platforms 
just entering the fleet such as the F-35 and Littoral Combat Ship (LCS) 
will be continued and bought in quantity to drive down technology risk 
and per unit cost. To improve capability, we will increasingly focus 
our research and development on what the platform carries, such as 
sensors, weapons, unmanned systems, and network capabilities. These 
systems can be developed more rapidly and at less cost than platforms, 
but when married to our proven ships and aircraft, they can 
dramatically improve the platform's capability.
    We have experience in this model. Aircraft carriers, amphibious 
ships, and the littoral combat ships are inherently reconfigurable, 
with sensor and weapon systems that can evolve over time for the 
expected mission. As we apply that same modular approach to each of our 
missions, the weapons, sensors, unmanned systems, and electronic 
warfare systems a platform deploys will increasingly become more 
important than the platform itself. By shifting to modular capability, 
the Navy will be able to deliver the latest technologies to the forward 
deployed Sailor quickly and affordably.
    We must also pay attention to how we acquire and manage the costs 
of ships and aircraft. This remains one of the Navy's biggest 
challenges, but we are taking action to reduce our acquisition costs 
and incentivize our industry partners to remain on schedule and 
maximize our return on investment. We strengthened acquisition policy 
to improve program oversight, control cost growth, and more effectively 
monitor contractor performance. The Department has also refined its 
internal 2-Pass/6-Gate review process to ensure requirements are set 
early and balanced against cost, and that this balance is visible and 
managed throughout the acquisition process. Through this enhanced 
internal review, Navy leadership challenges all aspects of the program 
(warfighting requirements, program execution, design, and construction 
efforts) to drive down engineering and construction costs while still 
meeting the core military requirements for the given platform. [See 
page 41.]

    General Schwartz. In addition to following the acquisition 
improvements outlined in the Weapon Systems Acquisition Reform Act of 
2009, the US Air Force has implemented an Acquisition Improvement Plan 
(AIP) and other related initiatives that will address some of the key 
causes behind the development cost growth questioned here. It is 
through the efforts associated with these multiple improvement 
initiatives that the Air Force is gaining better control of the 
development process, containing development budget fluctuations, and 
providing for a more consistent, open, cost effective acquisition 
process.
    One of the major implementations of the Air Force AIP relates to 
our approach to defining system requirements and conducting 
development. Proposed system requirements will now undergo a more 
rigorous senior leader validation and certification process to ensure 
the initial requirements are sufficiently finite, testable, and can be 
evaluated in source selection. Key performance parameters will be held 
to a minimum to eliminate program volatility and an incremental 
development approach will be utilized where feasible to better manage 
technical, schedule, and cost risks. Our ultimate objective is to 
develop a militarily useful and supportable capability within five 
years and avoid the prolonged development activities. Another major 
initiative within Air Force AIP is better visibility into program 
budgets and an improved sense of budget discipline. We've worked 
extensively with the Office of the Secretary of Defense and within our 
Air Force Corporate Structure to improve budgeting and provide more 
program manager and contractor accountability for our programs. The 
ultimate intent is to better understand our target costs and then 
stabilize and hold the budgets to those goals. Establishing credible 
and consistent program cost estimates is the first step in program 
funding stabilization and compliments our initiative for clearer and 
simpler requirements. In the 2012 President's Budget, we added 84 new 
cost estimator positions and laid the groundwork for more strenuous 
budget reviews. During FY13 Program Objective Memorandum (POM) 
discussions, we conducted an unprecedented number of cost estimates and 
budget baseline reviews to better inform our POM decision makers and 
determine where we needed to stabilize program funding based on the 
most credible cost estimate.
    To continue the momentum of AIP, the SecAF recently approved a 
follow-on effort called Acquisition Continuous Process Improvement 
(CPI) 2.0. This effort will continue to implement the OSD (AT&L) Better 
Buying Power (BBP) initiatives in the Air Force and continue our 
momentum towards improving our acquisition workforce skills.
    As part of the effort to recapture acquisition excellence, the Air 
Force is also implementing increased scrutiny in contractor performance 
and a new approach to space platform procurements. The contractor 
performance focus is on controlling contractor overhead rates and 
matching profit to risk and performance. The Air Force is working with 
DCMA to drive down contractor overhead rates and improve contractor 
cost accounting factors and award fee processes to get the most for 
each Air Force dollar. With regards to space platform procurements, the 
Air Force is pursuing block buys of space vehicles to stabilize 
production and invest in competitive, Government-directed, research and 
development. It's expected that this revamped space procurement 
approach will incrementally improve production performance and increase 
affordability. A foundational component of the block buy construct is 
to provide a stable amount of research, development, test and 
evaluation re-investments annually that will mitigate impacts of parts 
obsolescence, address critical industrial base concerns, and sustain 
long-term architectures. [See page 41.]
                                 ______
                                 
      RESPONSE TO QUESTION SUBMITTED BY MR. HUNTER AND MR. JOHNSON
    General Odierno. The Vice Chief of Staff of the Army intends to 
meet with Congressional members to respond in person. In brief for the 
record--Schedule: The Distributed Common Ground System-Army Major 
Automated Information System (MAIS) is required to achieve a full 
deployment decision by December 2012. Its Initial Operational Test and 
Evaluation (IOT&E) is scheduled this fiscal year. All is in accordance 
with acquisition rules and is on schedule. Savings: The Army began 
investing in the DCGS-A family of systems in order to modernize and 
enhance 9 legacy programs of record including signals intelligence, 
imagery intelligence, weather/targeting, and national intelligence 
capabilities. In 2006, an Acquisition Category III DCGS-A capability 
was approved to address urgent wartime requirements by enhancing the 
all-source analysis systems, as well as deploying quick reaction 
capabilities (QRC) requested by Warfighters. In order to leverage the 
nation's previous investments in these legacy and QRC intelligence 
capabilities, as well as the developmental program, the Army 
streamlined the DCGS-A acquisition strategy to combine the best of all 
these investments into a converged software baseline. This revised 
acquisition strategy brings enhanced capabilities to the field faster, 
accelerating fielding to the force by at least four years. An 
independent program cost estimate was conducted by the Deputy Assistant 
Secretary of the Army for Cost and Economics (DASA-CE) and a cost 
benefit analysis for using the software strategy estimates a cost 
avoidance of $3 billion within the program. Private sector 
alternatives: The DCGS-A program, which has adopted the Intelligence 
Community (IC) information technology way ahead, has invested in 
hardware, software and people from dozens of industry partners to 
implement commercial best practices and innovative software solutions. 
The Army consulted with Army users, IC members, and Service 
counterparts and concluded that no organization has committed to 
wholesale use of Palantir and no single industry partner can provide 
the enterprise solution that meets all of our Army Intelligence 
requirements. The transition to a software-centric model within a 
robust computing framework allows for entrepreneurial expansion from 
across the nation by creating jobs in smaller innovative, flexible 
companies while relying on our traditional industrial base for 
necessary platforms. [See page 42.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI
    General Odierno. Everything is on the table--to include, military 
and civilian force structure, readiness, and modernization. The 
magnitude of these cuts would be devastating. The indiscriminate nature 
of the reductions would not give the Army flexibility to provide a 
force that is ready to deal with unknown contingencies. However, we are 
bound by the Office of the Secretary of Defense and the Office of 
Management and Budget to wait for specific budget guidance before 
providing the impacts you request.
    In general, such reductions would require the Army to consider 
force structure options below the already planned decreases; would 
drive shortfalls in our readiness accounts; would reverse efforts to 
improve our infrastructure; and would desynchronize our investment and 
modernization strategies.
    We risk breaking faith with our Soldiers and their Families who 
have performed superbly over ten years of continuous conflict. 
Sustaining the all-volunteer force is absolutely essential for the 
Army's ability to support our Nation's defense. While recognizing the 
Nation's deficit challenges, it is imperative that any future 
reductions to Army's budget be based on comprehensive strategic 
analysis. We must ensure that we preclude hollowing the Army by 
maintaining balance in force structure, readiness, modernization 
efforts, and commitments to the all-volunteer force. The Army will take 
a comprehensive approach towards executing these potential cuts to 
ensure we do not create a hollow Army. [See page 28.]

    Admiral Greenert. Compared with the President's budget plan for FY 
2012, the Department of Defense is already planning a combined 
reduction over the next ten years of more than $450 billion. This 
reduction is being developed in conjunction with a new defense strategy 
and both the strategy and the resulting budget are still being 
completed. These cuts are difficult to make and will require us to take 
some risks, but they are manageable. However, if sequestration is 
triggered it would require an additional $500 to 600 billion dollar 
reduction over the next ten years. The impact of these reductions would 
be devastating to the Navy.
    Sequestration applies uniform percentage cuts to each ``program, 
project, and activity''--this means that every weapons program, 
research project, and military construction project is cut by an equal 
percentage. DOD and DON leadership is not allowed to manage or 
prioritize these reductions causing our readiness and procurement 
accounts to face a reduction of about 18 percent, rising to 
approximately 25 percent in the event military personnel funding is 
exempted from full sequestration.
    With this magnitude of reduction to each procurement and 
construction account, the Navy would be forced to terminate or 
significantly reduce most large procurement or military construction 
programs. We simply cannot buy three quarters of a ship, submarine, or 
building. Specifically, the Navy may need to delay and reduce the total 
quantity of the next generation ballistic missile submarine, delay or 
terminate unmanned ISR systems, terminate the Joint Strike Fighter 
program, and cancel the Littoral Combat Ship and associated mission 
module acquisitions. The combination of these measures and other cost-
saving proposals will result in a fleet of fewer than 230 ships, the 
smallest level since 1915. These reductions and cancellations will 
likely cause cost overruns and schedule delays due to increased 
overhead costs per unit and industrial base workforce reductions that 
will further complicate the execution of the programs and program 
elements that remain.
    Although our military personnel accounts can be exempted from 
sequestration, our civilian personnel accounts cannot. The Department 
of Defense would be required to reduce its civilian personnel by about 
20%. This would result in the smallest civilian workforce the DOD has 
had since becoming a department. [See page 28.]

    General Schwartz. Sequestration would drive an additional reduction 
of 10 percent above the Budget Control Act reductions to the Air Force 
FY13 budget request and the Act directs reductions equally spread 
across all programs, projects, and activities. For military personnel 
(MILPERS), Office of Management and Budget indicates the President 
might exempt MILPERS accounts, which will correspondingly increase the 
reductions to all other accounts. This would have a broad impact across 
the Air Force and necessitate multiple reprogramming actions to 
preserve critical Air Force capabilities.
    The Department of Defense has proactively pursued a budget 
reduction/efficiencies strategy and the Air Force has taken its share 
of reductions over the past two decades. As a rule, budget reductions 
should be informed by strategy. Arbitrary reductions as prescribed by 
sequestration will drive program restructuring, deferrals, and 
terminations in our investment portfolio. All investment accounts will 
be negatively impacted, including our high-priority Acquisition 
Category 1 modernization efforts such as KC-46A, F-35A, and MQ-9. 
Reduced operations and Maintenance (O&M) accounts would drive 
reductions in areas such as flying hours and weapon systems 
sustainment; curtailment of training; civilian hiring slowdowns and 
potential reduction-in-force actions; reduced daily operations to only 
mission critical operations (i.e. training, supplies, equipment); and 
deferral or cessation of infrastructure enhancements and new mission 
bed downs. Absorbing these reductions would negatively impact readiness 
and ``hollow out'' the force, and simultaneously make our ability to 
cover any emergent execution year requirements (e.g., fuel price 
increases or Libyan-type episodic operations) extremely difficult.
    The Air Force understands that no Government agency will be immune 
from reductions as we tackle our deficit reduction challenges. However, 
budget reductions must remain strategy-based and congruent with 
national objectives. Reductions without corresponding relief from 
mission requirements would be detrimental to the Air Force's ability to 
support the Joint warfighter. [See page 28.]

    General Amos. Yes, the Marine Corps requires an Amphibious Combat 
Vehicle (ACV) to replace our legacy Amphibious Assault Vehicles (AAV) 
that have been in service for more than 40 years. The programmatic 
priority for our ground forces is the seamless transition of Marines 
from the sea to conduct sustained operations ashore whether for 
training, humanitarian assistance, or for combat. The Amphibious Combat 
Vehicle is important to our ability to conduct surface littoral 
maneuver and seamlessly project Marine units from sea to land in 
permissive, uncertain and hostile environments. The ACV is a central 
component to our Ground Combat and Tactical Vehicle strategy that is 
focused on the right mix of assets, balancing performance, payload, 
survivability, fuel efficiency, transportability and cost.
    The former Expeditionary Fighting Vehicle (EFV) program was 
established to replace the AAV but was ultimately determined to be 
unaffordable. That program was canceled in January of 2011 . Upon the 
EFV program's cancelation, we conducted a Capabilities Based Analysis 
to study Marine Corps' operational requirements and current and future 
threats. When those requirements and threats were measured against the 
current AAV's capabilities, several gaps (command and control, 
mobility, force protection, survivability, and lethality) were 
reaffirmed and documented in the Initial Capabilities Document (ICD) 
for the ACV. The Joint Requirements Oversight Council validated the 
gaps and capabilities in the ICD in October of 2011. We are currently 
conducting an Analysis of Alternatives (AOA) to determine a cost and 
operationally effective solution to the capability gaps identified in 
the ICD. Potential solutions range from a significant upgrade of our 
current AAV fleet to a completely new vehicle. In parallel with the 
AOA, we are conducting studies to underpin the quantity of vehicles 
needed to support operational requirements.
    Given the threats we will face in the future and the traditional 
need for the Marine Corps to operate in austere and expeditionary 
environments, the Short Take-Off Vertical Landing (STOVL) F-35B is 
clearly the tactical aircraft needed to meet our operating requirements 
at sea and ashore. Once fielded, the F-35B will support the Marine Air 
Ground Task Force from now until the middle of this century. Our 
requirement for expeditionary tactical aircraft has been demonstrated 
repeatedly since the inception of Marine aviation almost one hundred 
years ago. From the expeditionary airfields and agile jeep carriers of 
World War II, to close air support in proximity to troops in Korea and 
Vietnam, to forward basing on cratered runways and taxiways throughout 
Iraq, through to today's fight in Afghanistan, and the flexible 
expeditionary response demonstrated in Libya; our ability to tactically 
base fixed wing aircraft in close proximity to our maneuvering ground 
forces has been instrumental to our success on the battlefield.
    The STOVL F-35 is a capability that allows the Marine Corps to 
provide fixed-wing aviation assets to support the Combatant Commanders 
where land-based or carrier-based aircraft are not present. 
Additionally, it doubles the number of naval platforms capable of 
carrying fixed-wing strike aircraft and increases the number of usable 
airfields worldwide for these aircraft. [See page 28.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            November 2, 2011

=======================================================================

      
                    QUESTION SUBMITTED BY MR. FRANKS

    Mr. Franks. General Schwartz, you stated in your testimony that any 
further budget cuts beyond those necessary to comply with the Budget 
Control Act's first round ``cannot be done without damaging our core 
military capabilities and therefore our national security.'' 
Practically speaking, you and I share the concern that further cuts 
will amount to ``continued aging and reductions in the Air Force's 
fleet of fighters, strategic bombers, airlifters, and tankers, as well 
as to associated bases and infrastructure.'' Specifically, I'm 
concerned about the F-35A, which you call the ``centerpiece of our 
future tactical air combat capability.'' As you know, some people are 
calling for the F-35 program to be mothballed. Can you please provide 
assurances that the F-35A will continue to be a vital and viable 
program and the future of the Air Force, and that the Air Force is 
committed to having this fighter in the near future?
    General Schwartz. The Air Force must modernize our aging fighter 
force and that modernization depends on the fifth generation 
capabilities of the F 35A. There is no alternative to the F-35 program. 
The Air Force remains committed to maintaining air superiority and 
holding any target at risk and the F-35A is required to fulfill that 
commitment. In addition, the F-35A brings the benefit of increased 
allied interoperability and cost sharing across the Services and our 
partner nations.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. General Odierno, you stated in your opening remarks 
that ``We cannot afford to repeat the mistakes of previous 
reductions.'' End-strength reductions and force structure changes will 
certainly impact Army's O&M account, requiring commensurate reductions 
in associated infrastructure, maintenance, sustainment, and training. 
What actions is the Army taking to ensure that critical and deliberate 
planning is completed to ensure reductions are directly linked to 
workload, and that appropriate workforce mix is maintained? We have 
heard a lot about civilian workforce reductions, and while appealing, 
that workforce is difficult to reconstitute in future years if 
workload, readiness, or risk require civilian performance. What are you 
doing to ensure policies promulgated by the USD(P&R) regarding 
workforce mix, in-sourcing, and reliance on contracted services are 
being adhered to preclude conversion of work to contract performance as 
you drawdown military and civilian levels and revise force structure?
    General Odierno. The Secretary of the Army directed that civilian 
reductions not be implemented by realigning work to contractors, which 
has been promulgated in Assistant Secretary of the Army (Manpower and 
Reserve Affairs) policy guidance to the field. The Assistant Secretary 
of the Army for Manpower and Reserve Affairs has also issued guidance 
to enforce the statutory prohibitions against direct conversions of 
civilian employees to contractor performance.
    Ms. Bordallo. General Odierno, you stated that you must ensure 
``the right mix of operating and generating forces, and the right mix 
of soldiers, civilians, and contractors.'' What specifically does that 
mean in practical terms? What criteria are you applying to ensure 
military personnel aren't being used as ``borrowed labor'' for 
functions that don't contribute to readiness? How are you linking 
civilian and contracted support structures to workload and how does 
this reconcile with the direct to hold to FY10 civilian funding levels? 
How is P&R guidance on workforce mix and in-sourcing being applied 
across the Army to ensure this ``right mix''?
    General Odierno. The Assistant Secretary of the Army for Manpower 
and Reserve Affairs issued guidance limiting the use of Borrowed 
Military Manpower (BMM) to include restricting BMM to within a 
Soldier's military occupational specialty, limiting the duration of 
BMM, fencing deploying units, and requiring cost benefit analysis. 
Additionally, the Assistant Secretary of the Army for Manpower and 
Reserve Affairs is responsible for determining the requirements for the 
generating force (military, civilian, and contract) based on workload 
and available funding.
    Ms. Bordallo. General Odierno, you spoke of resetting equipment in 
theater rather than rotating it out. As you know, much attention has 
been paid to the role of contractors in theater--as well as the 
sustainment, infrastructure, and maintenance support provided to the 
Department by the private sector. However, as we shape the force of the 
future and discuss the likely impact the possibility of retirement and 
compensation reforms will have on the Department's ability to recruit 
and retain a ready and capable force, what steps are being taken to 
ensure that the future mix of the Department's workforce is 
appropriately balanced? Declining end-strengths and civilian personnel 
limitations would seem to lead to a ``default'' of contracted support 
to meet future operational needs (similar to the post 1990s drawdown). 
What controls are being implemented, related to contracted service 
levels, to prevent favoring one element of the Total Force overt 
another?
    General Odierno. The Assistant Secretary of the Army for Manpower 
and Reserve Affairs issued guidance to enforce the statutory 
prohibitions against direct conversions of civilian employees to 
contractor performance and issued further guidance limiting the use of 
Borrowed Military Manpower (BMM). I understand that the Assistant 
Secretary continues to work diligently to ensure compliance and 
identify functions at risk of inherently governmental performance or 
unauthorized personal services based on the contractor inventory. 
Additionally, the Assistant Secretary of the Army for Manpower and 
Reserve Affairs is responsible for determining the requirements for the 
generating force (military, civilian and contract) based on workload 
and available funding.
    Ms. Bordallo. The Under Secretary of Defense for Personnel and 
Readiness submitted a report over the summer in response to a Committee 
request to assess the Department's shift from using contract security 
guards. The authority to rely on contract security guards is expiring 
at the end of this fiscal year. How many contracted security guards 
does the Army, Navy, Marine Corps and Air Force have across its 
installations, as well as in theater, and what are you doing to reduce 
that reliance? Will the Army, Navy, Marine Corps or Air Force meet the 
ratios required by law for having civilians or military perform that 
work? And what protections are there to ensure Soldiers aren't 
performing routine functions that do not contribute to the overall 
mission readiness?
    General Odierno. I understand that we are currently refining the 
process to more robustly consider operational risk and document the 
contractor requirement. The Army is evaluating the possibility of using 
civilian employees to perform these currently contracted functions 
where military police law enforcement units are not available, when 
authority to contract expires at the end of Fiscal Year 2012. The 
Assistant Secretary of the Army for Manpower and Reserve Affairs issued 
guidance limiting the use of Borrowed Military Manpower (BMM) to 
include restricting BMM to within a Soldier's military occupational 
specialty, limiting the duration of BMM, fencing deploying units, and 
requiring cost benefit analysis.
    Ms. Bordallo. This committee has heard of specific instances across 
the Air Force, Marine Corps and Army where work performed by Government 
employees is being directly converted to contract performance. Section 
2461 of title 10 prohibits the conversion of work currently performed 
(or designated for performance) by civilian personnel to private sector 
performance without a public-private competition, which are currently 
precluded under a moratorium from being conducted. Specific instances 
reported to this Committee include work at Minot, Eglin, Lackland AFBs, 
Army's Installations Management and Medical Commands as well as in 
Albany, Georgia. While these are just some instances, the pressures of 
the budget and decreases in civilian workforce levels make this a very 
real concern across the entirety of the Air Force. Please address these 
three instances and also what actions are being taken to preclude such 
illegal conversion of work across the Air Force in the future?
    General Odierno. The Secretary of the Army directed that civilian 
reductions not be implemented by realigning work to contractors. The 
Assistant Secretary of the Army for Manpower and Reserve Affairs issued 
detailed guidance to enforce the statutory prohibitions against direct 
conversions of civilian employees to contractor performance. I 
understand that the Assistant Secretary of the Army (Manpower and 
Reserve Affairs) is coordinating with Medical Command (MEDCOM) 
regarding the corrective action in the case of the direct conversion 
issue and is assessing the facts associated with the Army Installation 
Management (IMCOM) and Medical Commands.
    Ms. Bordallo. There is significant focus placed on the health and 
well-being of the industrial base and the impact on the economy as we 
enter this era of budget decreases for the DOD. And as was noted in an 
earlier hearing, the industrial base is not only our builders of 
weapons systems and platforms, but also companies that provide 
services. Yet, there has been significant concern with overreliance on 
contracted services within the Department which in the past resulted in 
the in-sourcing of certain services. Is there an office within the 
Army, Air Force, Marine Corps or Navy that is tasked and resourced to 
assess the ``health and well-being'' of the Department's organic 
capabilities and competency base within the civilian workforce in this 
era of budget decreases? Specifically, how can the Army, Air Force, 
Marine Corps or Navy prevent further increasing reliance on services 
provided by the private sector in facility related, knowledge based, 
and equipment related services, among others, as its military and 
civilian personnel are so drastically being cut?
    General Odierno. The Assistant Secretary of the Army for Manpower 
and Reserve Affairs is responsible for determining the requirements for 
the generating force (military, civilian, and contract) based on 
workload and available funding. In addition, under its Civilian 
Workforce Transformation effort, the Assistant Secretary of the Army 
for Manpower and Reserve Affairs is conducting competencies-based 
analysis to ensure the proper skill sets and staffing of our organic 
workforce to support emerging threats and required new competencies.

    Ms. Bordallo. What actions is the Navy, Air Force, and Marine Corps 
taking to ensure that critical and deliberate planning are completed to 
ensure reductions are directly linked to workload, and that appropriate 
workforce mix is maintained? We have heard a lot about civilian 
workforce reductions, and while appealing, that workforce is difficult 
to reconstitute in future years if workload, readiness, or risk require 
civilian performance. What are you doing to ensure policies promulgated 
by the USD(P&R) regarding workforce mix, in-sourcing, and reliance on 
contracted services are being adhered to preclude conversion of work to 
contract performance as you drawdown military and civilian levels and 
revise force structure?
    Admiral Greenert. Workforce balance and in-sourcing skill sets are 
some of the principles the DON and USD(P&R) staff use to establish the 
appropriate mix of military, civilian, and contractor employees in our 
workforce to affordably accomplish its missions. In addition to having 
``the right skill set in the right position,'' our workforce must be 
appropriately sized to meet baseline workload requirements while 
maintaining the flexibility to meet emerging needs. Therefore, each 
major command (Budget Submitting Office (BSO)) within the DON has the 
ability to hire civilians within the command's budget to allow for 
staff attrition and anticipated workload demands.
    Contracts for services and contracted functions are reviewed 
annually by BSOs based upon identified priorities. The Department is 
currently limiting growth in civilian positions to reduce overhead. 
This reduces the number of overall positions we will in-source, but 
balances the skill sets of our workforce and alleviates redundancy. The 
Department is currently monitoring the impact of the overhead 
efficiency efforts taken during FY11 (and will continue doing so in 
FY12) through specified periodic reviews with the DON and OSD staff.
    Ms. Bordallo. Admiral Greenert, you stated that you may have to 
``freeze civilian hiring'' beyond the first quarter in the event of a 
continuing resolution. What mechanisms does the Navy have in place to 
preclude work for being absorbed by contractors in such an event? 
Specifically, the Navy hasn't taken any actions, despite clear 
Congressional direction, to work with P&R and adapt the Army's approach 
to the inventory of contracts for services. Accounting for direct labor 
hours of contractors as the law requires would help the Navy get an 
accounting of its contracted services and ensure that in this era of 
civilian personnel constraints, we do not shift to increased reliance 
on contracted services. What progress is being made in this area?
    Admiral Greenert. As directed in the Under Secretary of Defense for 
Acquisition, Technology and Logistics (USD(AT&L)) memo, 
``Implementation Directive for Better Buying Power--Obtaining Greater 
Efficiency and Productivity in Defense Spending,'' the Department of 
the Navy established the Senior Services Manager (SSM) organization 
within DASN (Acquisition and Procurement). The SSM, along with the DON 
financial and manpower communities, is tracking the reduction of 
services acquisition including the 10% reduction in headquarters 
support contractors directed by SECDEF and the 15% reduction in certain 
administrative support categories directed by the Office of Management 
and Budget. The SSM is tracking these reductions as part of a review of 
services portfolios to identify opportunities for increasing 
efficiencies and reducing costs.
    The SSM is actively engaged with DON and OSD stakeholders to 
develop the required tools to manage services contracting requirements 
as part of the total force. DON (DASN(Acquisition and Procurement)) 
submitted a plan of action and milestones to USD(P&R) to inventory 
contractor work as directed in the FY08 NDAA, and leverage the Army's 
CMRA as directed in Section 8108 of Public Law 112-10. As described in 
the POA&M, DON will gather direct labor hours for contracted services 
work, define reporting requirements in new contracts, and activate the 
annual reporting of FY12 contractor data by October of 2012.
    Ms. Bordallo. The Under Secretary of Defense for Personnel and 
Readiness submitted a report over the summer in response to a Committee 
request to assess the Department's shift from using contract security 
guards. The authority to rely on contract security guards is expiring 
at the end of this fiscal year. How many contracted security guards 
does the Army, Navy, Marine Corps and Air Force have across its 
installations, as well as in theater, and what are you doing to reduce 
that reliance? Will the Army, Navy, Marine Corps or Air Force meet the 
ratios required by law for having civilians or military perform that 
work? And what protections are there to ensure Soldiers aren't 
performing routine functions that do not contribute to the overall 
mission readiness?
    Admiral Greenert. At the start of FY12, Navy had 485 contract 
guards across 70 installations under PL 107-314 authorization. The Navy 
entered FY12 exceeding the NDAA07 reduction requirement and ratios, and 
will meet the NDAA07 requirement to eliminate our reliance on these 
guards completely by end of FY12. We have accomplished this reduction 
and transition through a combination of Government civilian 
replacements, technology and automation investments, and by reducing 
the overall security guard requirement. The Navy awarded all non-guard 
and routine Security services (e.g. vehicle pass and registration) 
under OMB Circular A76 which ensures our military Security 
professionals are performing only critical, inherently governmental 
functions.
    Ms. Bordallo. There is significant focus placed on the health and 
well-being of the industrial base and the impact on the economy as we 
enter this era of budget decreases for the DOD. And as was noted in an 
earlier hearing, the industrial base is not only our builders of 
weapons systems and platforms, but also companies that provide 
services. Yet, there has been significant concern with overreliance on 
contracted services within the Department which in the past resulted in 
the in-sourcing of certain services. Is there an office within the 
Army, Air Force, Marine Corps or Navy that is tasked and resourced to 
assess the ``health and well-being'' of the Department's organic 
capabilities and competency base within the civilian workforce in this 
era of budget decreases? Specifically, how can the Army, Air Force, 
Marine Corps or Navy prevent further increasing reliance on services 
provided by the private sector in facility related, knowledge based, 
and equipment related services, among others, as its military and 
civilian personnel are so drastically being cut?
    Admiral Greenert. The Department of the Navy's (Navy and Marine 
Corps) growth in contractor support resulted in part from the 
significant drawdown of the civilian workforce in the 1990's, which is 
currently being revitalized through Acquisition Workforce, Defense 
Acquisition Workforce Development Fund, and other initiatives. The 
Offices of the Assistant Secretaries of the Navy for Manpower & Reserve 
Affairs, Research Development & Acquisition, and Financial Management & 
Comptroller have partnered to ensure all statutorily required organic 
capabilities are maintained, ensure Government employees are equipped 
to provide oversight of resources and programs, and assess requirements 
for military, civilian employees, and contractors to sustain a 
proficient and flexible workforce. Under OMB Circular A-76 Performance 
of Commercial Activities, the Department prepares an annual inventory 
of commercial and inherently governmental activities.

    Ms. Bordallo. What actions is the Navy, Air Force, and Marine Corps 
taking to ensure that critical and deliberate planning are completed to 
ensure reductions are directly linked to workload, and that appropriate 
workforce mix is maintained? We have heard a lot about civilian 
workforce reductions, and while appealing, that workforce is difficult 
to reconstitute in future years if workload, readiness, or risk require 
civilian performance. What are you doing to ensure policies promulgated 
by the USD(P&R) regarding workforce mix, in-sourcing, and reliance on 
contracted services are being adhered to preclude conversion of work to 
contract performance as you drawdown military and civilian levels and 
revise force structure?
    General Schwartz. The Air Force continually strives to provide an 
optimal workforce mix that supports its strategic objectives, its daily 
operation, and provides for effective and economical administration. In 
accordance with Department of Defense (DOD) direction, the Air Force 
routinely looks at ways it can improve its workforce mix. Instructions 
set forth in Department of Defense Instruction (DODI) 1100.22 (Policy 
and Procedures for Determining Workforce Mix), as well as Federal 
Acquisition Regulations 7.5, Defense Federal Acquisition Regulation 
207.5 and Air Force Instruction (AFI) 38-204, Programming USAF 
Manpower, provide the overarching guidance for Air Force workforce mix 
determinations. To that end, the Air Force performs a comprehensive 
annual Inherently Governmental and Commercial Activities (IGCA) review 
to ensure it has the proper work force mix. This review allows the Air 
Force to evaluate the total workforce's categorization as inherently 
governmental, military essential, or a commercial activity subject to 
review for private sector performance.
    All Military Departments brief USD (P&R) on its IGCA Inventory 
results within three weeks of the annual submission. This process 
ensures that the processes used to establish the composition of our 
workforce are predicated on defense missions, are consistent with DOD 
policy, and provide a means for continual improvement as we seek to 
achieve the proper balance of military, DOD civilian, and private 
sector support.
    Ms. Bordallo. General Schwartz, what mechanisms does the Air Force 
have in place to prevent work from being absorbed by contractors as a 
result of the drastic cuts recently announced to the Air Force's 
civilian workforce? Specifically, the Air Force hasn't taken any 
actions, despite clear Congressional direction, to work with P&R and 
adapt the Army's approach to the inventory of contracts for services. 
Accounting for direct labor hours of contractors as the law requires 
would help the Air Force get an accounting of its contracted services 
and ensure that in this era of civilian personnel constraints, we do 
not shift to increased reliance on contracted services. What progress 
is being made in this area?
    General Schwartz. The Air Force continues to work closely with 
OUSD(C), OUSD (P&R), and OUSD (AT&L) to fulfill contractor accounting 
mandated by Congress. We are using the two million dollars provided in 
Section 8108 of the 2011 Department of Defense Appropriation Act to 
leverage Army's Contractor Manpower Reporting Application for our use. 
This system will capture contractor-provided labor hours and other 
associated factors. We provided OUSD(P&R) our implementation plan as 
directed in Section 8108. This plan establishes, beginning 1 Oct 2012, 
that as new contracts for services are awarded, performance work 
statements will require contractors to report the data elements needed 
to answer the mandates of Section 8108 and 10 U.S.C. Sec. 2330a.
    We are tracking, on a monthly basis, our use of contractors 
performing knowledge-based services, service support, and advisory 
studies to ensure that we achieve already programmed reductions. These 
actions, coupled with the current monthly tracking of the financial 
obligations of contract usage, facilitate prevention of inappropriate 
migration of workload.
    Ms. Bordallo. The Under Secretary of Defense for Personnel and 
Readiness submitted a report over the summer in response to a Committee 
request to assess the Department's shift from using contract security 
guards. The authority to rely on contract security guards is expiring 
at the end of this fiscal year. How many contracted security guards 
does the Army, Navy, Marine Corps and Air Force have across its 
installations, as well as in theater, and what are you doing to reduce 
that reliance? Will the Army, Navy, Marine Corps or Air Force meet the 
ratios required by law for having civilians or military perform that 
work? And what protections are there to ensure Soldiers aren't 
performing routine functions that do not contribute to the overall 
mission readiness?
    General Schwartz. The Air Force security contract portfolio does 
not include installations in combat theaters; those forces are managed 
by Combatant Commanders.
    The Air Force portfolio of security guard contracts peaked at 
approximately 2,000 contractor personnel full-time equivalents in 
Fiscal Year 2007 and for Fiscal Year 2012 totals about 700. Consistent 
with statute, all contracts are anticipated to end by last day of 
Fiscal Year 2012.
    Consistent with expiring authorities, the Air Force, over the last 
several years, has replaced the majority of the contract security 
guards that were performing these functions while military personnel 
were deployed with 1,300 General Schedule term over-hire police 
positions, not permanent. Over-hires have been used since the 
deployments are not permanent; the Air Force will continue to use over-
hires as a means of maintaining installation security when military 
forces are deployed.
    Of the remaining 700 Fiscal Year 2012 contract personnel, 600 are 
Overseas Contingency Operations (OCO) budgeted/funded. These 
contractors are temporary replacements for deployed Air Force Security 
Forces (military police). These Air Force Security Forces (military 
police) are assigned to installation security tasks when not deployed. 
Of the 600 OCO contractors, 400 are being converted to General Schedule 
police officers on term over-hire appointments. Installation security 
is being enhanced by the conversion of security guards into more highly 
trained police officers. About 150 contract positions are not being 
converted due to reduced military deployments and availability of 
military personnel. As Air Force military personnel return from 
deployments to their primary jobs at home station, temporary 
replacements will no longer be needed. The release of the civilian term 
over-hires has no impact on force protection standards.
    Of the current Air Force portfolio, the remaining 150 of the 700 
contractor equivalents are being converted to permanent General 
Schedule positions. These baseline budget contract positions were 
transferred to the Air Force from sister Services as a result of Joint 
basing.
    The Air Force manages manpower to ensure that military personnel 
are not required to routinely perform functions that do not contribute 
to the overall mission readiness. Since the attacks of 9/11, the Air 
Force has increased installation security manpower by 15 percent (about 
3,000 personnel) and has provided flexibility to commanders in meeting 
their force protection responsibilities.
    In the Air Force, reliance on contracted security guards was 
temporary in nature. Of the 2,000 Air Force contracted security 
positions overall, only 100 are projected to be sourced permanently 
through the Joint base realignment baselining.
    Ms. Bordallo. This committee has heard of specific instances across 
the Air Force, Marine Corps and Army where work performed by Government 
employees is being directly converted to contract performance. Section 
2461 of title 10 prohibits the conversion of work currently performed 
(or designated for performance) by civilian personnel to private sector 
performance without a public-private competition, which are currently 
precluded under a moratorium from being conducted. Specific instances 
reported to this Committee include work at Minot, Eglin, Lackland AFBs, 
Army's Installations Management and Medical Commands as well as in 
Albany Georgia. While these are just some instances, the pressures of 
the budget and decreases in civilian workforce levels make this a very 
real concern across the entirety of the Air Force. Please address these 
three instances and also what actions are being taken to preclude such 
illegal conversion of work across the Air Force in the future?
    General Schwartz. Policy guidance was issued throughout the Air 
Force that implemented a moratorium on public-private competition in 
accordance with 10 U.S.C. Sec. 2461. The Air Force investigated the 
allegations of civilian to contractor direct conversions at Minot, 
Eglin, and Lackland AFBs and found that no direct conversions occurred. 
The manpower, legal, and contracting communities will continue to 
communicate and mandate compliance with National Defense Authorization 
Act guidance and future Under Secretary of Defense (Personnel and 
Readiness) (USD (P&R)) policies to all key stakeholders.
    Ms. Bordallo. There is significant focus placed on the health and 
well-being of the industrial base and the impact on the economy as we 
enter this era of budget decreases for the DOD. And as was noted in an 
earlier hearing, the industrial base is not only our builders of 
weapons systems and platforms, but also companies that provide 
services. Yet, there has been significant concern with overreliance on 
contracted services within the Department which in the past resulted in 
the in-sourcing of certain services. Is there an office within the 
Army, Air Force, Marine Corps or Navy that is tasked and resourced to 
assess the ``health and well-being'' of the Department's organic 
capabilities and competency base within the civilian workforce in this 
era of budget decreases? Specifically, how can the Army, Air Force, 
Marine Corps or Navy prevent further increasing reliance on services 
provided by the private sector in facility related, knowledge based, 
and equipment related services, among others, as its military and 
civilian personnel are so drastically being cut?
    General Schwartz. Instructions set forth in DODI 1100.22, Policy 
and Procedures for Determining Workforce Mix, as well as Federal 
Acquisition Regulations 7.5 and Defense Federal Acquisition Regulation 
207.5, are guidance the Air Force uses to ensure organic capabilities 
are not contracted to the private sector. Additionally, the Air Force 
performs an annual Inherently Governmental and Commercial Activities 
review to ensure those capabilities remain within the Government. Our 
collective manpower and personnel community (A1) assesses the ``health 
and well being'' of the civilian workforce. To prevent further 
increasing reliance on services provided by the private sector the Air 
Force has two mechanisms in place:

        1)   Funding of service contracts is closely scrutinized and 
        limited; and
        2)   the Deputy Chief Management Officer monitors financial 
        metrics to ensure dollars and the associated work do not 
        inappropriately migrate to the private sector.

    In-sourcing has been, and continues to be, a very effective tool to 
rebalance the workforce, realign inherently governmental and other 
critical work to Government performance (from contract support), and in 
many instances to generate resource efficiencies. Those contracted 
services that meet the in-sourcing criteria (consistent with governing 
statutes, policies, and regulations) will be in-sourced several ways:

        1)   absorbing work into existing Government positions by 
        refining duties or requirements;
        2)   establishing new positions to perform contracted services;
        3)   eliminating or shifting equivalent existing personnel from 
        lower priority activities; or
        4)   on a case-by-case basis, requesting a Department of 
        Defense exception to the civilian funding levels.
    Ms. Bordallo. General Schwartz, you stated that cyber was of maybe 
three areas in the entire department portfolio that may grow by 
necessity. Acquisition has been another focus area for the Department 
and the Congress, as has financial management. Growing these areas to 
meet the emerging mission and oversight necessary, you indicated it 
will have to come at the expense of other areas in the broader 
portfolio. What such portfolios can afford to be minimized and how is 
that consistent with the strategic human capital planning that 
Personnel & Readiness is focused on?
    General Schwartz. The Air Force has applied a holistic, competency-
based approach in order to identify efficiencies and allow growth in 
areas such as acquisition and cyber. Our proposed reductions preserve 
the Air Force's core capabilities and ensure continued support to 
Combatant Commanders. Corporately, the Air Force has sought 
efficiencies through management headquarters reductions, eliminating 
overhead, merging like functions, and streamlining the way installation 
support services are provided to include partnering with communities.

    Ms. Bordallo. What actions is the Navy, Air Force, and Marine Corps 
taking to ensure that critical and deliberate planning are completed to 
ensure reductions are directly linked to workload, and that appropriate 
workforce mix is maintained? We have heard a lot about civilian 
workforce reductions, and while appealing, that workforce is difficult 
to reconstitute in future years if workload, readiness, or risk require 
civilian performance. What are you doing to ensure policies promulgated 
by the USD(P&R) regarding workforce mix, in-sourcing, and reliance on 
contracted services are being adhered to preclude conversion of work to 
contract performance as you drawdown military and civilian levels and 
revise force structure?
    General Amos. The Marine Corps conducted a self-initiated, 
capabilities-based Force Structure Review (FSR) one year ago in order 
to answer this exact question regarding reductions directly linked to 
workload. The Marine Corps employed a panel of senior officers (O-6) 
representing all elements of the Marine Corps. The panel received 
guidance from the Commandant, applied operational planning scenarios of 
the future, and developed a force structure that satisfied both from a 
capabilities perspective. In this way, the Marine Corps directly tied 
anticipated operational workload to planned reductions in manpower. The 
results of the FSR detailed a Marine Corps force that is specifically 
tailored in capability to anticipated workloads. Additionally, the 
Marine Corps is presently conducting a review of all civilian billets 
and service contracts. This three phase review began in July of 2011 
and will be completed in December. We are also developing polices 
supporting the direction given by Under Secretary of Defense for 
Programs and Resource. These polices will be published in Marine Corps 
Orders which guide the development of our Total Force.
    Ms. Bordallo. The Under Secretary of Defense for Personnel and 
Readiness submitted a report over the summer in response to a Committee 
request to assess the Department's shift from using contract security 
guards. The authority to rely on contract security guards is expiring 
at the end of this fiscal year. How many contracted security guards 
does the Army, Navy, Marine Corps and Air Force have across its 
installations, as well as in theater, and what are you doing to reduce 
that reliance? Will the Army, Navy, Marine Corps or Air Force meet the 
ratios required by law for having civilians or military perform that 
work? And what protections are there to ensure Soldiers aren't 
performing routine functions that do not contribute to the overall 
mission readiness?
    General Amos. The only contract security guards supporting the 
Marine Corps are currently at the National Museum of the Marine Corps 
near Quantico, Virginia. Next year, these nine guards will be replaced 
by civilian police from the Marine Corps Civilian Law Enforcement 
Program. The Marine Corps is in compliance with legal ratios. Although 
the Marine Corps has civilian contractors performing routine support 
functions (e.g. 911 dispatch, alarm monitoring, vehicle pass and 
registration, police supply, court liaison, physical security, 
commercial vehicle inspection, and other support tasks), contractors 
are not involved in core security/policing work. Having civilian 
contractors available in a supporting role allows Marine military and 
civilian police to focus exclusively on access control measures and 
other appropriate security and police tasks.
    Ms. Bordallo. This committee has heard of specific instances across 
the Air Force, Marine Corps and Army where work performed by Government 
employees is being directly converted to contract performance. Section 
2461 of title 10 prohibits the conversion of work currently performed 
(or designated for performance) by civilian personnel to private sector 
performance without a public-private competition, which are currently 
precluded under a moratorium from being conducted. Specific instances 
reported to this Committee include work at Minot, Eglin, Lackland AFBs, 
Army's Installations Management and Medical Commands as well as in 
Albany Georgia. While these are just some instances, the pressures of 
the budget and decreases in civilian workforce levels make this a very 
real concern across the entirety of the Air Force. Please address these 
three instances and also what actions are being taken to preclude such 
illegal conversion of work across the Air Force in the future?
    General Amos. Marine Corps Installation Command recently examined 
an allegation that civilian positions at our base in Albany, GA were 
being directly converted in contravention of 10 USC 2461. After 
ascertaining the facts and reviewing the applicable legal provisions, 
we have determined that no direct conversions or improper use of 
contractors has occurred there.
    Ms. Bordallo. There is significant focus placed on the health and 
well-being of the industrial base and the impact on the economy as we 
enter this era of budget decreases for the DOD. And as was noted in an 
earlier hearing, the industrial base is not only our builders of 
weapons systems and platforms, but also companies that provide 
services. Yet, there has been significant concern with overreliance on 
contracted services within the Department which in the past resulted in 
the in-sourcing of certain services. Is there an office within the 
Army, Air Force, Marine Corps or Navy that is tasked and resourced to 
assess the ``health and well-being'' of the Department's organic 
capabilities and competency base within the civilian workforce in this 
era of budget decreases? Specifically, how can the Army, Air Force, 
Marine Corps or Navy prevent further increasing reliance on services 
provided by the private sector in facility related, knowledge based, 
and equipment related services, among others, as its military and 
civilian personnel are so drastically being cut?
    General Amos. Yes, there is such an office that exists in the 
Department of the Navy (DON). Namely, The DON created the Office of the 
Director for Services Acquisition within the Office of the Deputy 
Assistant Secretary of the Navy for Acquisition and Logistics 
Management to assess the ``health and well-being'' of the Department's 
organic capabilities and competency base within the civilian workforce. 
To prevent increased reliance on services provided by the private 
sector in facility related, knowledge based, and equipment related 
services, we have conducted a comprehensive review of all civilian 
structure across the service for the purpose of determining those 
critical positions that we must retained based upon the projected 
financial environment. The results of that review are being assessed at 
the service manpower management level and will ultimately be presented 
to the service leadership for consideration and decision. Those 
determinations will drive further decisions regarding how to source any 
shortfalls to mission demand signal.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. Gen. Odierno, you stated that sequestration would 
mean that you would have to look at infrastructure efficiencies. Can 
you expand on how this would affect the organic base? How would our 
arsenals, the organic base that helps the Army to be a ready force, be 
affected?
    General Odierno. If sequestration were to occur and funding were to 
decrease to the suggested limits, the Army would have to implement a 
plan to cease funding less critical functions and functions that can be 
deferred. We have not yet determined which installations, programs or 
functions will be listed first for the operational forces, the organic 
base supporting them or our industrial base. Concerning the Army 
Arsenals and the rest of the organic industrial base, as the effects of 
the overall drawdowns ripple through the Army, resources will decrease 
causing industrial workload to do the same. As that occurs we will have 
to look at a number of options, all of which will potentially include 
decreases in personnel and capability at the Army Arsenals and other 
industrial facilities. Our intent will be to implement budget 
decrements in a logical and organized way to ensure we have a balanced 
organization capable of executing the total spectrum of requirements 
from high intensity operations to organic industrial maintenance.

    Mr. Schilling. Adm. Greenert, you talked about having to end 
procurement programs. Can you expand on how many procurement programs 
you would need to end? In ending these programs, you mentioned that 
some businesses would face the possibility of shutting down and have 
long-term consequences to the fleet. Can you speak to how that would 
harm the military's industrial base's ability to ``keep warm'' in case 
of war and what that would mean to our reaction time as a country? 
Would this also place our warfighters at risk?
    Admiral Greenert. Sequestration applies uniform percentage cuts to 
each ``program, project, and activity''- this means that every weapons 
program, research project, and military construction project is cut by 
an equal percentage. DOD and DON leadership is not allowed to manage or 
prioritize these reductions causing our readiness and procurement 
accounts to face a reduction of about 18 percent, rising to 
approximately 25 percent in the event military personnel funding is 
exempted from full sequestration.
    With this magnitude of reduction to each procurement and 
construction account, the Navy would be forced to terminate or 
significantly reduce most large procurement or military construction 
programs. We simply cannot buy three quarters of a ship, submarine, or 
building. Specifically, the Navy may need to delay and reduce the total 
quantity of the next generation ballistic missile submarine, delay or 
terminate unmanned ISR systems, terminate the Joint Strike Fighter 
program, and cancel the Littoral Combat Ship and associated mission 
module acquisitions. The combination of these measures and other cost-
saving proposals will result in a fleet of fewer than 230 ships, the 
smallest level since 1915. These reductions and cancellations will 
likely cause cost overruns and schedule delays due to increased 
overhead costs per unit and industrial base workforce reductions that 
will further complicate the execution of the programs and program 
elements that remain. The DOD has estimated that these effects may 
result in order quantity reductions by one third or more of the 
original, even though the accounts will only be cut by approximately 
25%. Reducing production quantities, eliminating skilled personnel, and 
closing production lines will stress individual companies fiscally and 
operationally, and destabilize the small group of companies that 
comprise Navy's industrial base. If these actions are taken, our 
partners in the industrial base will be hard-pressed to reconstitute 
its highly skilled workforce and re-open these production lines, to 
provide our nation additional war fighting capacity in the event of 
prolonged conflicts. The inability to rapidly reconstitute and employ 
this national asset will increase the risk to war fighters.

    Mr. Schilling. Gen. Schwartz, you stated that the Air Force would 
still be the best in the world even with these cuts. However, we must 
get used to a smaller Air Force if sequestration goes forward. Can you 
elaborate to how much of a squeeze this would put on our military as a 
whole if the Air Force cannot meet as many missions as it has for the 
last 20 years? What will this smaller Air Force mean in terms of 
modernizing our force and the work the Air Force does with our 
industrial base?
    General Schwartz. Further reductions driven by the Budget Control 
Act would require an enterprise-wide review of all resources and the 
potential elimination of lower priority missions and capabilities 
currently assigned to the Air Force. The Air Force will stay focused on 
strategic priorities and continue to build and improve key capabilities 
that support those priorities, while reducing other capabilities that 
we can no longer offer to the Joint team. It is likely that across the 
board reductions will be required to meet budget projections--including 
force structure and infrastructure--to avoid hollowing the force.
    The Air Force, regardless of its size, will continue to rely on 
national technology and the industrial base to develop, produce, and 
sustain the weapon systems and equipment required to fulfill our 
national security obligations in the air, space, and cyber domains. As 
our force structure adjusts to the emerging fiscal realities, so will 
the demands the Air Force places on the industrial base.

    Mr. Schilling. Gen. Amos, you mentioned that organic logistics 
capabilities are vital to a high state of unit readiness and logistical 
self-sustainment capability. Can you expand on what you mean by organic 
logistics capabilities?
    General Amos. At all warfighting levels, the Marine Corps operates 
as a Marine Air Ground Task Force (MAGTF), a balanced air-ground-
logistics team. Logistical self-sufficiency is an essential element of 
the MAGTF enabling our ability to rapidly deploy and sustain ourselves 
for extended periods upon arrival in hostile, austere, and uncertain 
environments without reliance on host nation support. This means that 
the Marine Corps' logistics mission, at all command and support levels, 
is to generate MAGTFs that are rapidly deployable, self-reliant, self-
sustaining, flexible, and capable of rapid reconstitution. Moreover, a 
MAGTF's logistics capabilities and accompanying supplies enable it, 
depending on size, to self-sustain its operations for extended periods 
while external resupply channels are organized and established.
    Mr. Schilling. Gen. Amos, you also mentioned that reset is 
distinguishable from modernization. How will a decrease in 
modernization affect the current fleet, the future fleet, and the 
current industrial base, both private and organic?
    General Amos. As we look forward, we must address our deficiencies 
and replace the equipment that is worn out from operations in Iraq and 
Afghanistan over the past decade. This process is known as reset and is 
wholly separate from modernization. Modernization entails judiciously 
developing and procuring the right equipment we will need for success 
in the conflicts of tomorrow, especially in those areas that underpin 
our core competencies. While budgetary pressures will likely constrain 
modernization initiatives we will mitigate that pressure by continuing 
to prioritize and sequence both our modernization and our sustainment 
programs to ensure that our equipment is always ready and that we are 
proceeding in a fiscally responsible manner. We recognize that our 
planned reduced force structure following our commitment in Afghanistan 
will necessitate some level of decreased modernization. However, any 
sizeable reductions in this regard could impact our ability to posture 
ourselves for response against future adversaries and threats.
    We are currently undertaking several initiatives to modernize the 
Total Force. The programmatic priority for our ground forces is the 
seamless transition of Marines from the sea to conduct sustained 
operations ashore whether for training, humanitarian assistance, or for 
combat. Our ground combat and tactical vehicle strategy is focused on 
the right mix of assets, balancing performance, payload, survivability, 
fuel efficiency, transportability and cost. In particular, the 
Amphibious Combat Vehicle is important to our ability to conduct 
surface littoral maneuver and seamlessly project Marine units from sea 
to land in permissive, uncertain and hostile environments. We are 
firmly partnered with the U.S. Army in fielding a Joint Light Tactical 
Vehicle to replace critical light combat weapon carriers. The two 
initiatives are sequenced to minimize budget bulges during their 
procurement phases and both programs will rely on a competitive and 
effective U.S. automotive and combat vehicle industrial base for more 
than the next decade. We have just completed the modernization of our 
medium tactical truck fleet and are moving toward completion of our 
heavy tactical truck fleet modernization. As we move into the 
sustainment phases for these vehicles, a healthy organic maintenance 
depot capability supported by a reliable parts supply will be necessary 
to keep the vehicles at a high state of readiness. Our remaining fleet 
of over 14,000 HMMWVs will require a similar maintenance capability.
    We are nearing completion of our ground fire support modernization 
with the completion of fielding of M777A2 howitzers, High Mobility 
Artillery Rocket Systems, and Expeditionary Fire Support Systems. 
Sustainment of those critical platforms is similarly dependent on a 
stable maintenance and supply capability. Our modernization focus will 
shift from platforms to munitions to seek greater ranges and increased 
precision while also seeking effective replacements for artillery 
cluster munitions.
    Another critical modernization effort is the Ground/Air Task 
Oriented Radar (G/ATOR), an expeditionary, short-medium range radar 
with state of the art technology against low observable threats. G/ATOR 
replaces five legacy radars with a single, multi-mission system, 
reducing life-cycle costs similar to JSF replacement of current air 
frames. G/ATOR supports Air Surveillance/Air Defense, Ground Weapons 
Locating and Air Traffic Control mission sets, and has the potential to 
replace aging radar systems across multiple Services. Currently 
entering the developmental test phase, the radar will begin low rate 
initial production in 2013. At the same time the Marine Corps is 
managing critical modernization programs across the spectrum of 
command, control, intelligence and surveillance.
    Marine Corps Aviation, which is on the cusp of its centennial of 
service to our Nation, continues its modernization that began over a 
decade ago. The continued development and fielding of the short take-
off and vertical landing (STOVL) F-35B Joint Strike Fighter remains the 
centerpiece of this effort. Once fully fielded, the F-35B replaces 
three legacy aircraft--F/A-18, EA-6B and AV-8B. DOD has already 
purchased 32 of these aircraft. Delivery is on track, and we look 
forward to receiving them at Marine Corps Air Station Yuma just nine 
months from now. The MV-22B Osprey continues to be a success story for 
the Marine Corps and the joint force. Our squadron fielding plan is 
well under way as we continue to replace our 44 year old, Vietnam-era 
CH-46 helicopters. We must procure all required quantities of the MV-
22B in accordance with the program of record. Unmanned Aircraft Systems 
(UAS) will continue to play a vital intelligence, surveillance and 
reconnaissance role from the platoon through Marine Expeditionary Force 
level and modernization of our Group 1 and 2 classes of UAS ensures 
this critical capability is carried into the future.
    When combined with the capabilities of our individual Marines and 
the flexibility of the Marine Air Ground Task Force, all of the above 
initiatives enable the Marine Corps as a responsive, multi-capable 
expeditionary force in readiness today and well into the future. These 
combined efforts require and support a stable organic maintenance 
capability, an innovative industrial base and an efficient supply 
chain. There will likely be significant impacts to the U.S. industrial 
base if large scale programs such as our aircraft and shipbuilding 
production lines are shut down due to decreased procurement in our 
current acquisition strategy. Once shut down, these lines simply cannot 
be restarted later at a moment's notice; and there likely would be 
ripple effects at the subcontractor/small business level from which 
parts and other supplies are made to support these programs. Moreover, 
the technical expertise of those working in these fields can atrophy 
over time or be attracted to competitor nations, impacting our national 
security. Therefore, it is critically important that all prevailing 
factors be weighed when making the tough decisions on modernizing the 
Corps for the future.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. General Odierno, as the Army continues its ongoing 
efficiency reviews and continues work on the FY 2013 budget request, 
how are you working to ensure that the Army's organic manufacturing 
capabilities are preserved? What is the Army doing to ensure that the 
arsenals, ammunition plants, and depots are workloaded sufficiently to 
maintain their critical capabilities? Additionally, how are you working 
to ensure that the organic manufacturing workforce, and the skills they 
have developed over the last decade that will be critical to our 
ability to respond to future contingencies, are being maintained?
    General Odierno. The Army has committed to maintain workload and 
skill sets for our arsenals and ammunition plants by exploring Foreign 
Military Sale opportunities to manufacture components for foreign 
nations; investing in arsenal and ammunition plant infrastructure 
(facilities & equipment) to ensure that they are modernized with 
advanced technological capabilities; encouraging arsenals to partner 
with commercial firms to meet future requirements; and encouraging 
involvement with the Program Managers (PMs) at the beginning of the 
acquisition process to optimize consideration of arsenal plant 
capabilities. The Army has taken a number of steps to ensure that our 
depots are postured to support base requirements by identifying and 
prioritizing core depot requirements; sizing our organic base 
facilities, infrastructure, and workforce to meet and sustain those 
core depot requirements; and using proven practices like Lean Six Sigma 
to ensure that our maintenance depots maintain their core competencies 
and capabilities to meet future requirements. The Army continues to 
invest in the manufacturing arsenal infrastructure to ensure that our 
facilities are modernized with advanced technological capabilities. 
Facilities capital investment improvements alone totaled close to $25 
million (M) in Fiscal Year 2011 (FY11) and are expected to remain at 
this level through the Five Year Defense Plan. Mechanisms such as 
Public Law 105-261, Section 806, and Procurement of Ammunition provide 
the Army authority to limit procurement of ammunition to the National 
Technology and Industrial Base to maintain facilities for furnishing 
ammunition. The Army also began, a year ago with the FY12-16 Program 
Objective Memorandum (POM), to realign the depot maintenance resource 
prioritization process to ensure that workloads required to meet core 
depot requirements are fully resourced. This process ensures that, at a 
minimum, our organic maintenance depots will retain the critical skills 
and capabilities to repair our key warfighting equipment in order to 
sustain our core depot capability requirements annually. Permanent 
workforces at the depots are sized to sustain core depot workload 
requirements with temporary and contractor workforces adjusted 
accordingly as fluctuations in workloads occur. This process was 
implemented during the depot maintenance requirements determination and 
budget process for FY13-17 POM and will continue into the foreseeable 
future.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. Currently, the Army is considering two program 
solicitations for small arms--one for a new Individual Carbine to 
replace the M4 & M16 and another for product improvements to the 
current M4/M16 platform. In your judgment, does the Army have the funds 
to do both?
    General Odierno. The Army currently has enough funding to execute 
both programs. However, funding for the programs in Fiscal Year 2019 
and beyond will depend upon the Army's revised priorities for that time 
frame and allocation of funds to meet those priorities across all Army 
programs. It is also dependent upon the outcome of the Individual 
Carbine competition and a possible decision to completely equip the 
Army with carbines.

    Mr. Scott. In recent testimony, both General Ham of AFRICOM and 
General Mattis of CENTCOM commented about the utility of Joint STARS in 
their theaters. Could you describe how Joint STARS was used in Libya 
and the importance of its battle management/command and control role 
there and for future conflicts?
    General Schwartz. The Joint Surveillance Target Attack Radar System 
(JSTARS) aircraft and its on-board Battle Management/Command and 
Control (BMC2) system was used over Libya to provide real-time 
detection, tracking, and attack coordination against ground moving 
targets. During the Libyan operations, the Air Force surged the JSTARS 
aircraft from March through October 2011 without reducing support to 
Operation ENDURING FREEDOM. The Joint STARS provided wide area sensor 
data of Libya and was effective in detecting, classifying, tracking and 
dynamically targeting regime forces.
    Mr. Scott. Last February, you told this committee that an important 
study was underway to determine future investments in Joint STARS and 
the study would be released in the ``late spring'' [of 2011]. In the 
fiscally constrained environment we're in, it seems upgrading a proven 
platform best serves to reduce costs and help meet warfighting needs. 
It appears Joint STARS will be around for a long time and modernization 
makes sense. From your testimony earlier this year: Where are you with 
the Joint STARS study--when will it be released, and what are your 
plans to modernize Joint STARS in the upcoming years, FY13 and beyond?
    General Schwartz. Air Combat Command (ACC) has worked diligently on 
the Synthetic Aperture Radar/Moving Target Indicator (SAR/MTI) and 
Joint STARS mission area Analysis of Alternatives (AoA) with cost, 
risk, and effectiveness analysis to ``evaluate materiel solutions to 
fulfill all, or part of, the Departments overall SAR/MTI 
requirements.''
    The detailed results of this two-phased analysis were presented to 
the Air Force Requirements Oversight Committee (AFROC) on 15 September 
2011. The AFROC directed the AoA team to pare down their list of 
alternatives by providing actionable cost, risk, and effectiveness 
results. ACC provided the SAR/MTI Joint STARS Mission Area AoA Final 
Report to the AFROC for validation on 30 November 2011. Now that the 
AFROC has validated the Final Report, we anticipate its release by the 
Vice Chief of Staff of the Air Force in early 2012.
    The Air Force has several JSTARS modernization projects in FY133 
and beyond. These include: installation of an Enhanced Land Maritime 
Mode (ELMM) modification to add maritime and improved land tracking 
radar modes; 8.33 kHz VHF radios with Single Channel Ground and 
Airborne Radio System (SINCGARS) voice and data communication; new 
Cryptographic Modernization Program (CMP) compliant Multifunction 
Information Distribution System Joint Tactical Radio System (MIDS JTRS) 
radios for Link-16 communication with other aircraft; and new Clipper 
Operator Workstation (OWS) computers and Radar Airborne Signal 
Processors (RASP) to address Diminishing Manufacturing Sources (DMS).
    Mr. Scott. General Mattis stated he needed more Joint STARS in 
CENTCOM and that GMTI was the number one intelligence shortfall 
reported by his field commanders. Are you doing everything you can to 
maximize the availability of this key aircraft given the growing 
demands by the combatant commanders?
    General Schwartz. The Air Force continues to work diligently to 
maximize the employment availability of the Joint Surveillance Target 
Attack Radar System (JSTARS) in the CENTCOM area of responsibility to 
best meet overall mission requirements. Over time, we have managed the 
JSTARS as a limited supply/high demand asset by maintaining steady 
state combat capability in CENTCOM with the capacity to support short-
term surges such as Operations ODYSSEY DAWN and UNIFIED PROTECTOR.
    The JSTARS, which includes the E-8 aircraft, the ground based Joint 
Services Work Station and the Common Ground Station, has provided 
ground moving target information and airborne battle management and 
command and control (C2) to Combatant Commanders since the 1991 Gulf 
War. The Air Force currently has 12 JSTARS aircraft serving on the 
front lines with another five aircraft for training and backup 
inventory.
    In this challenging fiscal environment we must carefully balance 
modernization requirements against basic sustainment needs. Despite 
limited funding, the Air Force has identified several key modernization 
projects that will deliver much-needed capability improvements 
throughout the fleet. This includes aircraft modifications to improve 
the radar tracking of maritime and land targets and updated VHF radios 
with ground and airborne voice and data communication capability. 
Additionally, integration is planned for Link-16 capability to connect 
JSTARS with other aircraft. Development is also underway to integrate 
new computers and radar processors that will improve system performance 
and address diminishing manufacturing sources issues.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. Should the Super Committee fail to act and the 
Government heads toward sequestration what would your branch of service 
look to first as a means to find additional savings?
    General Odierno. Should the Super Committee fail to act and the 
Government heads toward sequestration, the Army will look toward 
balanced reductions in all Army accounts (manpower, force structure, 
maintenance, equipment, training, and infrastructure accounts in all 
components). Disproportionate changes in any one account risks creating 
an Army out of balance. The Army is committed to responsible management 
of the required budgetary cuts and not jeopardizing the effectiveness 
and safety of our Soldiers at war. However, cuts of this magnitude 
could be devastating, and effecting every aspect of the Army and 
challenging our ability to sustain an All Volunteer Force.

    Ms. Hanabusa. Should the Super Committee fail to act and the 
Government heads toward sequestration what would your branch of service 
look to first as a means to find additional savings?
    Admiral Greenert. Sequestration applies uniform percentage cuts to 
each program, project, and activity by individual budget line item. 
This methodology for reduction, required in the Budget Control Act, 
does not allow the Department of Defense or the Navy to adjust our 
reductions.

    Ms. Hanabusa. Should the Super Committee fail to act and the 
Government heads toward sequestration what would your branch of service 
look to first as a means to find additional savings?
    General Schwartz. The Department of Defense has proactively pursued 
a budget reduction/efficiencies strategy and the Air Force has taken 
its share of reductions over the past few years. Further cuts should be 
based on changes in strategy and corresponding reductions in force 
structure. Additional reductions would drive programs to be 
restructured, reduced and/or terminated in the investment portfolio. 
All investment accounts would be impacted including our high-priority 
Acquisition Category I modernization efforts such as MQ-9, Joint Strike 
Fighter, and KC-46A. Sequestration would drive potential internal 
realignment and loss or de-scoping of military construction projects. 
The Air Force would need to implement actions to the operations and 
maintenance appropriation such as reductions to flying hours and weapon 
system sustainment; curtail training; slowdown civilian hiring and 
implement potential furloughs or reductions in forces; reduce daily 
operations to emphasize mission critical operations (i.e. training, 
supplies, equipment); and defer/stop infrastructure investments and 
mission bed downs. Absorbing these reductions would drive readiness 
impacts ``hollowing out'' the force while making our ability to cover 
any emergent execution year requirements (i.e., fuel price increase or 
Libya operations) extremely difficult.

    Ms. Hanabusa. Recently, General Dempsey and Secretary Panetta have 
both stated that we need a forward deployed presence in the Pacific. In 
your opinion, where specifically does this forward presence need to be 
placed?
    General Amos. Forward deployed Naval expeditionary forces are vital 
in the Pacific where the ocean is the dominant domain. National policy 
and the Commander of United States Pacific Command (PACOM) determine 
the specific location of forward deployed Marines in the Pacific Rim 
Area of Responsibility. The Marine Corps is working closely with PACOM 
to determine how best to posture the Marine Corps to support 
operational requirements in the Pacific.
    Forward presence is both a combination of land and sea based Naval 
forces. The enduring bases in Okinawa and mainland Japan have served 
U.S. National Security interests well for over 60 years. Rotational 
presence in locations such as Korea, Australia, the Philippines, and 
Singapore reassures our allies and partners. Sea basing using 
amphibious warships is uniquely suited to provide the Combatant 
Commander with flexibility to deploy forces anywhere in the Pacific 
region without having to rely on multiple bases or imposing our 
presence on a sovereign nation. Sea basing offers forward deployed 
presence, which serves as deterrence and provides a flexible, agile 
response capability for crises on contingencies. Maritime 
prepositioning also offers the capability to rapidly support and 
sustain Marine forces in the Pacific for training, exercises, or 
operations.
    Ms. Hanabusa. You have mentioned that the USMC has the capability 
to provide forward expeditionary forces in the Pacific. Within the 
context you are using it, what constitutes an expeditionary force (in 
terms of the number of troops, equipment, supplies, training capability 
and readiness level)? Why do you believe the USMC is uniquely suited to 
provide this capability as it relates to the overall mission in the 
PACOM AOR?
    General Amos. Forward deployed Naval expeditionary forces are vital 
in the Pacific where the ocean is the dominant domain. The completeness 
and sufficiency of the MAGTF across the range of military operations as 
well as its expeditionary naval character make it conspicuously 
relevant in the Pacific where no other forward deployed component of 
the Joint Force possesses the flexibility to operate simultaneously in 
the required sea, air, and land domains.
    Forward presence is both a combination of land and sea based Naval 
Forces. This is exemplified by the forward basing of III Marine 
Expeditionary Force in the Pacific. The enduring bases in Okinawa and 
mainland Japan and presence of Marines there have well-served U.S. 
national security interests well for over 60 years. Rotational presence 
of Marines in locations such as Korea, Australia, the Philippines, and 
Singapore reassures our allies and partners. Sea basing using 
amphibious ships is uniquely suited to provide the Combatant Commander 
with flexibility to deploy forces anywhere in the Pacific region 
without having to rely on multiple bases or imposing our presence on a 
sovereign nation. Sea basing offers forward deployed presence, which 
serves as deterrence and provides a flexible, agile response capability 
for crises on contingencies. Maritime prepositioning also offers the 
capability to rapidly support and sustain Marine forces in the Pacific 
for training, exercises, or operations.
    National policy and the Commander of United States Pacific Command 
(PACOM) determine the specific location of forward deployed Marines in 
the Pacific Rim Area of Responsibility. The Marine Corps is working 
closely with PACOM to determine how best to posture the Marine Corps to 
support operational requirements in the Pacific.
    Marines organize around the Marine Air Ground Task Force (MAGTF), 
which is our principal warfighting organization for conducting missions 
across the range of military operations. The MAGTF is a scalable, 
versatile force that is able to respond to a broad range of 
contingency, crisis, and conflict situations. There are four types of 
MAGTFs: the Marine Expeditionary Force (MEF), the Marine Expeditionary 
Brigade (MEB), the Marine Expeditionary Unit (MEU), and the Special 
Purpose MAGTF (SPMAGTF). The chart below depicts the approximate sizes 
of the MEU, MEB, and MEF in terms of personnel, supplies (logistical 
sustainment), and equipment:

------------------------------------------------------------------------
                          MEF                MEB               MEU
------------------------------------------------------------------------
TROOPS             20-60,000         14-17,000        1,500-2,500
------------------------------------------------------------------------
SUPPLIES           60 days            30 days           15 days
------------------------------------------------------------------------
EQUIPMENT          .................  ................  ................
------------------------------------------------------------------------
    VEHICLES       493*              115*             32*
------------------------------------------------------------------------
    AIRCRAFT       348               178              29
------------------------------------------------------------------------

    * Only accounts for M1A1 Tanks, Amphibious Assault Vehicles, Light 
Armored Vehicles, and Artillery Howitzers.

    MAGTFs are expeditionary in nature and are trained to deploy aboard 
amphibious ships, which provides commanders with great operational 
flexibility. They are balanced force packages containing organic 
command, ground, aviation, and logistics elements. The MAGTF's fixed- 
and rotary-wing aircraft, ground combat forces, and full range of 
logistics capabilities make it a complete combat formation with the 
required capabilities to operate across the spectrum of conflict. This 
completeness of capability, combined with sufficient capacity (mass and 
combat power), give the MAGTF the ability to respond to unexpected 
crises from humanitarian disaster relief efforts and non-combatant 
evacuation operations to counter-piracy operations, raids, or precision 
air strikes. When rapidly reinforced, the MAGTF can assure access 
anywhere in the world in the event of a major contingency and, along 
with the joint force, prosecute a major land campaign.
    Ms. Hanabusa. Should the Super Committee fail to act and the 
Government heads toward sequestration what would your branch of service 
look to first as a means to find additional savings?
    General Amos. To ensure the Marine Corps is best organized for the 
challenging future security environment, we conducted a comprehensive 
and detailed force structure review aimed at identifying a balanced 
force that is postured for the future. Using the lessons learned from 
10 years of constant combat operations, the review arrived at an end 
strength of 186,800 following our commitment to Afghanistan. The Marine 
Corps affirms the results of that initial strategy-driven effort, but 
has begun to readjust its parameters based on the fiscal realities of 
spending cuts outlined in the Budget Control Act of 2011.
    If sequestration is ``triggered'', the Marine Corps likely will be 
driven to a force structure significantly below 186,800 Marines. We 
will also be forced to reduce our reset and modernization programs that 
are required to meet the demands of the modern battlefield, and there 
would be negative impacts to our operations and maintenance accounts. 
These decisions collectively could result in a high degree of risk at a 
time when the world is increasingly more dangerous.
    Equally as important, sequestration will make it difficult for the 
Marine Corps to be ``the most ready when the nation is least ready'' as 
directed by the 82nd Congress. Sequestration would likely result in a 
decreased forward presence of Marines which in turn would degrade our 
responsiveness to contingencies and crises. Moreover, the dwell time of 
service members would be reduced, impacting the quality of life for our 
Marines and their families. In addition, sequestration would slow the 
necessary reset of our equipment coming out of Afghanistan. In short, a 
reduced Marine Corps end strength level combined with reduced 
modernization and operation and maintenance accounts presents 
unacceptable risk both institutionally and for the Nation.
    We also must be faithful to the obligations we have made to those 
who serve honorably, and guard against breaking the chain of trust that 
exists with them. This idea is central to the concept of the All 
Volunteer Force. Sequestration-initiated cuts with precipitous 
reductions in manning, early retirement boards and the like would cause 
us to break faith with our Marines and their families who have 
sacrificed so much over the past decade.
    Through it all, we will make the hard decisions and redouble our 
commitment to our traditional culture of frugality. We will continue to 
ask only for what we need, not what we want. Ultimately, we will build 
the most capable Marine Corps the nation can afford.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GRIFFIN
    Mr. Griffin. Has the Air Force analyzed what effect sequestration 
would have on Air Force Bases. Could it result in another BRAC?
    General Schwartz. A Base Realignment and Closure (BRAC) round would 
require specific authorizing legislation. While a sequester would 
clearly worsen the Air Force's facilities surplus by forcing across the 
board reductions in Air Force activities it would not itself result in 
a BRAC.
    Mr. Griffin. What effect would sequestration have on the future of 
the C-130 Avionics Modernization Program. Have there been any 
discussions of reducing the number of C-130s that would receive the 
AMP?
    General Schwartz. Based on the ongoing Department of Defense budget 
review, we are confident further spending reductions beyond the Budget 
Control Act's first round of cuts cannot be done without substantially 
altering our core military capabilities and therefore our national 
security.
    In the current fiscal environment, the Air Force will continue to 
closely evaluate modernization programs and how they relate to future 
strategy and capability while also considering budgetary limitations. 
Like most Air Force modernization efforts, C-130 AMP is currently being 
evaluated in terms of future Global Mobility strategy as well as cost 
versus benefit relative to the legacy C-130 fleet.
    Mr. Griffin. The Air Force continues to experience a high 
operations tempo, which has resulted in detrimental effects on 
equipment such as engine and structural fatigue, deterioration, 
corrosion, and increased rates of component failures. The increased 
tempo also delays routine maintenance. What effect would sequestration 
have on our C-130s and other airlift planes that provide essential 
services to our troops overseas?
    General Schwartz. In a sequestration environment, the Air Force 
will need to make sustainment and modernization decisions to optimize 
readiness for all weapon systems, which includes our C-130s and other 
airlift systems. The Air Force will identify maintenance to defer based 
upon capability priorities in line with Department of Defense 
priorities and guidance. Without updated funding status, force 
structure changes, flying hour distribution, and prioritized 
distribution of sustainment funds, an accurate assessment of impacts to 
specific systems cannot be made. Presently, the Air Force has not 
deferred any required depot maintenance for airlift platforms, 
including the C-130.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. The navy is short about 30 ships from the 313 goal set 
by Secretary Mabus as the minimum necessary to meet current operational 
needs. How does the navy intend to reach its goal in the budgetary 
environment, especially when current shortfalls in maintenance funding 
have left one in five of existing vessels unfit for combat?
    Admiral Greenert. Although less that the 313 ship floor, the 
current Navy battle force of 284 ships provides a fleet capable of 
meeting Combatant Commander demands with manageable risk. Going 
forward, our current shipbuilding and aviation plans balance the 
anticipated future demand for naval forces with expected resources. 
With anticipated funding being flat or declining in the future, we will 
focus our investments to ensure the battle force has the capability for 
Navy's core missions such as ensuring Joint operational access and the 
capacity to remain forward in the most critical regions. Our plans also 
take into account the importance of maintaining an adequate national 
shipbuilding design and industrial base.
    Our deployed ships are materially fit for combat. Ships that are in 
deep maintenance are not ready for combat operations and are a normal 
part of our ongoing Fleet Readiness and Training Process. As for 
operating ships, recent readiness reports by the fleet indicate that 
the trend of higher failure rates by surface ships on inspections by 
the Navy Board of Inspections and Survey is turning--and we will remain 
vigilant and proactive. We conducted a review of Surface Force 
readiness over the last year, which identified a number of root causes. 
These include reduced surface ship and intermediate maintenance center 
manning and the disestablishment (by BRAC 1995) of the surface ship 
life cycle engineering organization. These changes stopped updates to 
ship class maintenance plans, eliminated the technical support to plan 
maintenance periods, and reduced the ability of crews to complete 
required maintenance.
    To address these problems, we put executive-level oversight in 
place and initiated a multi-prong plan to improve surface ship 
readiness. This plan includes increases to surface ship manning, 
restoring organizations to plan and manage ship lifecycle maintenance, 
and reestablishing technical support for planning and conducting 
maintenance periods. These corrections are all in place or in progress. 
We also significantly increased the FY 2011 and FY 2012 baseline Ship 
Maintenance budget submissions (compared to FY 2010). Today, Navy's 
maintenance account is fully funded.
    While our ability to plan and conduct maintenance is much more 
comprehensive, an additional factor affecting surface ship readiness is 
the high operational tempo of the last ten years. Since 2001, underway 
days per ship increased by 15 percent while fleet size decreased by 10 
percent. This reduces the time a ship is available in port to conduct 
maintenance--even if it is pre-planned and fully funded. The Navy is 
investigating options to improve the balance between presence and pre-
deployment training and maintenance requirements, in order to achieve a 
sustainable level of operations that is consistent with the size of the 
fleet.
    Mr. Palazzo. Can we get to 313 ships? If not what is the impact to 
readiness?
    Admiral Greenert. The Fiscal Year 2012 Long-Range Shipbuilding 
Tables submitted to Congress show the fleet reaching 313 ships by 
Fiscal Year 2019. The main assumptions behind this plan are that our 
ships reach their expected service lives and that we and our 
shipbuilders can continue to build and deliver ships on schedule.
    Today, these key assumptions are not being met. Since 2000, the 
fleet has about 10% fewer ships, and on average each ship spends about 
15% more days underway each year to meet Combatant Commander demands. 
The greater amount of underway time comes at the expense of training 
and maintenance. Today we are unable to complete all the maintenance 
needed on each ship and aircraft, reducing their service lives. 
Resources alone cannot alleviate this issue. We will need to establish 
a sustainable level of deployed forces through the DOD Global Force 
Management process. In conjunction with adjusting the GFM plan, we are 
adjusting our Fleet Readiness and Training Plan to establish a 
sustainable operational tempo and complete required maintenance and 
training between deployments. This will constrain the number of ships 
and aircraft we deliver to Combatant Commanders in the future, but will 
ensure ships and aircraft reach their expected service lives and help 
avoid a further decrease in fleet capacity.
    To reach our ship inventory goals, we also need to build and 
deliver ships on schedule. We continue to work to reduce costs and 
incentivize our industry partners to remain on schedule and maximize 
the Navy's return on investment. To reduce costs in general, our 
shipbuilding strategy leverages existing designs and proven 
technologies as much as possible. The Department has also refined its 
internal 2-Pass/6-Gate review process to ensure requirements are set 
early and balanced against cost, and that this balance is visible and 
managed throughout the acquisition process. The Navy has strengthened 
acquisition policy to improve program oversight, control cost growth, 
and more effectively monitor contractor performance. The ability to 
build and deliver our fleet on time and under cost continues to require 
the combined effort of and collaboration between the Navy, the 
Congress, and the shipbuilding industry.

    Mr. Palazzo. Air Force Vice Chief of Staff Gen. Philip Breedlove 
testified last week that the Air Force will ``not back off of the 
requirement'' to deliver goods to ground forces, but he said it's no 
longer clear whether the Air National Guard's newest airlifter, the C-
27J, or the C-130 will fill that role. He said ``that is still pending 
and is all part of this ongoing budget review'' I know many of my 
colleagues on the Committee care deeply about the C-27J program, and 
this statement startled a few of us.
    Could you please clarify and elaborate on General Breedlove's 
statement?
    General Schwartz. Based on the ongoing Department of Defense budget 
review, we are confident that further spending reductions beyond the 
Budget Control Act's first round of cuts cannot be done without 
substantially altering our core military capabilities and therefore our 
national security. In the current fiscal environment, the Air Force 
will continue to closely evaluate all weapon system programs and how 
they relate to future strategy and capability while also considering 
budgetary limitations. Like most Air Force airlift programs, the C-27J 
program is currently being evaluated in terms of future Global Mobility 
strategy as well as cost versus benefit relative to the legacy C-130 
fleet. No decision has been formalized and the Air Force is working 
with the Joint Staff and Office of the Secretary of Defense to review 
all options to minimize risks given increased fiscal constraints.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. I proudly represent the Second District of Alabama that 
has Fort Rucker-the home of the U.S. Army Aviation Center of 
Excellence. Recently, we had the privilege of Chairman McKeon visiting 
the base and to see the training that our rotary wing aviators go 
through and the great work that our soldiers are doing there. Our 
rotary wing war fighters have been key to our mission in the Middle 
East.
    However, helicopter incidents are the third-leading cause of 
fatalities in the Iraq War. In Afghanistan, in 2008 helicopter-related 
losses was the number 1 cause of deaths with direct fire being the 
second cause and IED attacks as third. Weather-related issues, 
disorienting brownout conditions, engine failure, wire strikes and 
flying into terrain of which the pilot was unaware accounts for 80 
percent of Iraq and Afghanistan helicopter losses. Environmental 
conditions affect every facet of rotary wing operations. However, many 
of these losses can be mitigated with various new technologies, glass 
cockpit, and other capabilities to give the pilot the necessary tools.
    My question is how is the Army moving to encompassing these new 
instruments and capabilities to provide the war fighter with the 
necessary tools to mitigate many of these causes of helicopter 
incidents?
    General Odierno. Every aircraft currently under procurement has a 
fully modernized cockpit which includes flight symbology for all modes 
of flight, moving maps and enhanced flight controls improving 
controllability.
    The Army is demonstrating significant improvement in the most 
damaging class of accidents attributed to Degraded Visual Environment 
(DVE). This improvement can be attributed to the ongoing aircraft 
modernization investment. However, DVE remains a significant factor in 
the majority of non-hostile accidents. Despite noted improvements, the 
Army continues to evaluate potential systems to enhance the pilot's 
ability to maintain situational awareness when visual references are 
lost. In addition, we are seeking focused solutions including active 
radar penetrating sensors to ``see through'' brownout in the non-
modernized fleet which may also supplement our modernized fleet's 
capability. As technology improves, the Army will continue to develop 
the right mix of mission planning systems, symbology, flight controls, 
displays and sensors to turn DVE from a hazard to a tactical advantage 
on the battlefield.
    Mrs. Roby. In working with the bases in my state, I understand the 
Army has a goal to have a joint multi-role aircraft for rotary wing 
transport on the books by 2030. The concern is that emphasis has been 
placed on modernizing our current rotary wing fleet and we may have 
lost sight on moving to a new platform. Current platforms are going 
limited even with modernization in several areas that we must move 
forward including: need crafts to go faster than 200 knots, reducing 
logistic footprint and reduce fuel consumption. With all of the 
concerns of what the action of Joint Select Committee on Deficit 
Reduction will have on DOD appropriations, what will the possible 
reduction in appropriations do in impacting that deadline?
    General Odierno. Reductions in appropriations for the Department of 
Defense could delay the development of technologies that could be 
applicable to the Joint Multi-Role Aircraft (JMR). Stable funding is 
key to developing and maturing these required technologies.
    The Army fully intends to continue to pursue development of the JMR 
to fill capability gaps that cannot be addressed now because current 
technologies are either infeasible or too immature. These capability 
gaps are in the areas of survivability, lethality, performance, 
maintainability, supportability, flexibility, and versatility. 
Development of the JMR will lead to common aircraft components that 
will be scalable in size and will provide a common aircraft 
architecture to support mission-specific equipment packages to meet 
future vertical lift requirements.
    While the Army pursues the development of the JMR, it must also 
continue with modernization efforts on current platforms to ensure that 
Army aviation units are modular, capable, lethal, tailorable, and 
sustainable. These modernization efforts mitigate capability gaps until 
the JMR technologies mature.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
